<html>
<title> - H.R. 1118, STAFFING FOR ADEQUATE FIRE AND EMERGENCY RESPONSE (SAFER) ACT OF 2003</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                    H.R. 1118: STAFFING FOR ADEQUATE
                  FIRE AND EMERGENCY RESPONSE (SAFER)
                              ACT OF 2003

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 4, 2003

                               __________

                           Serial No. 108-15

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science


87-543              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
LAMAR S. SMITH, Texas                RALPH M. HALL, Texas
CURT WELDON, Pennsylvania            BART GORDON, Tennessee
DANA ROHRABACHER, California         JERRY F. COSTELLO, Illinois
JOE BARTON, Texas                    EDDIE BERNICE JOHNSON, Texas
KEN CALVERT, California              LYNN C. WOOLSEY, California
NICK SMITH, Michigan                 NICK LAMPSON, Texas
ROSCOE G. BARTLETT, Maryland         JOHN B. LARSON, Connecticut
VERNON J. EHLERS, Michigan           MARK UDALL, Colorado
GIL GUTKNECHT, Minnesota             DAVID WU, Oregon
GEORGE R. NETHERCUTT, JR.,           MICHAEL M. HONDA, California
    Washington                       CHRIS BELL, Texas
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         SHEILA JACKSON LEE, Texas
W. TODD AKIN, Missouri               ZOE LOFGREN, California
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
MELISSA A. HART, Pennsylvania        BRIAN BAIRD, Washington
JOHN SULLIVAN, Oklahoma              DENNIS MOORE, Kansas
J. RANDY FORBES, Virginia            ANTHONY D. WEINER, New York
PHIL GINGREY, Georgia                JIM MATHESON, Utah
ROB BISHOP, Utah                     DENNIS A. CARDOZA, California
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama
TOM FEENEY, Florida
RANDY NEUGEBAUER, Texas


                            C O N T E N T S

                              June 4, 2003

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............    15
    Written Statement............................................    16

Statement by Representative Ralph M. Hall, Minority Ranking 
  Member, Committee on Science, U.S. House of Representatives....    17
    Written Statement............................................    17

Statement by Representative Nick Smith, Chairman, Subcommittee on 
  Research, Committee on Science, U.S. House of Representatives..    18
    Written Statement............................................    19

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science, U.S. House of Representatives............    20

Prepared Statement by Representative Eddie Bernice Johnson, 
  Ranking Minority Member, Subcommittee on Research, Committee on 
  Science, U.S. House of Representatives.........................    21

Prepared Statement by Representative Zoe Lofgren, Member, 
  Subcommittee on Research, Committee on Science, U.S. House of 
  Representatives................................................    21

                                Panel 1:

Representative Curt Weldon from the State of Pennsylvania; 
  Member, Committee on Science, U.S. House of Representatives
    Oral Statement...............................................    22

Representative Bill Pascrell, Jr., from the State of New Jersey
    Oral Statement...............................................    25
    Written Statement............................................    27

                                Panel 2:

Senator Christopher J. Dodd from the State of Connecticut
    Oral Statement...............................................    28
    Written Statement............................................    30

                                Panel 3:

James M. Shannon, President, National Fire Protection Association
    Oral Statement...............................................    33
    Written Statement............................................    35
    Biography....................................................    37
    Financial Disclosure.........................................    38

Michael D. Quill, Chief, Auburn, New York Fire Department
    Oral Statement...............................................    40
    Written Statement............................................    41
    Biography....................................................    43
    Financial Disclosure.........................................    44

Jeffrey C. Cash, Chief, Cherryville, North Carolina Fire 
  Department
    Oral Statement...............................................    45
    Written Statement............................................    46
    Biography....................................................    49
    Financial Disclosure.........................................    52

Michael D. McNeill, 9th District Vice President, International 
  Association of Firefighters
    Oral Statement...............................................    52
    Written Statement............................................    54
    Biography....................................................    58
    Financial Disclosure.........................................    59

Discussion.......................................................    60

             Appendix 1: Additional Material for the Record

Statement Concerning H.R. 1118, submitted on behalf of the ``Two-
  Hatters Coalition''............................................    78

H.R. 1118, Staffing for Adequate Fire and Emergency Response 
  Firefighters Act of 2003.......................................    83

 
 H.R. 1118, STAFFING FOR ADEQUATE FIRE AND EMERGENCY RESPONSE (SAFER) 
                              ACT OF 2003

                              ----------                              


                        WEDNESDAY, JUNE 4, 2003

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Sherwood L. 
Boehlert (Chairman of the Committee) presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                    H.R. 1118, Staffing for Adequate

                  Fire and Emergency Response (SAFER)

                              Act of 2003

                        wednesday, june 4, 2003
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. PURPOSE

    On Wednesday, June 4, 2003, the House Science Committee will hold a 
hearing to receive testimony on H.R. 1118, Staffing for Adequate Fire 
and Emergency Response (SAFER) Act of 2003, introduced by Chairman 
Boehlert on March 6, 2003.

2. WITNESSES

The Honorable James Shannon is a former member of Congress and 
President of the National Fire Protection Association (NFPA), a 
nonprofit organization with 75,000 members aimed at reducing the burden 
of fire hazards by providing and advocating scientifically-based 
consensus codes and standards, research, training, and education.

Mr. Michael Quill is chief of the Auburn, New York Fire Department. The 
Auburn Fire Department serves a population 29,000 and is staffed by 
approximately 70 career firefighters.

Mr. Jeff Cash is chief of the Cherryville, North Carolina Fire 
Department. The Cherryville F.D. serves a community of 5,800 and is 
staffed by eight full-time and 30 volunteer firefighters.

Mr. Mike McNeill is 9th District Vice President of the International 
Association of Firefighters (IAFF) in Denver, Colorado.

3. OVERARCHING QUESTIONS

    The hearing will address the following overarching questions:

        <bullet> What are some of the personnel challenges facing 
        urban and rural, volunteer and career fire departments in terms 
        of preparedness and response capabilities?

        <bullet> How have issues such as changing demands on the fire 
        services, the threat of terrorism, and National Fire Protection 
        Association (NFPA) staffing standards affected the ability of 
        the fire services to respond to emergencies? How have these 
        issues, along with tight State and local government budgets, 
        affected the need to address staffing issues?

        <bullet> Why should the Federal Government become involved in 
        the staffing of local fire departments?

        <bullet> How can H.R. 1118 best address the personnel-related 
        findings and recommendations of the Congressionally mandated 
        report, A Needs Assessment of the U.S. Fire Service?

4. BRIEF OVERVIEW

        <bullet> In 1974, Congress enacted the Federal Fire Prevention 
        and Control Act, which established the United States Fire 
        Administration (USFA) in response to the loss of life and 
        property to fire. Since that time, USFA has helped reduce 
        deaths and other fire-related losses through data collection, 
        public education, research, and training.

        <bullet> Today, almost 30 years since USFA was created, fire-
        related injuries and losses are dramatically lower. However, 
        the U.S. still has one of the worst fire safety records in the 
        industrialized world, including a per capita death rate 
        significantly higher than most other developed countries.

        <bullet> As part of a larger effort to address these continued 
        safety concerns, the National Fire Protection Association 
        (NFPA) developed comprehensive standards to guide career and 
        volunteer fire departments on the minimum number of personnel 
        needed for safe and effective firefighting in various emergency 
        situations. The standards, known as NFPA 1710 and NFPA 1720, 
        were formally approved by NFPA in August 2001.

        <bullet> The International Association of Fire Chiefs (IAFC) 
        has estimated that two-thirds of the Nation's 26,000 fire 
        departments do not meet the recommended minimum staffing called 
        for in the NFPA standards, and that 75,000 new firefighters 
        would be needed to bring those departments into compliance.

        <bullet> On March 6, 2003, Chairman Boehlert introduced H.R. 
        1118, Staffing for Adequate Fire and Emergency Response (SAFER) 
        Act of 2003, which authorizes the USFA to award grants to 
        career, volunteer, and combination fire departments for the 
        purpose of hiring new firefighters.

        <bullet> On May 22nd, 2003, an amendment to the FY 2004 Senate 
        Defense Authorization bill containing language establishing a 
        modified version of the SAFER grant program was offered by 
        Senator Dodd and passed by the Senate. The Science Committee 
        will be a conferee to this section of the bill.

5. BACKGROUND

    In the early 1970's, the President's National Commission on Fire 
Prevention and Control issued America Burning, a report that outlined 
the glaring deficiencies in the Nation's fire program. According to the 
report, nearly 12,000 lives were lost, nearly 300,000 men, women and 
children were injured and more than $3 billion in economic losses were 
suffered due to fire annually. In response, Congress passed the 
National Fire Prevention and Control Act of 1974 to create the United 
States Fire Administration (USFA) and to establish a federal role in 
fire protection.
    In 2000, Congress established the Assistance to Firefighters grant 
program within USFA to provide fire departments with direct financial 
assistance toward meeting basic minimum equipment and resource needs 
(P.L. 106-398). Now in its third year, the program has grown from a 
$100 million appropriation in FY 2001 to $745 million in FY 2003. It is 
authorized at $900 million through FY 2004. USFA received almost 20,000 
applications seeking over $2 billion for this year's grant program. The 
grants were reviewed and ranked by panels of firefighters in April, and 
USFA will begin announcing recipients in mid-June.
    Today, USFA, a directorate within the Federal Emergency Management 
Agency (FEMA), is the national leader in fire safety and prevention, 
supporting the efforts of local communities to reduce the number of 
fires and fire deaths. Located in Emmitsburg, Maryland, USFA has 
overall responsibility for fire prevention and control, including 
training, public education, research, and data collection and analysis. 
On March 1, 2003, FEMA and USFA officially became part of the Emergency 
Preparedness and Response Directorate of the Department of Homeland 
Security.
Fire in the United States
    Since the creation of USFA, fire losses in the United States have 
decreased significantly. Data on fire-related losses from 1989 to 1998 
show the number of fires, injuries, and economic losses declining by 
21, 27, and 28 percent from the previous decade, respectively. Yet, 
despite these successes, the United States still has one of the worst 
fire safety records in the industrialized world, with a per capital 
death rate that is two-to-three times several European nations and at 
least 20 percent higher than most developed countries. Approximately 
4,000 people continue to die each year from fire, including an average 
of 100 firefighters (446 died in 2001, 343 of whom were killed during 
the World Trade Center rescue effort). Every 18 seconds, a fire 
department responds to a call somewhere in the United States.
    Improvements in incident reporting and data analyses of these fire 
calls have helped to identify areas where gaps in safety exist. For 
instance, analyses undertaken by USFA's National Fire Data Center show 
that structure fires (commercial and residential buildings), while 
accounting for just over 25 percent of all fires, are responsible for 
the overwhelming majority of deaths, injuries, and economic losses. 
Most dangerous of these fires are those in residential homes, 
accounting for 70 percent of all fire deaths each year. In fact, 
firefighters are nearly ten times more likely to be injured in a 
structure fire than all other fires combined, and the evidence suggests 
that inadequate staffing is one of the primary causes for the higher 
injury rate. According to the data, 69 percent of jurisdictions with 
crew sizes of four or fewer firefighters had injury rates of ten or 
more per 100 firemen, but only 38 percent of those with crew sizes of 
four or more firefighters had comparable injury rates.
Fire Services Staffing Standards
    In 2001, the National Fire Protection Association (NFPA), the 
private, standard setting body for fire related issues, approved 
voluntary standards to provide comprehensive and uniform guidelines for 
the minimum number of personnel needed for safe and effective 
firefighting in various situations, so that fire departments would be 
fully capable of safely extinguishing the fires and minimizing the loss 
of life and property. Specifically, NFPA 1710, the ``Standard for the 
Organization and Deployment of Fire Suppression, Emergency Medical 
Operations, and Special Operations to the Public by Career Fire 
Departments,'' required each firefighter unit or ``company'' (i.e., 
engine company, ladder company, squad, etc.) to include at least four 
firefighters for standard firefighting, and five to six personnel in 
hazardous or high-risk areas. NFPA 1720, the ``Standard on Volunteer 
Fire Service Deployment,'' required an initial assembly of at least 
four volunteer personnel before fire suppression activities can begin 
at a structural fire.
    NFPA is not a governmental agency and it does not have the 
authority to impose regulation on fire departments, but many state and 
local jurisdictions have either incorporated or plan to incorporate 
NFPA 1710 and 1720 into their fire codes. Further, because of legal 
concerns, many fire departments are seeking to come into compliance 
regardless of whether the standards have been officially adopted in 
their jurisdictions. NFPA 1710 and 1720 are also expected to improve 
compliance with the Occupational Safety and Health Administration's 
(OSHA) ``2-in/2-out'' rule. This rule, established in 1998, requires 
that each two-man attack team be assisted by a two man back up team 
outside of all buildings for all fires that are determined to be 
Immediately Dangerous to Life and Health (IDLH).
    Finally, the increased staffing under NFPA 1710 and 1720 is 
expected to help to address the expanding responsibilities of the fire 
services. In recent years, communities and their citizens have grown 
accustomed to relying on fire departments to respond to a range of 
emergency situations, including medical emergencies, hazardous 
materials, natural disasters, bombs, and acts of terrorism. In addition 
to the increased training and equipment needs, this expanded role also 
requires an increase in staffing. Yet, according to the International 
Association of Fire Chiefs, approximately two-thirds of the Nation's 
26,000 fire departments do not currently have adequate staffing, and 
that 75,000 new firefighters would need to be hired to bring all 
departments into compliance.
FEMA-NFPA Needs Assessment
    In the legislation that established the USFA Assistance to 
Firefighters Grant Program (P.L. 106-398, Section 1701), Congress 
required FEMA to conduct a study in conjunction with NFPA to:

        (a) define the current role and activities associated with the 
        fire services;

        (b) determine the adequacy of current levels of funding; and

        (c) provide a needs assessment to identify shortfalls.

    The comprehensive undertaking surveyed fire department capabilities 
in a wide range of subject areas, including: personnel and their 
capabilities; fire prevention and code enforcement; facilities, 
apparatus, and equipment; communications and communications equipment; 
ability to handle unusually challenging incidents; and new and emerging 
technology.
    The NFPA analysis of fire service personnel capabilities provides a 
detailed look at fire services demographics and challenges facing local 
departments across various types of communities and emergency 
situations. The survey estimates that there about 1.1 million 
firefighters in the country (Table 1), about 75 percent of whom are 
volunteers. Only 10 percent of fire departments are either all-career 
or mostly-career, but these departments protect about two-thirds of the 
U.S. population.
    The Needs Assessment also revealed a significant amount of 
information on the number of personnel typically responding to various 
emergency situations. For example, the survey found that 21 percent of 
volunteer departments protecting communities with fewer than 2,500 
people respond with an average of four or fewer volunteers to mid-day 
house fires. According to the survey, this translates into at least 
86,000 firefighters serving in departments where compliance with 
minimum response standards is a problem. Similar concerns were found 
with regard to career departments. An estimated 73,000 career 
firefighters serve in departments (that protect communities of over 
50,000 people) that have fewer than four career firefighters assigned 
to an engine--the minimum number called for in the NFPA 1710 Standard.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


6. H.R. 1118, STAFFING FOR ADEQUATE FIRE AND EMERGENCY RESPONSE (SAFER) 
                    ACT--SUMMARY

    On March 6, 2003, Chairman Boehlert introduced H.R.1118, Staffing 
for Adequate Fire and Emergency Response (SAFER) Act of 2003. The 
purpose of the legislation is to help communities across America meet 
new minimum staffing standards for the fire services so they have 
adequate manpower to protect against fires, acts of terrorism, and 
other hazards. A similar federal hiring program to increase the number 
of police officers protecting America's communities exists within the 
Department of Justice.
    The legislation authorizes $7.6 billion over seven years for the 
USFA to award grants to State and local governments to pay the salaries 
and benefits for three years for each new firefighter. Under the 
legislation, all fire departments, volunteer and career, would be 
eligible to apply. In exchange, the grantee would have to retain the 
new hires for at least one year following the termination of the grant 
and they would have to put up a nonfederal funding match of 25 percent.
    Several versions of SAFER were introduced during the 107th 
Congress, including H.R. 3992 (Boehlert), and, on October 2, 2002, the 
House Science Committee had a hearing on the legislation. This year, 
Senator Dodd (D-CT) has introduced Senate companion legislation to H.R. 
1118 (S. 544). H.R. 1118 has been endorsed by the International 
Association of Fire Chiefs (IAFC), IAFF, and NFPA.
    On May 22nd, 2003, an amendment to the FY 2004 Senate Defense 
Authorization bill containing language establishing a modified version 
of the SAFER grant program was offered by Senator Dodd and passed by 
the Senate. The amendment differs from H.R. 1118 in several aspects. 
Most significantly, the Dodd language does not explicitly designate 
USFA as the granting agency and does require that grants go directly to 
local departments (these changes were likely made for jurisdictional 
reasons). Also, the amendment authorizes funds to carry out the SAFER 
program for three years, not seven years as in H.R. 1118.

7. QUESTION FOR WITNESSES

    In addition to providing comments and recommendations for 
improvement to H.R. 1118, the witnesses were asked to address the 
following questions in their testimony:
Questions for Mr. Shannon

        <bullet> How do the findings of the recent FEMA/NFPA study, A 
        Needs Assessment of the U.S. Fire Service, relate to personnel 
        and their capabilities? In particular, how extensive are 
        personnel shortfalls (in career, volunteer, and combination 
        departments), and how are they endangering the safety of 
        firefighters and hindering the ability of first responders to 
        effectively protect the public from fires and other hazards?

        <bullet> With regard to personnel, how are fire department 
        demographics changing, and how do staffing challenges differ 
        across departments of varying sizes and capabilities? What 
        steps does NFPA recommend Federal, State, and local governments 
        take to address staffing issues?

        <bullet> How would implementation of the NFPA 1710 and 1720 
        staffing and response standards improve the ability of fire 
        departments to safely and effectively respond to emergencies? 
        What is the level of adoption and implementation since the 
        standards were finalized two years ago? What impediments exist 
        to broader adoption of the standards and what steps can be 
        taken to remove them?
Questions for all other witnesses

        <bullet> Why should the Federal Government become involved in 
        staffing and equipping local fire departments?

        <bullet> How have changes related to emergency response 
        service expectations, state and local budget allocations, and 
        National Fire Protection Association personnel standards 
        affected your department's ability to meet staffing demands? 
        How have the above issues generally affected other departments 
        in your area, and how are they working to meet their staffing 
        and training needs?

APPENDIX I

                    Section-By-Section of H.R. 1118

Sec. 1. Short Title.

    ``Staffing for Adequate Fire and Emergency Response Firefighters 
Act of 2003''

Sec. 2. Office of Grant Management.

    Amends the Federal Fire Prevention and Control Act of 1974 (15 USC 
2201), re-designating current sections 33 and 34 as sections 35 and 36, 
respectively, and inserting a new section 34.

Sec. 34. Grant Authority.

Subsection (a): Authority to Make Grants.
    Authorizes the Administrator to make grants directly to career, 
volunteer, and combination fire departments for the purpose of 
increasing the number of firefighters to help communities meet industry 
minimum standards to provide adequate protection from fire and fire-
related hazards, including acts of terrorism. Authorizes a grant period 
of four years to hire new, additional firefighters, and requires 
grantees to retain newly hired firefighters for at least one year 
beyond the termination of the grant period. Authorizes Administrator to 
give preferential consideration to applicants that propose non-federal 
contributions in excess of the following annual minimums: 10 percent in 
year one; 20 percent in year two; 50 percent in year three; and 70 
percent in year four. Sunsets the authority for hiring grants 10 years 
after enactment, and requires the Administrator to report to Congress 
on the grant process.

Subsection (b): Applications.
    Requires applications to include, at a minimum: (A) explanation of 
the applicant's inability to address the need without federal 
assistance; (B) explanation of how the applicant plans to meet the 
matching requirements in subsection (a); (C) long-term plans for 
retaining firefighters following the conclusion of federal support; and 
(D) assurances that the applicant will recruit and hire members of 
racial and ethnic minority groups, and women.

Subsection (c): Limitation on use of Funds.
    Limits funding under the grant program to salaries and benefits for 
hiring new, career firefighters, and requires that funding does not 
supplant State or local funds. Requires that total funding over four 
years for hiring a firefighter must not exceed $100,000, and adjusts 
the cap annually for inflation beginning in FY 2005.

Subsection (d): Performance Evaluation.
    Authorizes the Administrator to require grant recipients to submit 
any information the Administrator considers necessary to evaluate the 
grant program.

Subsection (e): Revocation or Suspension of Funding.
    Authorizes the Administrator to revoke funding if a grant recipient 
is not in substantial compliance with the terms of an approved 
application.

Subsection (f): Access to Documents.
    Authorizes the Administrator (as well as the Comptroller General) 
to have access to all records pertaining to the grant.

Subsection (g): Definitions.
    Defines `firefighter' as `an employee, including a firefighter, 
paramedic, emergency medical technician, rescue worker, ambulance 
personnel, or hazardous materials worker, who--(1) is trained in fire 
suppression, has the legal authority and responsibility to engage in 
fire suppression, and is employed by a fire department of a 
municipality, county, fire district, or State; and (2) is engaged in 
the prevention, control, and extinguishment of fires or response to 
emergency situations where life, property, or the environment is at 
risk. (definition of `employee in fire protection activities' in the 
Fair Labor Standards Act, 29 USC 203(y)).
    Defines `Indian Tribe' as `a tribe, band, pueblo, nation, or other 
organized group or community of Indians, including an Alaska Native 
village that is recognized as eligible for the special programs and 
services provided by the United States to Indians because of their 
status as Indians'.

Subsection (h): Authorization of Appropriations.
    Authorizes $1,000,000,000 for FY 2004;

        $1,030,000,000 for FY 2005;

        $1,061,000,000 for FY 2006;

        $1,093,000,000 for FY 2007;

        $1,126,000,000 for FY 2008;

        $1,159,000,000 for FY 2009; and

        $1,194,000,000 for FY 2010.

APPENDIX II

    Text of Dodd amendment to FY 2004 Senate Defense Authorization bill 
(S. 1050, SAFER begins at subsection (f))

    SA 785. Mr. DODD submitted an amendment intended to be proposed by 
him to the bill S. 1050, to authorize appropriations for fiscal year 
2004 for military activities of the Department of Defense, for military 
construction, and for defense activities of the Department of Energy, 
to prescribe personnel strengths for such fiscal year for the Armed 
Forces, and for other purposes; which was ordered to lie on the table; 
as follows:

    SEC. 852. FEDERAL SUPPORT FOR ENHANCEMENT OF STATE AND LOCAL ANTI-
TERRORISM RESPONSE CAPABILITIES.

    (a) PROCUREMENTS OF ANTI-TERRORISM TECHNOLOGIES AND SERVICES BY 
STATE AND LOCAL GOVERNMENTS THROUGH FEDERAL CONTRACTS.----

    (1) ESTABLISHMENT OF PROGRAM.--The President shall designate an 
officer or employee of the United States----

    (A) to establish, and the designated official shall establish, a 
program under which States and units of local government may procure 
through contracts entered into by the designated official anti-
terrorism technologies or anti-terrorism services for the purpose of 
preventing, detecting, identifying, otherwise deterring, or recovering 
from acts of terrorism; and

    (B) to carry out the SAFER grant program provided for under 
subsection (f).

    (2) DESIGNATED FEDERAL PROCUREMENT OFFICIAL FOR PROGRAM.--In this 
section, the officer or employee designated by the President under 
paragraph (1) shall be referred to as the ``designated federal 
procurement official''.

    (3) AUTHORITIES.--Under the program, the designated federal 
procurement official----

    (A) may, but shall not be required to, award contracts using the 
same authorities as are provided to the Administrator of General 
Services under section 309(b)(3) of the Federal Property and 
Administrative Services Act (41 U.S.C. 259(b)(3)); and

    (B) may make SAFER grants in accordance with subsection (f).

    (4) OFFERS NOT REQUIRED TO STATE AND LOCAL GOVERNMENTS.--A 
contractor that sells anti-terrorism technology or anti-terrorism 
services to the Federal Government may not be required to offer such 
technology or services to a State or unit of local government under the 
program.

    (b) RESPONSIBILITIES OF THE CONTRACTING OFFICIAL.--In carrying out 
the program established under this section, the designated federal 
procurement official shall----

    (1) produce and maintain a catalog of anti-terrorism technologies 
and anti-terrorism services suitable for procurement by States and 
units of local government under this program; and

    (2) establish procedures in accordance with subsection (c) to 
address the procurement of anti-terrorism technologies and anti-
terrorism services by States and units of local government under 
contracts awarded by the designated official.

    (c) REQUIRED PROCEDURES.--The procedures required by subsection 
(b)(2) shall implement the following requirements and authorities:

    (1) SUBMISSIONS BY STATES.----

    (A) REQUESTS AND PAYMENTS.--Except as provided in subparagraph (B), 
each State desiring to participate in a procurement of anti-terrorism 
technologies or anti-terrorism services through a contract entered into 
by the designated federal procurement official under this section shall 
submit to that official in such form and manner and at such times as 
such official prescribes, the following:

    (i) REQUEST.--A request consisting of an enumeration of the 
technologies or services, respectively, that are desired by the State 
and units of local government within the State.

    (ii) PAYMENT.--Advance payment for each requested technology or 
service in an amount determined by the designated official based on 
estimated or actual costs of the technology or service and 
administrative costs incurred by such official.

    (B) OTHER CONTRACTS.--The designated federal procurement official 
may award and designate contracts under which States and units of local 
government may procure anti-terrorism technologies and anti-terrorism 
services directly from the contractors. No indemnification may be 
provided under Public Law 85-804 pursuant to an exercise of authority 
under section 851 for procurements that are made directly between 
contractors and States or units of local government.

    (2) PERMITTED CATALOG TECHNOLOGIES AND SERVICES.--A State may 
include in a request submitted under paragraph (1) only a technology or 
service listed in the catalog produced under subsection (b)(1).

    (3) COORDINATION OF LOCAL REQUESTS WITHIN STATE.--The Governor of a 
State may establish such procedures as the Governor considers 
appropriate for administering and coordinating requests for anti-
terrorism technologies or anti-terrorism services from units of local 
government within the State.

    (4) SHIPMENT AND TRANSPORTATION COSTS.--A State requesting anti-
terrorism technologies or anti-terrorism services shall be responsible 
for arranging and paying for any shipment or transportation of the 
technologies or services, respectively, to the State and localities 
within the State.

    (d) REIMBURSEMENT OF ACTUAL COSTS.--In the case of a procurement 
made by or for a State or unit of local government under the procedures 
established under this section, the designated federal procurement 
official shall require the State or unit of local government to 
reimburse the Department for the actual costs it has incurred for such 
procurement.

    (e) TIME FOR IMPLEMENTATION.--The catalog and procedures required 
by subsection (b) of this section shall be completed as soon as 
practicable and no later than 210 days after the enactment of this Act.

    (f) SAFER GRANT PROGRAM.----

    (1) AUTHORITY.--The designated federal procurement official in 
cooperation with the Secretary of the Department of Homeland Security 
or his designee, is authorized to make grants to eligible entities for 
the purpose of supporting increases in the number of permanent 
positions for firefighters in fire services to ensure staffing at 
levels and with skill mixes that are adequate emergency response to 
incidents or threats of terrorism.

    (2) USE OF FUNDS.--The proceeds of a SAFER grant to an eligible 
entity may be used only for the purpose specified in paragraph (1).

    (3) DURATION.--A SAFER grant to an eligible entity shall provide 
funding for a period of 4 years. The proceeds of the grant shall be 
disbursed to the eligible entity in 4 equal annual installments.

    (4) NON-FEDERAL SHARE.----

    (A) REQUIREMENT.--An eligible entity may receive a SAFER grant only 
if the entity enters into an agreement with the designated federal 
procurement official to contribute non-federal funds to achieve the 
purpose of the grant in the following amounts:

    (i) During the second year in which funds of a SAFER grant are 
received, an amount equal to 25 percent of the amount of the SAFER 
grant funds received that year.

    (ii) During the third year in which funds of a SAFER grant are 
received, an amount equal to 50 percent of the amount of the SAFER 
grant funds received that year.

    (iii) During the fourth year in which funds of a SAFER grant are 
received, an amount equal to 75 percent of the amount of the SAFER 
grant funds received that year.

    (B) WAIVER.--The designated federal procurement official may waive 
the requirement for a non-federal contribution described in 
subparagraph (A) in the case of any eligible entity.

    (C) ASSET FORFEITURE FUNDS.--An eligible entity may use funds 
received from the disposal of property transferred to the eligible 
entity pursuant to section 9703(h) of title 31, United States Code, 
section 981(e) of title 18, United States Code, or section 616 of the 
Tariff Act of 1930 (19 U.S.C. 1616a) to provide the non-federal share 
required under paragraph (1).

    (D) BIA FUNDS.--Funds appropriated for the activities of any agency 
of a tribal organization or for the Bureau of Indian Affairs to perform 
firefighting functions on any Indian lands may be used to provide the 
share required under subparagraph (A), and such funds shall be deemed 
to be non-federal funds for such purpose.

    (5) APPLICATIONS.----

    (A) REQUIREMENT.--To receive a SAFER grant, an eligible entity 
shall submit an application for the grant to the designated federal 
procurement official.

    (B) CONTENT.--Each application for a SAFER grant shall contain, for 
each fire service covered by the application, the following 
information:

    (i) A long-term strategy for increasing the force of firefighters 
in the fire service to ensure readiness for appropriate and effective 
emergency response to incidents or threats of terrorism.

    (ii) A detailed plan for implementing the strategy that reflects 
consultation with community groups, consultation with appropriate 
private and public entities, and consideration of any master plan that 
applies to the eligible entity.

    (iii) An assessment of the ability of the eligible entity to 
increase the force of firefighters in the fire service without federal 
assistance.

    (iv) An assessment of the levels of community support for 
increasing that force, including financial and in-kind contributions 
and any other available community resources.

    (v) Specific plans for obtaining necessary support and continued 
funding for the firefighter positions proposed to be added to the fire 
service with SAFER grant funds.

    (vi) An assurance that the eligible entity will, to the extent 
practicable, seek to recruit and employ (or accept the voluntary 
services of) firefighters who are members of racial and ethnic minority 
groups or women.

    (vii) Any additional information that the designated federal 
procurement official considers appropriate.

    (C) SPECIAL RULE FOR SMALL COMMUNITIES.--The designated federal 
procurement official may authorize an eligible entity responsible for a 
population of less than 50,000 to submit an application without 
information required under subparagraph (B), and may otherwise make 
special provisions to facilitate the expedited submission, processing, 
and approval of an application by such an entity.

    (D) PREFERENTIAL CONSIDERATION.--The designated federal procurement 
official may give preferential consideration, to the extent feasible, 
to an application submitted by an eligible entity that agrees to 
contribute a non-federal share higher than the share required under 
paragraph (4)(A).

    (E) ASSISTANCE WITH APPLICATIONS.--The designated federal 
procurement official is authorized to provide technical assistance to 
an eligible entity for the purpose of assisting with the preparation of 
an application for a SAFER grant.

    (6) SPECIAL RULES ON USE OF FUNDS.----

    (A) SUPPLEMENT NOT SUPPLANT.--The proceeds of a SAFER grant made to 
an eligible entity shall be used to supplement and not supplant other 
federal funds, State funds, or funds from a subdivision of a State, or, 
in the case of a tribal organization, funds supplied by the Bureau of 
Indian Affairs, that are available for salaries or benefits for 
firefighters.

    (B) LIMITATION RELATING TO COMPENSATION OF FIREFIGHTERS.----

    (i) IN GENERAL.--The proceeds of a SAFER grant may not be used to 
fund the pay and benefits of a full-time firefighter if the total 
annual amount of the pay and benefits for that firefighter exceeds 
$100,000. The designated federal procurement official may waive the 
prohibition in the proceeding sentence in any particular case.

    (ii) ADJUSTMENT FOR INFLATION.--Effective on October 1 of each 
year, the total annual amount applicable under subparagraph (A) shall 
be increased by the percentage (rounded to the nearest one-tenth of one 
percent) by which the Consumer Price Index for all-urban consumers 
published by the Department of Labor for July of such year exceeds the 
Consumer Price Index for all-urban consumers published by the 
Department of Labor for July of the preceding year. The first 
adjustment shall be made on October 1, 2004.

    (7) PERFORMANCE EVALUATION.----

    (A) REQUIREMENT FOR INFORMATION.--The designated federal 
procurement official shall evaluate, each year, whether an entity 
receiving SAFER grant funds in such year is substantially complying 
with the terms and conditions of the grant. The entity shall submit to 
the designated federal procurement official any information that the 
designated federal procurement official requires for that year for the 
purpose of the evaluation.

    (B) REVOCATION OR SUSPENSION OF FUNDING.--If the designated federal 
procurement official determines that a recipient of a SAFER grant is 
not in substantial compliance with the terms and conditions of the 
grant the designated federal procurement official may revoke or suspend 
funding of the grant.

    (8) ACCESS TO DOCUMENTS.----

    (A) AUDITS BY DESIGNATED FEDERAL PROCUREMENT OFFICIAL.--The 
designated federal procurement official shall have access for the 
purpose of audit and examination to any pertinent books, documents, 
papers, or records of an eligible entity that receives a SAFER grant.

    (B) AUDITS BY THE COMPTROLLER GENERAL.--Subparagraph (A) shall also 
apply with respect to audits and examinations conducted by the 
Comptroller General of the United States or by an authorized 
representative of the Comptroller General.

    (9) TERMINATION OF SAFER GRANT AUTHORITY.----

    (A) IN GENERAL.--The authority to award a SAFER grant shall 
terminate at the end of September 30, 2010.

    (B) REPORT TO CONGRESS.--Not later than two years after the date of 
the enactment of this Act, the designated federal procurement official 
shall submit to Congress a report on the SAFER grant program under this 
section. The report shall include an assessment of the effectiveness of 
the program for achieving its purpose, and may include any 
recommendations that the designated federal procurement official has 
for increasing the forces of firefighters in fire services.

    (10) DEFINITIONS.--In this subsection:

    (A) ELIGIBLE ENTITY.--The term ``eligible entity'' means----

    (i) a State;

    (ii) a subdivision of a State;

    (iii) a tribal organization;

    (iv) any other public entity that the designated federal 
procurement official determines appropriate for eligibility under this 
section; and

    (v) a multijurisdictional or regional consortium of the entities 
described in clauses (i) through (iv).

    (B) FIREFIGHTER.--The term ``firefighter'' means an employee or 
volunteer member of a fire service, including a firefighter, paramedic, 
emergency medical technician, rescue worker, ambulance personnel, or 
hazardous materials worker, who----

    (i) is trained in fire suppression and has the legal authority and 
responsibility to engage in fire suppression; or

    (ii) is engaged in the prevention, control, and extinguishment of 
fires or response to emergency situations where life, property, or the 
environment is at risk.

    (C) FIRE SERVICE.--The term ``fire service'' includes an 
organization described in section 4(5) of the Federal Fire Prevention 
and Control Act of 1974 that is under the jurisdiction of a tribal 
organization.

    (D) MASTER PLAN.--The term ``master plan'' has the meaning given 
the term in section 10 of the Federal Fire Prevention and Control Act 
of 1974.

    (E) SAFER GRANT.--The term `SAFER grant' means a grant of financial 
assistance under this subsection.

    (F) TRIBAL ORGANIZATION.--The term ``tribal organization'' has the 
meaning given the term in section 4 of the Indian Self-Determination 
and Education Assistance Act (25 U.S.C. 450b).

    (11) AUTHORIZATION OF APPROPRIATIONS.--There are authorized to be 
appropriated for the purpose of carrying out this section such sums as 
may be necessary from the Department of Homeland Security, up to----

    (A) $1,000,000,000 for fiscal year 2004;

    (B) $1,030,000,000 for fiscal year 2005;

    (C) $1,061,000,000 for fiscal year 2006;

APPENDIX III

    For text of H.R. 1118, see Appendix 1: Additional Material for the 
Record.
    Chairman Boehlert. Let me welcome everyone here this 
morning to our hearing on a very serious subject that is too 
rarely discussed: fire safety. I think most of us think of a 
fire as a distant threat, perhaps even an archaic one, and yet 
fire kills about 4,000 Americans each year, injures many more, 
and causes hundreds of millions of dollars in economic losses. 
But those staggering losses are not inevitable.
    Since the Federal Government began investing in improving 
fire prevention and firefighting in 1974, the number of fire 
deaths has dropped by 2/3. We need to do better than that. The 
United States still has one of the highest fire loss rates in 
the industrialized world. Today's hearing is really about what 
we can do to prevent death and destruction in every community 
throughout this country. Excuse me. And while firefighting is 
and ought to remain a local responsibility, the Federal 
Government has a role to play in saving lives and property, a 
junior role to be sure, but a significant one.
    This Committee has a long history of ensuring that the 
Federal Government fulfills that role. Indeed, one of the first 
bills I authored as a Member of this committee was the Hotel/
Motel Fire Safety Act many years ago, which has led to the 
installation of life saving fire sprinklers and smoke detectors 
in hotels and motels throughout the United States. As Chairman, 
I want to ensure that the Science Committee continues to work 
to protect Americans from the ravages of fire.
    One way we can do that is by helping communities see that 
their fire departments are adequately staffed. Today, most fire 
departments can't meet the National Fire Protection Association 
standards for staffing. That is wrong, and it is dangerous. My 
bill, the Staffing for Adequate Fire and Emergency Response, 
which we affectionately call the SAFER Act, is designed to 
rectify that situation. And I look forward to hearing testimony 
on it today.
    The SAFER Act recognizes that our firefighters do more than 
just extinguish fires, an important and often life-threatening 
task in and of itself. As we all learned on September 11, 
firefighters are our first responders to a range of 
emergencies, saving lives through evacuations among other 
tasks. Equally important is the fire prevention and education 
work undertaken by many of our nation's fire departments and 
the fire investigation work.
    What it comes down to is this: without really thinking 
about it, we expect our fire departments to perform a range of 
services that are absolutely critical to health and well being, 
indeed, the survival of our citizens. We need to ensure that 
our fire departments have the staff and the equipment to carry 
out their work. This year, we are farther ahead in the process 
because a modified version of SAFER has been added to the Armed 
Services Bill.
    And I am pleased that Senator Dodd, the lead author of this 
language in the Senate, will be joining us shortly. We also 
invited his partner in the effort, Senator Warner of Virginia, 
but unfortunately, his schedule would not allow him to appear. 
We will be hearing, first of all, from two Members of the 
House, including Representative Curt Weldon of our Committee, 
who has been a very powerful and effective voice for the fire 
services since he came to Congress almost 20 years ago, and 
Representative Pascrell, the lead Democrat sponsor of H.R. 
1118. These two gentlemen are in the forefront of the effort, 
and they deserve to be commended repeatedly.
    Lastly, I would note that the Science Committee will be 
seeking to have conferees on Senator Dodd's language in the 
Armed Services Bill, and I look forward to working with all of 
my colleagues to use this opportunity to put the SAFER program 
into effect.
    And just an added thought before I recognize the 
distinguished Ranking Member from Texas. Almost 20 years ago, a 
freshman Congressman from Pennsylvania came into my office. And 
I, at that time, was Ranking Member of the Subcommittee on this 
committee having jurisdiction over the U.S. Fire 
Administration, the National Fire Academy, and various programs 
at the federal level. And Doug Walgren of Pennsylvania, who, at 
that time, was the Chairman of the Subcommittee, and I sat 
there and listened in awe to Curt Weldon tell the story of his 
determined effort to build a caucus in the Congress that was 
going to be responsive to the needs of the fire community from 
coast to coast.
    We were a little bit disbelieving, but we were in awe, and 
we signed up immediately. And that was the beginning of what is 
considered by one and all impartially today to be the most 
effective caucus on Capitol Hill. And Mr. Weldon, I can't thank 
you enough for what you have done over those years, a former 
fire chief himself back home in Pennsylvania. But he is just 
tenacious. And he is not the only one. It is infectious. Mr. 
Pascrell is the same way. And we all are now. And we annually 
have a banquet of the emergency responders, the fire services, 
that draws thousands of people to Washington, DC, all with the 
same purpose in mind.
    You know, it has been popular since 9/11 to recognize the 
importance of what the Fire Service does for all of us each and 
every day. There are a lot of us who long before recognized the 
value and importance of their work. And I can think of no one 
who deserves higher praise than Curt Weldon for his leadership 
in this effort.
    With that, I would like to recognize another stalwart in 
the battle right from the beginning, my distinguished colleague 
from Texas, Mr. Hall.
    [The prepared statement of Mr. Boehlert follows:]

            Prepared Statement of Chairman Sherwood Boehlert

    I want to welcome everyone here this morning to our hearing on a 
very serious subject that is too rarely discussed--fire safety. I think 
most of us think of fire as a distant threat, perhaps even an archaic 
one, and yet fire kills about 4,000 Americans each year, injures many 
more and causes hundreds of millions of dollars in economic losses.
    But those staggering losses are not inevitable. Since the Federal 
Government began investing in improving fire prevention and 
firefighting in 1974, the number of fire deaths has dropped by two-
thirds. But we need to do better than that. The United States still has 
one of the highest fire loss rates in the industrialized world.
    Today's hearing is really about what we can do to prevent death and 
destruction in every community throughout this country. And while 
firefighting is, and ought to remain, a local responsibility, the 
Federal Government has a role to play in saving lives and property--a 
junior role to be sure, but a significant one.
    This committee has a long history of ensuring that the Federal 
Government fulfills that role. Indeed, one of the first bills I 
authored as a Member of this committee was the Hotel-Motel Fire Safety 
Act, which has led to the installation of life-saving fire sprinklers 
and smoke detectors in hotels and motels throughout the United States. 
As Chairman, I want to ensure that the Science Committee continues its 
work to protect Americans from the ravages of fire.
    One way we can do that is by helping communities see that their 
fire departments are adequately staffed. Today, most fire departments 
can't meet the National Fire Protection Association (NFPA) standards 
for staffing. That's wrong, and it's potentially dangerous. My bill, 
the ``Staffing for Adequate Fire and Emergency Response (SAFER) Act'' 
(H.R. 1118), is designed to rectify that situation, and I look forward 
to hearing testimony on it today.
    The SAFER Act recognizes that our firefighters do more than just 
extinguish fires--an important and often life-threatening task, in and 
of itself. As we all learned on September 11, firefighters are our 
first responders to a range of emergencies, saving lives through 
evacuations, among other tasks. Equally important is the fire 
prevention and education work undertaken by many of our nation's fire 
departments, and the fire investigation work.
    What it comes down to is this: Without really thinking about it, we 
expect our fire departments to perform a range of services that are 
absolutely critical to the health and well-being, indeed the survival, 
of our citizens. We need to ensure that our fire departments have the 
staff and the equipment to carry out their work.
    This year, we are further ahead in the process because a modified 
version of SAFER has been added to the Armed Services bill. And I am 
pleased Senator Dodd--the lead author of this language in the Senate--
is joining us. We also invited his partner in this effort, Senator 
Warner of Virginia, but unfortunately his schedule would not allow him 
to appear.
    We will also be hearing from two Members of the House, including 
Representative Curt Weldon of our committee, who has been a very 
powerful and effective voice for the fire services since he came to 
Congress almost 20 years ago, and Representative Pascrell, the lead 
Democrat sponsor of H.R. 1118. Lastly, I would note that the Science 
Committee will be seeking to have conferees on Senator Dodd's language 
in the Armed Services bill, and I look forward to working with all of 
my colleagues to use this opportunity to put the SAFER program into 
effect.

    [Note: See Appendix 1: Additional Material for the Record, 
for H.R. 1118.]
    Mr. Hall. I ought to just yield to you the rest of my time, 
Mr. Chairman. Thank you. Thank you for those kind words about 
good friends and I have good things to say about both of these 
members. And for that, and because you really covered it so 
adequately, I will put my statement in the--on the record and 
ask you to put it all there.
    I just will add that I am very interested in hearing more 
about the suggestions on how the bill might be modified to 
provide some assistance to volunteer fire departments, to work 
that in. These departments clearly need assistance in 
recruiting and obtaining of personnel. I--again, I want to 
welcome you two and welcome the other witnesses we have and 
thank you for your opening statement and for that recollection 
of a really super Member of this body and a guy that I respect 
and admire. And I think all of us do.
    I yield back my time.
    [The prepared statement of Mr. Hall follows:]

           Prepared Statement of Representative Ralph M. Hall

    I am pleased to join the Chairman in welcoming our witnesses to 
this hearing on legislation to improve the capabilities of the Nation's 
fire services.
    In addition to welcoming Senator Dodd, I want to acknowledge his 
efforts to advance this legislation. He successfully offered an 
amendment to the Senate Defense Authorization, which added a version of 
SAFER to that bill.
    While the devotion to duty and sacrifice that characterize fire 
service personnel is known and appreciated--especially in the aftermath 
of 9/11--there is a tendency to take the fire services for granted. 
Their needs often receive too low a priority in the allocation of 
public resources.
    The SAFER bill, which we will consider today, is targeted on 
addressing the staffing needs of fire departments throughout the 
Nation. The goal is to increase the effectiveness of the fire services 
in performing their critical public safety role, while also improving 
firefighter safety.
    The SAFER bill will provide the resources needed to help increase 
staffing levels at fire departments, in line with approved safety and 
effectiveness standards. It provides matching, four-year funding for 
hiring new firefighters, with the requirement that the grant recipient 
agree to retain the new hires for at least one year beyond the grant 
period.
    The funding authorized by the bill will permit the hiring of 
approximately 75,000 new firefighters.
    I will be interested in the views and recommendations of our 
witnesses on this legislation. In particular, will the bill make a 
substantial contribution in allowing fire departments to satisfy 
current OSHA and National Fire Protection Association standards for 
staffing levels?
    And equally important, will municipalities be able to provide the 
sustained funding necessary to maintain the increased staffing for 
their fire departments after the federal subsidy ends?
    I also am interested in hearing more about the suggestions of Mr. 
Cash on how the bill may be modified to provide assistance to volunteer 
fire departments. These departments clearly need assistance in 
recruiting and retaining of personnel.
    The broader question I would like to see addressed today is what 
ought to be the relative priority among increased staffing levels, 
improved training, and better equipment for the fire services. We need 
to focus on addressing the key issues that will help them to achieve 
the overall goals of improving the Nation's fire safety record and of 
meeting their growing responsibilities as first responders.
    Again, I want to welcome our witnesses today, and I look forward to 
our discussion.

    Chairman Boehlert. Thank you very much. And your statement 
will appear in the record in its entirety. The Chair now 
recognizes the distinguished Chairman of the Subcommittee on 
Research, Mr. Smith of Michigan.
    Mr. Smith of Michigan. Mr. Chairman, thank you. I am sort 
of your replacement, because our Subcommittee on Research has 
oversight of the U.S. Fire Administration. And I have been 
trying to run and catch up with leaders like Curt Weldon and 
Bill Pascrell and you, Mr. Chairman, in terms of making sure 
that the Federal Government does what it can to strengthen our 
firefighting efforts.
    And in 2000, we made an important breakthrough, I think, in 
our efforts to strengthen this support by establishing the 
Assistance to Firefighters Grant Program within USFA. Now we 
have finished the first two years. The program has been a great 
success, providing over 450 million in direct aid for training 
and equipment to fire departments all across America.
    For 2003, I think with the help of leaders in Congress, we 
appropriated and President Bush signed into law an 
unprecedented $745 million for the grant program. And of 
course, in addition with the Homeland Security, we have 
provided for states and localities another $2 billion to 
various other programs to help emergency response personnel to 
increase their preparedness for terrorism.
    Let me say that while these successes have significantly 
improved the ability of fire departments to respond to 
emergencies, I believe there is still more the Federal 
Government can do, and I remain committed to continue to 
strengthen this effort. On this bill before us today, I have 
some concerns. One is that we make sure that the federal 
spending does not replace what the local governments and 
municipalities might do in terms of trying to make sure that 
their support level for fire departments doesn't diminish as we 
come up with additional federal support.
    I would also like to comment on the need for the 
firefighting community to work together in these efforts. You 
know, our challenge and our goal is to increase support for 
firefighters in this country. There exists an--what I consider 
an unnecessary friction between some firefighter unions and 
their volunteer counterparts. And it just seems so very 
important, now that we have strong public support for first 
responders and firefighters, that we don't allow--that we take 
advantage of the situation to encourage more local, state, and 
federal support. And we need to be careful that the friction 
and separation between volunteers and full-time firefighters 
does not grow, does not increase, does not jeopardize this door 
opening opportunity that we have.
    In my Home State of Michigan, the Professional Firefighters 
Union, Mr. Chairman, has been pressuring its members that 
volunteer on their free time to stop volunteering or face 
losing their union card. It just seems that this policy does 
nothing but exacerbate the very staffing shortfalls the union 
professes to be working to eliminate. And it is somewhat 
unfair. I think we need to look at that situation. And as we 
are all aware, the events, of course, of 9/11 generated so much 
appreciation for fire departments. I look forward to working 
with Mr. Weldon, Mr. Pascrell, you, Mr. Chairman, to try to 
make sure that we give strong national support for these first 
responders that are so important in every community in America.
    And with that, I yield back.
    Chairman Boehlert. Thank you very much. Let me assure you 
we have common objectives. And it is not the design of the 
SAFER Act to replace but to supplement the resources that are 
needed by localities across this country to get the people 
power that they need to adequately protect their communities.
    Without objection, the opening statements of all Members of 
the Committee will be included in the record at this juncture.
    [The prepared statement of Mr. Smith follows:]

            Prepared Statement of Representative Nick Smith

    As Chairman of the Research Subcommittee, which maintains oversight 
of the U.S. Fire Administration (USFA), I have worked to improve 
federal support for the fire services since I came to Congress in 1992. 
In 2000, we made an important breakthrough in our effort to strengthen 
this support by establishing the Assistance to Firefighters Grant 
Program within USFA. Now having completed its first two years, the 
program has been a great success, providing over $450 million in direct 
aid for training and equipment to fire departments all across America. 
For FY 2003, Congress appropriated, and President Bush signed into law, 
an unprecedented $745 million for the grant program. In addition, over 
$2 billion was provided to states and localities from various other 
programs to help emergency response personnel increase terrorism 
preparedness.
    While these successes have significantly improved the ability of 
fire departments to respond to emergencies, I believe there is still 
more the federal government can do, and I remain committed to 
continuing to strengthen this effort. However, I have several concerns 
with the legislation before us today.
    First, I am very concerned about the cost of this bill. Federal 
spending is wildly out of control, and deficits are once again on the 
rise. We simply cannot continue to spend at two to three times the rate 
of inflation. At over one billion dollars per year for seven years, I 
believe we need to find comparable offsets somewhere in the government 
before we authorize this amount of spending on a new program.
    I am also concerned that the legislation will, in effect, reward 
irresponsible budgeting at the local level. For example, consider a 
situation where Community A overspends or places a low priority on 
adequate fire department staffing in its budget, while Community B 
operates a tight budget and places a high priority on ensuring its fire 
department is adequately staffed. When it comes time for USFA to 
evaluate grant proposals, Community A will receive the award because it 
will be able to demonstrate a greater need to hire additional 
firefighters. This is clearly unfair to Community B, and another 
important reason why I believe appropriate staffing levels are best 
determined at the local level by each individual community. A move 
toward nationalizing fire department staffing would simply transfer the 
tax burden for this hiring from the local to the national level, and 
reduce the flexibility of individual communities to determine this 
level.
    This is not to say that staffing shortfalls are not an important 
problem--indeed they are. However, I believe they can be best addressed 
in other ways. For instance, as the Administration has pointed out, the 
strong support of the Assistance to Firefighters Grant Program has 
relieved a great deal of budget pressure on local communities, allowing 
more room in fire department budgets to address items such as staffing 
issues. Continued strong support for the fire grant program in the 
years ahead will decrease these budget pressures even further.
    Lastly, I would like to comment on the need for the firefighting 
community to work together in these efforts. Our challenge, and our 
goal, is to increase support for firefighters in this country. There 
exists an unnecessary friction between some firefighter unions and 
their volunteer counterparts. We cannot allow that friction and 
separation between volunteers and full-time firefighters to grow.
    In my home state of Michigan, the Professional Firefighters Union 
has been pressuring its members that volunteer on their free time to 
stop volunteering or face losing their union card. This policy does 
nothing but exacerbate the very staffing shortfalls the union professes 
to be working to eliminate. It is also unfair to those that aspire to 
protect the communities and families in which they live, runs contrary 
to the spirit of volunteerism that President Bush has called for in 
this post-9/11 environment, and creates an unnecessary wedge in an 
otherwise united fire services.
    I call upon the International Association of Firefighters to stop 
their practice of discriminating against career firefighters that 
choose to volunteer when they are off duty, and I also call upon them 
to end their policy of treating volunteer fire departments as 
``rivals.''
    As we are all aware, the events of 9/11 generated a renewed 
appreciation and respect for firefighters and the work they do. We need 
to use the opportunities created by this environment to increase local, 
State, and federal support for firefighters. If we want to achieve this 
we must eliminate any in-house disagreements that threaten to sidetrack 
our common goals to adequately support the fire services. I look 
forward to a productive discussion today on an issue of great 
importance.

    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good morning. I want to thank the witnesses for appearing before 
our committee to discuss the needs of fire services and ways of 
addressing them. Specifically, we will be discussing H.R. 1118 
introduced by Chairman Boehlert.
    As a member of the Congressional Fire Services Caucus, I have a 
deep interest in this matter. The U.S. has one of the highest fire 
death rates in the industrialized world. Each year, fire kills more 
Americans than all natural disasters combined. Approximately 4,000 
people die each year from fire in America, including an average of 
about 100 firefighters in duty-related incidents. A significant amount 
of evidence suggests that if we were to increase the number of 
firefighter personnel, many of these preventable injuries could be 
avoided.
    My congressional district is comprised of urban, suburban and rural 
communities. It is quite challenging to meet staffing inadequacies for 
fire departments of different sizes, capabilities, and demographics. 
However, H.R. 1118 helps communities address these staffing concerns by 
authorizing funding for the USFA to award grants to State and local 
governments to pay the salary and benefits for a new firefighter for 
three years. This legislation does require a minimum non-federal 
funding match of 25 percent and grantees would be required to retain 
the new hires for at least one year following the conclusion of the 
grant period. This funding program is very similar to the COPS program 
that has been a success for police departments nationwide. I am 
interested to know if you believe similar success could be duplicated 
for firefighter personnel.
    I again want to thank the witnesses for appearing before this 
committee and I look forward to their testimony.

    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Thank you, Chairman, for calling this important hearing to receive 
testimony on H.R. 1118, the Staffing for Adequate Fire and Emergency 
Response (SAFER) Act of 2003.
    Firefighting activities are traditionally the responsibility of 
states and local communities. As such, funding for firefighters is 
provided mostly by State and local governments. During the 1990s, 
shortfalls in State and local budgets, coupled with increased 
responsibilities (i.e., counter-terrorism) of local fire departments, 
led many in the fire community to call for additional financial support 
from the Federal Government.
    The foremost need of the fire service is adequate personnel. The 
National Fire Protection Association (NFPA), the consensus rules and 
standards making body of, the fire service, recently issued the first 
minimum staffing standard for safe fire ground operations. The new 
minimum professional firefighter staffing standard for safe operations, 
NFPA 1710, mandates at least four firefighters per apparatus.
    Currently, most jurisdictions operate with only two or three 
firefighters per apparatus. Across our nation, fire departments that 
serve communities with populations of less than a million are regularly 
understaffed. Responding to emergency incidents with less than four 
firefighters prevents the first responding unit from complying with 
OSHA's ``2-in/2-out'' standard for safe fireground operation, and 
places the lives of those firefighters in jeopardy. Departments that 
operate with less than minimum staffing levels cannot adequately 
protect their citizens from the hazards faced on a daily basis--let 
alone from acts of terrorism.
    While fire department staffing is primarily a local government 
responsibility, firefighter advocates and many Members of Congress 
believe that the Federal Government should help shoulder some of the 
responsibility for our nation's domestic defense. Just as the Federal 
Government provides funding to local governments to hire police 
officers and teachers, some argue that the Federal Government should 
fund firefighter positions.
    Studies and experience prove that adequate staffing is essential to 
safe and effective emergency operations.

        <bullet> Currently, 2/3 of our nation's fire departments do 
        not meet the national consensus standard for staffing. Congress 
        would never allow our Army to engage in a war with 2/3 of its 
        divisions understaffed. Incredibly, this is exactly what we are 
        asking our local fire departments to do.

        <bullet> The recently issued FEMA study, ``A Needs Assessment 
        of the U.S. Fire Service,'' reveals that it is common for fire 
        departments that protect communities with a population of less 
        than a million to respond to emergencies with less than four 
        firefighters per apparatus.

    As evidenced by the response to the World Trade Center and the 
Pentagon, where fire departments from many jurisdictions responded to 
the attacks, the Federal Government must recognize that disasters are 
not local events, but national tragedies that warrant a federal 
response.

    [The prepared statement of Ms. Lofgren follows:]

            Prepared Statement of Representative Zoe Lofgren

    Chairman Boelhert, Ranking Member Hall, thank you for bring this 
hearing together so that we can learn about some of the many challenges 
facing our nation's fire departments and emergency responders. In these 
difficult days, this is both a very timely and important issue worthy 
of our time and thoughtful consideration.
    This hearing will shed important light on the need for the Federal 
Government to assist local and State governments to ensure that the 
fire safety and emergency response needs of our communities are met. I 
look forward to hearing testimony about the need for more aggressive 
recruitment and training of additional firefighters and emergency 
responders. In addition to training and keeping more firefighters, I 
believe the Federal Government should be active in ensuring that these 
brave individuals have access to the most modern fire and emergency 
equipment they need to ensure not only the safety of their communities 
but their own safety as well. If they need new firefighters vehicles, 
personal safety systems, protective clothing or most importantly, more 
fellow firefighters and emergency responders, I believe that is most 
appropriate for the Federal Government to assist in these efforts. Mr. 
Chairman, Mr. Hall, thank you for giving this opportunity to speak and 
to learn.

                                Panel 1

    Chairman Boehlert. And now it is my privilege to welcome 
two of our colleagues who are experts in the subject matter. 
And we always like to hear from experts. This is a Committee 
where we are used to hearing from Nobel laureates and Ph.D.s 
and everything. Well, if we are going to give a doctorate or a 
Nobel Prize for performance, our first witness, Curt Weldon, 
would be the number one recipient.
    With that, let me recognize our colleague from 
Pennsylvania, also a Member of this committee, Mr. Weldon.

STATEMENT OF HON. CURT WELDON, A REPRESENTATIVE FROM THE STATE 
                        OF PENNSYLVANIA

    Mr. Weldon. Mr. Chairman, thank you very much. Mr. Hall, 
thank you. You are both good friends, as is Mr. Smith and all 
of the Members of this committee, which I have had the pleasure 
of being a part of for all of the time I have been in Congress. 
And I should quit here, because your comments were very 
embarrassing to me, but I appreciate them.
    Mr. Boehlert, you were there at the beginning when we first 
started this idea, as you outlined, with Doug Walgren. You were 
the earliest signer on, and you became a key part of the effort 
18 years ago to recognize America's heroes. It didn't take a 9/
11 for you to understand the importance of speaking up for the 
Fire Service. It didn't take another disaster. You understood. 
And for all of your constituents back in New York, they need to 
understand that you have been an effective leader now on this 
committee, both as a Ranking Member of the Subcommittee and the 
Full Committee Chairman, in moving the agenda forward. If it 
were not for you several years ago, we would not have been able 
to broker the compromise to Mr. Pascrell's bill, who I have the 
highest respect for. As a senior conferee on the defense bill, 
you allowed us to have the jurisdictional flexibility to put 
that bill on and to create the program that is now one of the 
most popular programs the Federal Government has. So my hat is 
off to you for your leadership.
    And Mr. Hall, they couldn't have a better leader on the 
other side of the aisle than Ralph Hall. He is a tireless 
advocate for what is right for ordinary people. He is a 
champion. He speaks up for what he believes in, and I know your 
Texas firefighters love you, Ralph. In fact, I am supposed to 
be the keynote speaker in Galveston this weekend at the Texas 
Firefighters Association. All I can do is sing your praises for 
the great work that you have done.
    Nick Smith has been a great newer Member of our effort for 
the past eight years. And he better not leave here. He told me 
he is thinking about that now, but we are going to--we would 
miss him dramatically, because he has been a true champion of 
the Fire Service in his role as Chairman of the appropriate 
Subcommittee.
    Mr. Chairman, as you mentioned, when we started the fire 
caucus, my goal was to elevate the awareness of who the real 
heroes in America are. And in that capacity over the past 18 
years, I have been on almost every disaster we have had, from 
the wildland fires in California, Oregon, and Montana, 
Colorado, Hurricanes Andrew and Hugo, North Ridge Earthquake, 
the Merit Building bombing, the Midwestern floods, and the 
World Trade Center in '93 and again in 2001. And the one common 
thing I found in every one of those instances was the fact that 
the heroes were the men and women of the Fire Service. In many 
of those cases, they were paid professional firefighters from 
our big cities, but also, in many of those cases, they were 
professional volunteer firefighters from our small towns.
    As you know, we have about 1.2 million men and women who 
serve in 32,000 departments in every State of the Union, and 
they do so day in and day out, providing so much support, not 
just for fires. They respond to HAZMAT incidents. They are the 
people who keep our community strong. The IAFF [International 
Association of Fire Fighters] is the largest fund-raiser each 
year for one of our largest charities in America. The 
volunteers organize our youth programs. They are the Boy Scout 
leaders. They are the people who run the parades and the 
celebrations in our towns.
    If there is one group of people in America that best 
represents the foundation of what this country is built upon, 
it is the Fire Service. And the fact is that they need help, 
because the continual problem in every municipality in America 
is staffing. In our big cities, the first time the budgets are 
cut, where do they cut? They cut public safety. And they cut 
back--we have seen it in this city. I can remember times where 
we had one ladder truck servicing the entire City of 
Washington, DC where we couldn't have enough money in the city 
budget to buy boots so the firefighters could have adequate 
turnout gear. The volunteers have to raise the money to buy a 
$400,000 pumper, and at the same time, they have to work a 
full-time job, and then they also have to take care of their 
families and respond for training and emergency response 
purposes. It is a great effort in America that the Fire 
Service, for a time older than America has been a country, has 
been there to keep our nation strong and safe.
    Your bill, and the bill introduced by Senator Dodd, goes a 
long way to address the staffing concerns. I am an original 
cosponsor of your bill, because you are right on the mark. We 
need to do more to help these people. And I am here to say that 
I fully support the effort. And I will be using my voice and my 
effort on the Armed Services Committee, as the Vice-Chairman of 
the House Committee, and as a senior conferee to work to enact 
the kind of changes that we can come to terms with based on 
your bill that I think reflect the needs of the Fire Service in 
this country. We did that several years ago, and there is no 
reason why we can't do it again today.
    For those who say there is no role for the Federal 
Government, I would say well then how can we fund $4 billion a 
year for local police protection? $4 billion a year. Everything 
from the cost of hiring additional police officers to half of 
the cost for bulletproof vests the police officers wear in our 
towns. Is the life of a police officer or a soldier that much 
more important than a firefighter or a paramedic? I say, and I 
know you do, too, the answer is no.
    Mr. Chairman, the only thing I would ask you is--to do is 
to continue to have your staff work with my staff and Bill 
Pascrell's staff on a compromise that I would hope to offer as 
a senior conferee on the Defense Committee so that we can move 
something through.
    And I would just make five quick points that I would like 
to see in a compromise. And with your leadership, I am sure we 
can accomplish it. Your staff is aware of these. The first is 
that I would shift the grants currently in the Dodd bill that 
would go to the states in line to what you want. These grants 
should go to local fire departments. We don't need state 
bureaucracies siphoning off administrative costs, which they 
always do. The money should go directly to the fire 
departments. The model that we have under the grant program is 
working overwhelmingly well. Everyone has said that. And so I 
would say that any compromise should include the kind of 
direction that you laid out in your bill.
    The second, we must put in a provision that bars 
municipalities and departments from funding firefighter 
activities lower than the average of the previous three years. 
That guarantees that any federal money coming in will not, in 
fact, be used to offset money that is being taken away locally. 
That guarantees that cities must keep their funding for the 
Fire Service at the same level if they expect to get funds 
through this program.
    The third is a nondiscrimination clause. It says that this 
program can not allow any discrimination to occur within the 
fire departments of America. The fourth authorizes the funds 
through 2010. Senator Dodd's amendment only goes for three 
years. The amendment that I would like to see us agree to would 
take this through 2010 and also would have a slightly higher 
dollar amount. And finally, we have a competitive peer review 
process where the Fire Service itself is involved in evaluating 
who, in fact, wins.
    And one of the most important additions, Mr. Chairman, that 
I think we need is a provision that allows, at a minimum, $100 
million a year for a competitive grant program for the 
recruitment and retention of volunteers. Now some would say, 
``How do you do that?'' Well, you don't have to look any 
further than this document. This document was prepared by the 
U.S. Fire Administration in cooperation with the National 
Volunteer Fire Council and FEMA. It has pages and pages of 
ideas of how to assist our volunteer fire departments to 
recruit and retain volunteers. That is a staffing issue that we 
can't ignore. So while we want to support a grant program that 
provides relief for our big cities, we can not, and we must not 
ignore the staffing needs of the volunteers, because they have 
an enhanced challenge. They have firefighters who have to work 
full-time jobs. And so I think we have to have a special pot of 
money that is available for volunteer organizations to come up 
with creative retention and recruitment programs that can help 
them with the vital staffing needs they have.
    So Mr. Chairman, I want to thank you. You have been a 
dynamic leader in this Congress both as a Chairman of the 
Science Committee, but also as an advocate for the Fire 
Service. And I want to thank my good friend, Ralph Hall, and 
also Nick Smith, because together, you make a dynamic team.
    Thank you.
    Chairman Boehlert. Thank you very much. Next time, would 
you bring a little more enthusiasm to the--thank you very much, 
Mr. Weldon.
    And another stalwart in the battle right from the 
beginning, since the first day he arrived in this town, Bill 
Pascrell from New Jersey. We have a decided northeast 
appreciation for the fire services, and we are now joined by 
Senator Dodd, who will be the third witness, Senator.
    Bill, I want to thank you so much for what you have done in 
support of the fire services and emergency responders. You were 
there every step of the way. You have had the experience on the 
firing line from the municipal government standpoint. And that 
has been an invaluable addition to our dialogue. So with that, 
I welcome you to offer your testimony. Your complete statement 
will appear in the record in its entirety. And we ask you to 
proceed as you wish.

STATEMENT OF HON. BILL PASCRELL, JR., A REPRESENTATIVE FROM THE 
                      STATE OF NEW JERSEY

    Mr. Pascrell. Thank you very much.
    You know, Boehlert and Smith and Hall and Weldon and Dodd 
and Dewine did not need 9/11. We worked very hard beginning in 
1999 together with the fire services. They said it couldn't be 
done. In fact, you mentioned it before, Mr. Chairman. And we 
struggled with a few cosponsors then we got up to 285. And we 
passed this legislation thanks to the folks that have been here 
for so many years fighting and laying the foundation for, what 
I think, was a great breakthrough, because the dollars went 
directly to the departments and not to any state bureaucracy. I 
think this is one of the reasons we have been successful. And 
FEMA has done a great job. And I think the firefighters 
themselves who volunteered to review the applications, the 
20,000 applications, I think the program is successful. And if 
it is not broken, don't fix it. So the process, I think, needs 
to be looked at.
    I want to associate myself, also, with the gentleman from 
Pennsylvania's remark about the suggestions concerning our 
legislation. And I would support each of those.
    This is absolutely critical for the Congress to address the 
staffing needs of our nation's fire departments. Here are some 
facts. Two-thirds of all of the fire departments, career and 
voluntary, operate with inadequate staffing. That is 
unacceptable. These are the basic services that fire 
departments have to respond to every day. How can any of us, as 
elected officials, allow this to continue?
    In communities of at least 50,000 people, 38 percent of 
firefighters are regularly part of response that is not 
sufficient to safely initiate an interior attack on a structure 
fire because of the lack of staffing. That is a fact. Twenty-
one percent of rural departments are often unable to deliver 
four firefighters needed to safely initiate an interior attack. 
In Buffalo, Washington, DC, New York, and Worcester, 
Massachusetts, just to name but a few, firefighters have been 
killed because of the lack of staffing. In each of these cases, 
if there had been a team in place that accounted for the 
firefighters who were putting out fires inside of buildings, 
they would be alive today.
    The New Jersey Division of Fire Safety Report issued this 
past March, regarding a fire in the City of Passaic, which is 
part of my District--this report right here that I have in my 
right hand, it is a devastating report about a firefighter who 
lost his life in that fire because of insufficient staffing. It 
seemed to have fostered a culture of individualism because of 
the lack of that staffing, the report says, in a fire 
department over a long period of time. And a lack of 
supervision due to short staffing made it difficult to address 
the situation. The problem that the Passaic Fire Department 
related to a lack of staffing and culminated in the death of my 
friend, Firefighter Alberto Tirado. He went to the third floor 
of a structure by himself in an effort to do his duty, and he 
died because of it. And the family died and is trying to 
resuscitate itself.
    This is happening in my District. It is happening in your 
District. It is happening throughout the Nation. And things are 
getting worse instead of better. Departments all across the 
country are laying off firefighters, today's paper, the New 
York papers in New York City. The current economic malaise that 
we find ourselves in has many local jurisdictions facing tough 
decisions and judgment calls. The challenges of a changed world 
have irrevocably altered the role of our firefighters. Along 
with all of the other profound responsibilities of which the 
profession has been charged, firefighters are now the front 
line defenders against terrorism within our borders.
    We are serious, truly serious about our national security, 
about the safety of our people. Then the Federal Government has 
an obligation to assist the local departments. We have 
established that precedent in 2000. In 1999, when I introduced 
the Firefighter Investment Response Act to provide federal 
grants directly to local fire departments, we gathered together 
because the need was there. It was enunciated. It was 
pronounced across the political spectrum: from the left, from 
the right, from the center. People flocked to support this 
legislation, because it was necessary in our hometowns 
throughout America.
    The original draft of the FIRE Act tried to get more 
firefighters into uniform to help fire departments meet their 
staffing shortages. So I am excited that the SAFER Act will 
create a 4-year program, and as the gentleman from Pennsylvania 
has suggested, perhaps extending to 10 years, that would pay 
the majority of costs associating--associated with hiring new 
firefighters.
    My friends, adequate staffing is crucial in an effective--
to be effective in an emergency situation. I know no one will 
attempt to refute this. The firefighters, whose bravery and 
valor protect our nation, deserve all that we can give them. 
And it is my hope that this Congress truly begins to realize 
our responsibilities this year.
    And I agree with Mr. Smith on his point that this should 
not be replacement money but supplemental money. We don't want 
localities laying off people in order to get federal money to 
put them back in. In fact, that is absolutely forbidden in the 
COPS Act. And we have all been supportive of that legislation, 
and it has been effective. The relationship of the police 
officers that have come on local communities through that FIRE 
Act since '94, have had a direct proportionate relation to the 
drop of crime. And I commend the Congress, and I commend the 
past President and the present President for supporting it. We 
support that particular act. We want everybody to support this 
act. Firefighters are on the front lines. They are our first 
responders, and I am proud to be cosponsor of this legislation.
    [The prepared statement of Mr. Pascrell follows:]

        Prepared Statement of Representative Bill Pascrell, Jr.

    Mr. Chairman and Members of the House Committee on Science, I 
appreciate the opportunity to testify before you today on behalf of 
H.R. 1118, the SAFER Act--legislation that can undoubtedly help us meet 
the urgent needs of fire services throughout our nation.
    I would just like to take a moment to commend Senator Dodd and 
Chairman Boehlert for the exemplary leadership they have displayed on 
behalf of the fire community over the years, as well as for their 
tireless efforts in navigating the SAFER Act through the legislative 
maze that is Capitol Hill.
    Indeed, it is absolutely critical for Congress to address the 
staffing needs of our nation's fire departments. Just look at the 
facts:
    Currently two-thirds of all fire departments throughout America 
operate with inadequate staffing. This statistic alone is 
unconscionable. How can any of us, as elected officials, allow this to 
continue? The consequences of insufficient personnel levels, of course, 
often lead to tragic, heartbreaking results.
    In communities of at least 50,000 people, 38 percent of 
firefighters are regularly part of a response that is not sufficient to 
safely initiate an interior attack on a structure fire because of a 
lack of staffing.
    Twenty-one percent of rural departments are often unable to deliver 
the four firefighters needed to safely initiate an interior attack.
    In Buffalo, Washington, DC, New York and Worcester, Massachusetts--
just to name but a few--firefighters have been killed because of a lack 
of staffing. In each of these cases, if there had been a team in place 
that accounted for the firefighters who were putting out fires inside 
of buildings, they would be alive today.
    A New Jersey Division of Fire Safety report issued this past March 
regarding the Passaic Fire Department in my district stated that:

        ``insufficient staffing seemed to have fostered a culture of 
        individualism in the fire department over a long period of 
        time, and a lack of supervision due to short staffing made it 
        difficult to address this situation.''

    My friend, Chief Lou Imparato is doing the best he can with the 
funding he has, but the problems the Passaic Fire Department 
experiences related to a lack of staffing culminated in the death of 
firefighter Alberto Tirado, who went to a third floor of a structure by 
himself in an effort to do his duty, and died because of it. This is 
happening in my district, it's happening in your district, it's 
happening throughout the Nation.
    And things are getting worse. The current economic malaise that we 
find ourselves in has many local jurisdictions facing tough decisions. 
Departments all across the country are laying off firefighters--just at 
a time when we need them most.
    The challenges of a changed world have irrevocably altered the role 
of our firefighters. Along with all the other profound responsibilities 
of which their profession has been charged, firefighters are now the 
front-line defenders against terrorism within our borders.
    And if we are serious--truly serious--about our national security, 
and about the safety of our people, then the Federal Government has an 
obligation to assist local fire departments in every way we can.
    Like many Members of this committee, I have long fought for 
additional funding for America's fire departments. In 1999, I 
introduced the Firefighter Investment and Response Act, to provide 
federal grants directly to local fire departments to help address a 
variety of equipment, training and other firefighter-related needs. It 
has been my greatest honor to see this bill signed into law.
    The original draft of the FIRE Act tried to get more firefighters 
into uniform--to help fire departments meet their staffing shortages. 
Unfortunately, it has been difficult to implement the personnel 
category because the money has to be spent in one year, prohibiting 
municipalities from long-term personnel additions.
    So I am excited that we are all here to return to address this 
omission. The SAFER Act would create a four year program where fire 
departments would apply for federal grants that would pay the majority 
of the costs associated with hiring new firefighters, not to exceed 
$100,000 over four years for each firefighter hired.
    Adequate staffing is essential to safe and effective emergency 
operations--I know of no one who would attempt to refute this.
    The firefighters whose bravery and valor protect our nation deserve 
all that we can give them, and it is my hope that this Congress truly 
begins to realize our responsibilities this year.
    Again, I would like to thank the Chairman and Members of the 
Committee for this hearing, and I wish to thank all of our nation's 
firefighters for everything they do.

                                Panel 2

    Chairman Boehlert. Thank you very much for that very fine 
testimony. And I am pleased that we are joined by our 
distinguished colleague from Connecticut, Senator Dodd. And 
Senator, I want to commend you for the leadership you have 
provided in moving this process forward by your rather 
brilliant strategic move to insert the SAFER legislation 
language into the Defense Authorization Bill. We will be 
conferees and part of that. And Congressman Weldon will, too. 
And we are going to be doing our best to embellish it even 
more.
    Senator Dodd. And I thank you very much, Mr. Chairman.
    Chairman Boehlert. And we welcome you.

STATEMENT OF HON. CHRISTOPHER J. DODD, A UNITED STATES SENATOR 
                 FROM THE STATE OF CONNECTICUT

    Senator Dodd. Well, thank you very much. This is sort of a 
homecoming for me. Almost 30 years ago, when I was elected as a 
freshman Member of the House, this was the first Committee I 
served on. And back in the days, Tiger Teig was--Texas was 
Chairing the Committee, and Don Fuqua and others. I look around 
the room and see pictures here and portraits on the wall of 
former Members, so it is a pleasure to come back. Very 
different looking Committee room than it was almost 30 years 
ago with the arrival of technology.
    And I will just share some--a few thoughts with you, ask 
unanimous consent that these prepared remarks be included in 
the record. I see my good friend, Congressman Udall, here and I 
am reminded of Mo Udall's famous line after listening to 
several colleagues speak on a specific matter. He said, 
``Everything has been said, but not everyone has said it.'' And 
so I am going to take a few minutes here and share a few 
thoughts with you. Let me commend, first, Curt Weldon and Bill 
Pascrell for the tremendous job they have done and Members up 
here as well. We need to right away in the Senate thank John 
Warner and Carl Lebbon as well as the Chairman and the Ranking 
Member of the Armed Services Committee at the Senate. Without 
their support as cosponsors of the amendment a week or so ago 
on the floor of the Senate, we would not have been able to 
include this language as part of the Defense Authorization 
Bill. And so I want to thank them.
    This is a bit of an awkward way to proceed. And we--it was 
pointed out on the FIRE Act a few years ago, they were also the 
means by which we were able to get that language included and a 
potential conference report with the House. It is conceivable 
it would have happened through a normal course of events, but 
we felt that this was the time to move. We are not sure, with 
other matters that may come up in the Senate the coming week, 
so the other matters could get crowded out of the schedule and 
this kind of a bill might not have had a chance to be heard. So 
I appreciate the Chairman's comments about it. And I would be 
remiss by not thanking all of those who are--who have been 
responsible for achieving the success.
    We are in this effort, obviously, together. And we think we 
can provide America's fire services with the resources it 
needs. Bill Pascrell has laid out the case pretty well as Curt 
Weldon has. Here, Mr. Chairman, there is a growing problem. I 
appreciate Curt Weldon's comments, particularly with the 
volunteer services, or these combination departments, 
particularly in rural areas of the country, particularly part 
of our parts of the country in the northeast where the old--the 
rural communities of 25 years ago becoming suburban communities 
and the idea that people who lived in those communities, worked 
in those communities and then could be volunteers has 
diminished tremendously. Today, a lot of the people who live in 
these communities commute to the larger cities and work every 
day so that the population, the potential population to serve 
as volunteers just has declined tremendously in the last few 
years. And it is harder and harder for these departments to 
succeed without, of course, tremendous costs to these 
communities. And as Bill points out as well, even of course, of 
paid departments we're seeing the problems increase with a 
decline in the service.
    And so we are doing everything we can here to try and 
provide a sense of cooperation with local and state governments 
to see to it that the importance of the work done by our fire 
services, emergency medical services will get the support that 
they deserve.
    As you know, Mr. Chairman, as I said, Senator Warner and I 
introduced the Senate version of this bill in the fall of 2001, 
just a few weeks after September 11. Again, I appreciate Bill 
Pascrell pointing out that it was back in 1999 we introduced 
the FIRE Act, before the 9/11 disaster. Even before then, of 
course, many of us in Congress have long recognized that 
America's firefighters make extraordinary contributions to 
their communities every single day. And for that reason, the 
FIRE Act was signed into law in the fall of 2000, a year before 
the events of 9/11.
    After September 11, of course, we know that America's--
needs its firefighters to be better prepared to respond to the 
deliberate acts of terror and destruction. The Fire Service 
needs to be better prepared, obviously, to deal with acts of 
bioterrorists. It needs to be prepared to help people, save 
people who have been attacked with toxic chemical weapons. Just 
the responsibilities have just so dramatically changed from 
what most of us grew up with knowing about your fire department 
and what they--the job they did. And today, all of a sudden, 
these men and women are being asked to perform services and 
handle materials and situations, just dramatically different 
than historically what we thought about as traditional fire 
services.
    So the job has become a highly sophisticated one where you 
not only have to be a good volunteer, you have got to be a well 
educated one, a well educated, paid member of the department to 
really understand the challenges that you are going to face. 
And despite the increasingly important role, of course, that 
these men and women are playing as part of our national 
homeland defense system, communities, as we all know, over the 
years, have not been able to maintain the level of staffing 
necessary to ensure the safety of the public or our 
firefighters themselves.
    Since 1970, the number of firefighters as a percentage of 
the U.S. workforce has steadily declined, and the budget crisis 
that our state and local governments are now enduring have only 
made the matters that much worse. Across the country today, 
firefighter staffing is being cut. Fire stations are being 
closed because of the state and local budget pressures.
    According to the Needs Assessment study recently released 
by the U.S. Fire Administration and the National Fire 
Protection Association, under-staffing contributes to enormous 
problems. For example, the USFA and the NFPA have found that 
only 11 percent of our nation's fire departments have the 
personnel they need to respond to a building collapse involving 
50 or more occupants. The consequences of under-staffing are 
often tragic, according to testimony by Harold Schaitberger, 
the general President of the International Association of Fire 
Fighters, presented before the Senate Science and Technology 
and Space Subcommittees on October 11 of 2001. Under-staffing 
is caused or contributed to recent firefighter deaths in 
Memphis, Tennessee, Worcester, Massachusetts, Iowa, Pittsburgh, 
Pennsylvania, Chesapeake, Virginia, Stockton, California, 
Lexington, Kentucky, Buffalo, New York, Philadelphia, and 
Washington, DC. In each case, firefighters went into dangerous 
situations without the support they needed, and they paid the 
ultimate price. And their families have been left with an empty 
place, obviously.
    I know that the Members of this committee recognize the 
need for action, and I am delighted that the Senate recently 
approved the SAFER Act as an amendment that we offered to the 
Defense Department Authorization Bill. Senator Warner and 
Senator Levin, as I have mentioned, cosponsored the 
legislation, and we are grateful for their standing support.
    I think we stand a chance of passing this, Mr. Chairman, 
with your help and others, with this conference report. It is 
not as comprehensive as many of us would like, but I think 
realistically it is--requires appropriation over three years. 
We authorized money for 10. It requires cooperation, obviously, 
at the state level. This isn't the Federal Government taking on 
this responsibility entirely, but becoming a good partner, not 
unlike what we did with the COPS Program. So for all of those 
reasons, Mr. Chairman, I appreciate the generosity of allowing 
a Member from the other body to come over here as, again, my 
friend, Mo Udall, said years ago when I left the House and went 
to the Senate, I was improving the intelligence of both bodies 
with that move. So that--it is nice to be invited back to the 
House, and particularly to a committee that I enjoyed serving 
on almost 30 years ago.
    [The prepared statement of Mr. Dodd follows:]

           Prepared Statement of Senator Christopher J. Dodd

    Chairman Boehlert and distinguished Members of the Science 
Committee, I appreciate the opportunity to appear before you this 
morning to discuss a matter of great importance to communities around 
the country. I know I'm preaching to the choir today, but the work 
before us is too important for us to take anything for granted and I 
wanted to say to the Members of this committee that I support your 
efforts to pass legislation to help ensure that America's local fire 
agencies have the human resources that they need to meet the challenge 
of an extended war against terrorism and to address the myriad of other 
dangers that firefighters face every day.
    We are in this effort together and together we can provide 
America's fire service with the resources it needs. Mr. Chairman, 
firefighting is a dangerous business, but we can help make it 
relatively less dangerous. I applaud your leadership on this matter and 
I look forward to working with you to secure quick passage of the SAFER 
Act. I also want to thank Congressman Curt Weldon for his leadership on 
this and other fire service issues. Congressman Weldon and I share a 
commitment to the fire service that has produced legislative success in 
the past with the enactment of the FIRE Act. I hope and believe that we 
may be on the verge of another victory now for our nation's 
firefighters.
    I recognize so many friends of the fire service on the Committee. 
Congressman Larson and I have been working together to provide tax 
incentives to improve recruitment and retention for volunteer fire 
departments. Again, I know that I am preaching to the choir. But we 
can't afford to let our shared faith in the fire service blind us to 
the task at hand--we have a lot of work to do to get to final passage 
of the SAFER Act. We can get there, but we've got to be prepared to act 
now.
    Chairman Boehlert, as you know, Senator Warner and I introduced the 
Senate version of the Staffing for Adequate Fire and Emergency Response 
(SAFER) Act in the fall of 2001--just weeks after the attacks on 
September 11th.
    Even before September 11th, many of us in Congress had long 
recognized that America's firefighters make extraordinary contributions 
to their communities every day. For that reason, the FIRE Act was 
signed into law in the fall of 2000. But on September 11, 2001, we got 
a glimpse of the larger role that the men and women of the fire service 
play. The national role of our firefighters has become apparent and our 
firefighters have made the Nation proud.
    After September 11th, we know that America needs its firefighters 
to be better prepared to respond to deliberate acts of terror and 
destruction. The fire service needs to be better prepared to deal with 
acts of bioterrorism and it needs to be prepared to help save people 
who have been attacked with toxic chemical weapons. In short, America's 
fire departments need to be prepared for what once seemed unthinkable.
    Despite the increasingly important role firefighters play as part 
of our national homeland defense system, communities over the years 
have not been able to maintain the level of staffing necessary to 
ensure the safety of the public or our firefighters themselves. Since 
1970, the number of firefighters as a percentage of the U.S. workforce 
has steadily declined and the budget crises that our State and local 
governments are now enduring have only made matters worse. Across the 
country today, firefighter staffing is being cut and fire stations are 
even being closed because of State and local budget shortfalls.
    According to a ``Needs Assessment Study'' recently released by the 
U.S. Fire Administration (USFA) and the National Fire Protection 
Association (NFPA), understaffing contributes to enormous problems. For 
example, the USFA and NFPA have found that only eleven percent (11 
percent) of our nation's fire departments have the personnel they need 
to respond to a building collapse involving fifty (50) or more 
occupants.
    The consequences of understaffing are often tragic. According to 
testimony by Harold Schaitberger, General President of the 
International Association of Firefighters, presented before the Senate 
Science, Technology and Space Subcommittee on October 11, 2001, 
understaffing has caused or contributed to recent firefighter deaths in 
Memphis, Tennessee; Worcester, Massachusetts; Iowa; Pittsburgh, 
Pennsylvania; Chesapeake, Virginia; Stockton, California; Lexington, 
Kentucky; Buffalo, New York; Philadelphia, Pennsylvania; and 
Washington, D.C. In each case, firefighters went into dangerous 
situations without the support they needed and they paid the ultimate 
price. And their families have been left with an empty place at the 
diner table.
    I know that the Members of this committee recognize the need for 
action. And I am delighted that the Senate recently approved the SAFER 
Act as an amendment that I offered to the Fiscal Year 2004 Department 
of Defense Authorization bill. Senator Warner and Senator Levin co-
sponsored the amendment and were critical to its success. But again, 
there's still more work to be done.
    I think we stand a chance of passing the SAFER Act the same way we 
passed the FIRE Act back in 2000, when Senator DeWine, Senator Levin, 
Senator Warner and I worked to successfully attach the FIRE Act to the 
DOD bill. I'm sure Congressman Weldon remembers that effort because he 
worked tirelessly to ensure the success of the FIRE provision during 
the conference to reconcile the House and Senate bills. The FIRE Act 
has been a tremendous success. The FIRE Act grant initiative has 
provided nearly half a billion dollars in direct assistance to local 
fire departments across the country and will provide another $750 
million this year. We are beginning to significantly improve the 
quality of the equipment available to firefighters in every state and 
in communities large and small.
    And now, with Senate passage of the SAFER Act, we have taken a 
significant step forward toward improving staffing conditions for 
America's fire service. I know that several Members of the Science 
Committee may serve on the DOD conference committee and I pledge my 
support to each of you as you work through the SAFER provisions.
    In closing let me say that the SAFER Act honors America's 
firefighters. It acknowledges the men and women who charge up the 
stairs while everybody else is running down. But it does more than 
that. This legislation is an investment in America's security, an 
investment to ensure the safety of our businesses, our firefighters, 
our homes, and our families.

    Chairman Boehlert. It is always good to welcome you back, 
Senator, particularly to your committee of origin, if you will.
    Senator Dodd. Thank you very much.
    Chairman Boehlert. I want to thank both of you for your 
eloquent testimony and your commitment to the fire services. We 
will be working in partnership to see this thing through to its 
intended conclusion. Thank you very much.
    Senator Dodd. Thanks very, very much.

                                Panel 3

    Chairman Boehlert. Now we will go to Panel 3. Panel 3 will 
consist of the Honorable James Shannon, the President of the 
National Fire Protection Association. It is always good to 
welcome back to Capitol Hill; he is a frequent visitor, a 
former colleague in the House of Representatives.
    And we have--I am honored, particularly, to have from my 
Congressional District, Mike Quill, Chief of the Auburn Fire 
Department in Auburn, New York. Chief Quill has been a member 
of the Fire Service for nearly 30 years, all with the 
department in Auburn, New York, where he was born and raised. 
The Chief has been heading the department for eight years, but 
is no stranger to the challenges of the rank and file 
firefighter. That is because, during Mike's long career, he 
rose through the ranks, serving at all levels from firefighter 
to lieutenant to captain to municipal training officer to 
assistant chief and finally becoming chief of the department in 
1995. In addition to serving his community in the fire 
services, Chief Quill served his country in the United States 
Marine Corps, service that included a tour in Vietnam. That is 
an enviable record of service. And again, we are so honored you 
could join us today to give us your perspective from the front 
lines of Fire Service.
    And now for the purpose of introduction, the Chair is 
pleased to recognize Mr. Udall.
    Mr. Udall. Thank you, Mr. Chairman. And I want to thank you 
for including Mr. Michael McNeill on the witness list for 
today's hearing. Mike's current title is District Vice 
President for the International Association of Fire Fighters. 
In this capacity, he serves on the International Association's 
National Executive Board, representing firefighters in 
Colorado, Nevada, Oregon, Utah, and Wyoming. He was a Denver, 
Colorado firefighter for 33 years and previously served as 
President of the Colorado Professional Firefighters. He also 
previously served as President of the Denver Firefighters.
    I know that his testimony, reflecting his wealth of 
experience, will be a valuable contribution to the hearing 
record and to the Committee's understanding of the need for 
this important legislation. So I welcome Mike to the Committee, 
and I look forward to hearing your testimony. Thanks for being 
here.
    Chairman Boehlert. Thank you very much. And for the purpose 
of an introduction, the Chair recognizes Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman. I am pleased to 
introduce Jeff Cash. Jeff Cash is from Cherryville, or as it is 
pronounced in North Carolina, Cherville. He is the Program 
Coordinator from the North Carolina State Firemen's Association 
and also is now the President of the North Carolina State 
Firemen's--in addition to being the Program Coordinator, is 
President of the North Carolina State Firemen's Association. He 
was also the volunteer Fire Chief for the City of Cherryville. 
He was chosen by other firefighters as the North Carolina State 
Fireman of the Year in 1990. And Mr. Chairman, to give you an 
idea of what the State of North Carolina is like, it turns out 
that Mr. Cash grew up playing ball with a younger brother, one 
of my wife's and my best friends.
    Chairman Boehlert. Yeah, we are pleased to welcome the 
gentleman from Cherryville.
    Mr. Miller. Cherville.
    Chairman Boehlert. Cherville? All right. We want to get 
that straight. Thank you very much.
    Gentlemen, we would appreciate it if you could summarize 
your testimony. We are not going to be arbitrary in watching 
the clock every minute, so don't get nervous if that suddenly 
goes from green to yellow to red. What you have to say is very 
important to this committee, and we want the advantage of your 
input. And we appreciate you all being willing to serve as 
resources for the Committee.
    We will go from the Chair down, left to right, with our 
colleague, former Congressman Shannon first. What is more 
important, former Congressman or President?
    Mr. Shannon. Former Congressman.
    Chairman Boehlert. There you go. Thank you very much. Mr. 
Shannon.

 STATEMENT OF HONORABLE JAMES M. SHANNON, PRESIDENT, NATIONAL 
                  FIRE PROTECTION ASSOCIATION

    Mr. Shannon. Thank you very much, Mr. Chairman, Ranking 
Member Hall, Members of the Committee. My name is Jim Shannon. 
I am the President of NFPA. And we are very pleased to be here 
in support of this very important legislation today.
    While legislation for the purposes of this one would be of 
interest to NFPA at any time, we are especially pleased to see 
it and support it now, because it responds to gaps in personnel 
that we have recently documented. And we believe that this 
legislation, the SAFER legislation, would go a long way to 
address those gaps.
    I would like to get right into it and touch on the changing 
demographics of fire departments and what those changes mean 
for the likely personnel shortfall in the future. And I would 
like to provide background on relative NFPA standards and other 
guidelines that define necessary fire department staffing for 
safe and effective response. Now much of my testimony today is 
based on some very troubling findings from the Needs Assessment 
that Senator Dodd referred to, which was a study authorized by 
Congress and conducted by NFPA in cooperation with FEMA. And 
those findings are bolstered by other studies conducted by NFPA 
over the past 15 years.
    Our research found that areas of greatest concern are a 
shortage of fire stations to provide emergency response times 
that meet the guidelines of the Insurance Services Office and 
NFPA 1710 and insufficient staffing on responding fire 
apparatus for safe and effective firefighting inside a building 
in accordance with NFPA 1710 and 1720. Simply stated, at least 
65 percent of our nation's cities and towns don't have enough 
fire stations to achieve the widely recognized ISO response 
time guidelines. And those guidelines recommend that first call 
companies in ``built upon'' areas of the city be located to 
ensure travel distance within one and a half miles. That 
guidance is consistent with NFPA 1710 that firefighters respond 
within 40--within four minutes 90 percent of the time. However, 
arriving on scene in time isn't enough if you arrive without 
the necessary resources to make a difference.
    NFPA Standards 1710 and 1720 define safe and effective 
response to structure fires in the 21st century. Both standards 
are developed through the voluntary consensus process, a 
process that you are very familiar with and that Congress has 
expressed support of through the National Technology Transfer 
and Advancement Act of 1995. And all of our standards are 
accredited by ANSI. The Needs Assessment survey found fire 
departments protecting communities of at least one million 
citizens had at least four career firefighters assigned to 
engines, but the numbers break down in smaller communities. 
Only 60 percent of departments protecting communities of 
250,000 to one million had four career firefighters assigned to 
engines. And departments serving populations of 100,000 to 
250,000, only 44 percent could make that claim. And in 
communities between 10,000 and 100,000, just 20 to 26 percent 
of the departments offered that necessary coverage. And this is 
our best information on the level of adoption of NFPA 1710 as 
of 2001.
    With regard to 1720, which deals with volunteer 
firefighters, most smaller communities protected by an all 
volunteer or mostly volunteer fire department responded with 
four or more firefighters to a mid-day house fire, but for 
many, the total response was only adequate for two functional 
crews on the scene. What remains unclear and unmeasured is how 
long it took to assemble those firefighters.
    When fewer than four firefighters are on scene, first 
responders face a cruel choice between initiating an interior 
attack without proper manpower to secure their own safety 
during high-risk operations or delay the interior fire attack 
until additional forces arrive. And obviously, the latter 
increases the danger to occupants and overall damage to 
property. Both NFPA 1500, the Standard on Fire Service 
Occupational Safety and Health, and Federal OSHA regulations, 
require a minimum of two firefighters to back up an initial 
team of at least two firefighters working in a hazardous 
environment. This is the ``two-in-and-two-out rule''.
    Closing these gaps requires more firefighters. There are no 
short cuts. Just to staff the number of fire stations required 
to meet response time guidelines, we estimate 25,000 to 35,000 
more career firefighters are needed. And to address the 
staffing of existing departments so that firefighters safely 
and effectively mount an interior attack on a fire, another 
50,000 career officers are needed.
    Investigations by NFPA and NIOSH have shown that a lack of 
adequate staffing has contributed to several firefighter 
fatalities in recent years. Increasing firefighter staffing to 
meet NFPA standards will help to protect the lives of our 
firefighters and our citizens.
    If I could just touch on one or two more points in the 
Needs Assessment, I know my time has expired, Mr. Chairman, the 
Needs Assessment also pointed to shortfalls in training, 
certification, equipment, and apparatus. While the existing 
FIRE Act has started to address those needs, the funding level 
has been only a fraction of the full cost.
    And add to this backdrop the challenges that you referred 
to earlier, the terrorism and the needs faced by those new 
challenges, we can see that this is a very dire situation. A 
recent analysis by NFPA shows that training and equipment needs 
for terrorism preparedness would run to tens of billions of 
dollars in initial costs and billions more in each subsequent 
year to maintain proficiency. And those estimates presume that 
there will be a sufficient number of first responders to 
perform assigned jobs, which is what the SAFER bill rightly 
addresses.
    For all of these reasons, Mr. Chairman, we believe that 
this is an essential piece of legislation. And we are very 
strongly in support of it and looking forward to working with 
you for its adoption and its implementation.
    [The prepared statement of Mr. Shannon follows:]

                 Prepared Statement of James M. Shannon

    Chairman Boehlert, Ranking Member Hall and Members of the 
Committee, I am honored to appear before this committee today. My name 
is James M. Shannon, and I am President and Chief Executive Officer of 
the National Fire Protection Association. NFPA is a non-profit 
organization, founded more than 100 years ago, with a mission to save 
lives through fire and life safety education and training, and fire 
research and analysis. NFPA also develops consensus codes and standards 
that are adopted by State and local jurisdictions throughout the United 
States and widely used by the Federal Government.
    I am here to testify in support of your legislation, H.R. 1118, the 
Staffing for Adequate Fire and Emergency Response Firefighters Act of 
2003 or SAFER. This proposed grant program will provide needed 
financial assistance to career, volunteer and combination fire 
departments to hire firefighters to help meet industry standards and 
community needs to provide adequate protection from fire and other 
hazards including acts of terrorism. While legislation for this purpose 
would be of interest to NFPA at anytime, we are especially pleased to 
see it and support it now, because it responds to gaps in personnel 
that we have recently documented. SAFER would go a long way to address 
those gaps.
    I will touch on the changing demographics of fire departments and 
what those changes mean for the likely personnel shortfall in the 
future. And I will provide background on relevant NFPA standards and 
other guidelines that define necessary fire department staffing for 
safe and effective response.
    Much of my testimony is based on troubling findings from the 
recently published ``Needs Assessment of the U.S. Fire Service,'' a 
study authorized by Congress and conducted by NFPA in cooperation with 
FEMA. Those findings are bolstered by other studies conducted by NFPA 
over the past 15 years.
    Our research found that the areas of greatest concern are a 
shortage of fire stations to provide emergency response times that meet 
the guidelines of the Insurance Services Office (ISO) and NFPA 1710; 
and insufficient staffing on responding fire apparatus for safe and 
effective firefighting inside a building, in accordance with NFPA 
Standards 1710 and 1720.
    Simply stated, at least 65 percent of our nation's cities and towns 
don't have enough fire stations to achieve the widely recognized ISO 
response-time guidelines. Those guidelines recommend that first-call 
companies in ``built upon'' areas of the city be located to ensure 
travel distances within 11/2 miles. That guidance is consistent with 
the requirements of NFPA 1710 that firefighters respond within four 
minutes, 90 percent of the time. However, arriving on scene in time 
isn't enough if you arrive without the necessary resources to make a 
difference.
    NFPA Standards 1710 and 1720 define safe and effective response to 
structure fires in the 21st century. Both standards are developed 
through the voluntary consensus process, a process that Congress 
mandated for standards used by federal agencies, with the enactment of 
the National Technology Transfer and Advancement Act of 1995. All NFPA 
standards developed through this process are accredited by the American 
National Standards Institute.
    The needs assessment survey found fire departments protecting 
communities of at least one million citizens had at least four career 
firefighters assigned to engines. But the numbers break down in smaller 
communities: Only 60 percent of departments protecting communities of 
250,000 to one million had four career firefighters assigned to 
engines. In departments serving populations of 100,000 to 250,000 only 
44 percent could make that claim. And in communities between 10,000 and 
100,000, just 20 to 26 percent of departments offered that necessary 
coverage. This is our best information on the level of adoption and 
implementation of NFPA 1710, as of late 2001.
    With regard to NFPA 1720, most smaller communities protected by an 
all volunteer or mostly volunteer fire department responded with four 
or more firefighters to a mid-day house fire, but for many, the total 
response was only adequate for two functional crews on the scene. What 
remains unclear and unmeasured is how long it took to assemble those 
firefighters.
    When fewer than four firefighters are on scene, first responders 
face a cruel choice between initiating an interior attack without 
proper manpower to secure their own safety during high risk operations, 
OR delay the interior fire attack until additional forces arrive. 
Obviously, the latter increases the danger to occupants and overall 
damage to the property. Both NFPA 1500, Standard on Fire Service 
Occupational Safety and Health, and Federal OSHA regulations require a 
minimum of two firefighters to back up an initial team of at least two 
firefighters working in a hazardous environment. This is often referred 
to as the ``two-in-and-two-out rule.''
    Closing these gaps requires more firefighters. There are no short 
cuts. Just to staff the number of fire stations required to meet 
response-time guidelines, we estimate 25,000 to 35,000 more career 
firefighters are needed. And to address the staffing of existing 
departments so that firefighters safely and effectively mount an 
interior attack on a fire, another 50,000 career officers are needed.
    Investigations by NFPA and the National Institute of Occupational 
Safety and Health have shown that a lack of adequate staffing has 
contributed to several firefighter fatalities in recent years. 
Increasing firefighter staffing to meet NFPA standards will help to 
protect the lives of our firefighters and our citizens.
    The Needs Assessment Survey also pointed to shortfalls in training, 
certification, equipment, and apparatus. While the existing FIRE Act 
has started to address these needs, the funding level has been only a 
fraction of the full cost.
    Add to this backdrop, the new challenges of global terrorism and 
the long list of training and equipment needs for the modern fire 
service grows even longer. A recent NFPA analysis estimates that 
training and equipment needs for terrorism preparedness would run to 
tens-of-billions of dollars in initial costs and billions more each 
subsequent year to maintain proficiency. Those estimates presume there 
will be a sufficient number of first responders to perform assigned 
jobs, which is what the SAFER bill rightly addresses.
    Firefighter demographics have changed substantially in the last 15 
years. There are more career firefighters but fewer volunteers, and the 
average age of firefighters is rising rapidly.
    Between 1986 and 2001, the total number of active firefighters 
increased by three percent. While career firefighter numbers increased 
by 23 percent, the number of volunteer firefighters decreased by three 
percent. Much of the shift is due to the addition of career 
firefighters--or more career firefighters--to departments that were 
once all-or mostly-volunteer. On top of that shift, the average size of 
career departments has grown slightly, while the average size of 
volunteer departments has remained unchanged.
    In 1986, 30 percent of U.S. firefighters were under 30 years of age 
and 36 percent were at least 40 years old. In 2001, 25 percent of U.S. 
firefighters were under 30 years of age and 44 percent were at least 40 
years old.
    The shift in the age make up of our departments, suggests a severe 
recruitment problem that has been temporarily offset by delayed 
retirements and/or better retention.
    Collectively, these findings suggest several courses of action:
    Career fire departments need more firefighters, even as they've 
experienced some success in adding firefighters to meet new 
assignments, standards, and guidelines over the past 15 years. There is 
nothing to suggest recruiting qualified firefighters would be an 
obstacle if departments were properly authorized and funded to do so.
    Volunteer fire departments also need more firefighters. While many 
communities have dealt with the recruitment decline by retaining older 
firefighters, they have, as a result, increased the percentage of 
firefighters who are at the highest risk of on-duty fatal injury. The 
rate of on-duty firefighter fatalities per 100,000 firefighters rises 
sharply after age 40, due primarily to the increased risk of heart 
attack.
    As Congress looks to address the staffing problem through your 
legislation, something must also be done to help our volunteer fire 
departments with recruitment and retention. Volunteer fire departments 
struggle to keep their members and to recruit new members to replace 
retiring firefighters.
    Chairman Boehlert, your legislation is designed to help both 
volunteer and career fire departments. The legislation would provide 
greater assistance if the definition of a firefighter would include 
those involved in fire prevention, public education, and code 
enforcement. Fire departments could then use these funds to hire 
personnel to do training activities, fire prevention, public education, 
or firefighting. This would dramatically improve some departments' 
response capabilities but, equally important, could prevent some 
tragedies from occurring in the first place.
    Mr. Chairman, when the Needs Assessment Survey was released, I was 
asked what I thought it all meant, and I described it as a Call to 
Action. The SAFER Bill is an outstanding piece of legislation that 
defines, clearly and practically, what actions we are called to take 
and must take.
    We cannot continue to ask our fire departments to protect our 
communities without adequate resources. We would not expect our armed 
services to defend our nation without adequate staffing and we should 
expect no less from our first responders here at home. But as the 
country braces for the unknown at home, our nation's fire departments, 
which are nearly always the first to respond in any crisis, are 
woefully understaffed to fully protect our citizenry or themselves. The 
need is urgent and long overdue.
    We all recognize the increased demands that have been placed on our 
nation's firefighters since September 11th. We can no longer ask our 
fire departments to survive entirely on local tax revenue, or in some 
cases fundraisers such as potluck dinners and auctions. The Federal 
Government must provide adequate resources and support to our 
firefighters to meet the many challenges--whether natural, 
unintentional or deliberate--as they protect the public and secure our 
homeland.
    Your legislation would begin to address these urgent needs, and 
NFPA not only enthusiastically endorses SAFER, we urge its passage.
    Mr. Chairman, thank you for the opportunity to testify today. I 
will be happy to answer any questions you or other Members of the 
Committee may have.

                     Biography for James M. Shannon
    NFPA President

    James Shannon served as NFPA Senior Vice President and general 
counsel from 1991-2002. In that time he oversaw all legal affairs of 
the association and also had administrative and real estate 
responsibility for NFPA's properties. Mr. Shannon has had a visible 
role in the organization's operations and government affairs, both 
domestically and abroad. Previously, he was elected Attorney General of 
the Commonwealth of Massachusetts where he pursued numerous policy 
issues, including a focus on antitrust. Mr. Shannon was senior partner 
in the Boston law firm Hale & Dorr and from 1979 to 1985, he served in 
the United States House of Representatives. Mr. Shannon earned his BA 
degree at Johns Hopkins University and his JD at George Washington 
University School of Law.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Boehlert. Thank you very much, Mr. Shannon. We do 
appreciate your testimony. The Chair is pleased to recognize 
Chief Quill. And we pronounce it up our way Auburn. Chief.

STATEMENT OF MR. MICHAEL D. QUILL, CHIEF, AUBURN, NEW YORK FIRE 
                           DEPARTMENT

    Mr. Quill. Thank you, Mr. Chairman, Members of the 
Committee.
    I would like to start out by talking a little bit about my 
hometown of, as you said, Auburn, New York. Auburn is a small 
city located in central New York. According to the latest 
census, the population stands at 28,574 people and covers an 
area of 8.6 square miles. In 2002, the City of Auburn responded 
to 3,635 calls for service, including structure fires, vehicle 
fires, emergency medical calls, service calls, and so forth and 
so on.
    The department works on a rotating four-platoon cycle with 
one platoon on days, one platoon on nights, and two platoons on 
their time off. All four shifts are staffed with 17 personnel 
with the number of normal working personnel on duty is 14, 
which includes a Chief Officer, a Captain, Lieutenants, 
Firefighters. These same personnel operate with three engine 
companies, a Hook & Ladder, a rescue vehicle, and the command 
vehicle.
    For a structural fire response, it would include all on-
duty personnel. If any sign of fire is visible, an automatic 
callback is instituted, which would start bringing in personnel 
from home. With 14 personnel on duty, there are not enough 
people to extinguish the fire. One Command Officer, one--at 
least one pump operator, a person to operate the aerial device, 
a fast team or a Rid team, which is the ``two-in-two-out''--
pertains to the ``two-in-two-out'', who rescue the rescuers and 
for fire suppression, ventilation, rescue, salvage, that brings 
us down to eight people.
    These same eight firefighters are responsible for rescuing 
any trapped occupants, advancing hose lines, ventilating the 
structure so the hose lines can be advanced, placing ladders 
around the structure. Under the best of conditions, this 
requires a response of a less--of at least 15 people minimum, 
but ideally there should be in the neighborhood of 20 people.
    In 1973, when I was hired as a firefighter for the Auburn 
Fire Department, we had 96 people in the job: 20 people 
assigned per shift, and not every working fire was an automatic 
callback for aid. The department was able to handle every call, 
and very seldom had to callback for additional personnel. As 
time went on, budget constraints, one of the first things to 
cut back were personnel.
    The fire department's operating budget for the last three 
years averaged out to $3.9 million. From this, 92 percent is 
deducted for personnel costs, salary, overtime, fringe 
benefits, and so forth. This leaves approximately $316,000 per 
year for tools, turnout gear, a self-contained breathing 
apparatus, vehicle replacement. Turnout gear costs 
approximately 200--or excuse me, $2,000 per individual. SCBA's 
are approximately $2,000 approximately. Vehicles start at 
$300,000 and go up. As you can see, there is not a great deal 
left over for additional personnel.
    Why do we need more firefighters? The primary reasons for 
hiring additional firefighters are very simple: greatly 
enhances the efficiency on-scene; increased safety, both for 
firefighters and the victims they are assisting; and enhanced 
planning and training to protect both firefighters and the 
communities they serve.
    While some jurisdictions require four firefighters to staff 
a single piece of apparatus, most staff with only three, and in 
my city, at times, we were down to two people. By increasing to 
four firefighters per unit, we will generate 100 percent 
increase in operational capacity compared with three-person 
companies. Under federal administrative law and proper safety 
practices, firefighters must operate in teams of at least two 
people. Therefore fire apparatus staffing of four will yield 
two working teams of two, doubling the capacity of apparatus 
staff with only three personnel.
    Linked to this substantial gain in productivity is a 
commensurate increase in safety, both for firefighters and for 
the victims they are assisting. On emergency responses, time is 
critical and minutes, or even seconds, can often mean the 
difference between life and death. The SAFER bill will help 
local governments provide necessary staffing on the initial 
response and not allow precious time to slip away as the first 
personnel on scene wait for additional firefighters to arrive.
    I do not live in a dream world and expect personnel levels 
will ever be the same as in the early '70's. However, as a Fire 
Chief, I realize that any additional personnel will be a huge 
benefit to the City of Auburn, as it would to all cities in the 
fire departments throughout the country.
    Thank you.
    [The prepared statement of Mr. Quill follows:]

                 Prepared Statement of Michael D. Quill

    Auburn, is a small city located in Central New York. According to 
the latest census, Auburn has a population of is 28,574 people and 
covers an area of 8.6 square miles.
    In 2002, the city of Auburn responded to 3,635 calls for service 
including structure fires, vehicle fires, emergency medical calls, 
hazardous conditions and service calls.
    The department works on a rotating four platoon cycle with one 
platoon on days, one platoon on nights and two platoons on their off 
time. All four shifts are staffed with 17 personnel; with the normal 
number of personnel on duty being 14. This includes a Chief Officer, a 
Captain, Lieutenants and Fire Fighter's. These same personnel operate 
with three engine companies, a Hook & Ladder, a rescue vehicle and a 
command vehicle.
    For a structural fire response, it would include all on duty 
personnel. If any sign of fire is visible, an automatic call back is 
instituted, which would start bringing in personnel from home. With 14 
personnel on duty, there are not enough people to extinguish the fire. 
The breakdown is as follows:

        Command Officer (1 person)

        Pump Operator (1 person)

        Aerial Device operator (1 person)

        Fast team (3 people)

        Fire suppression, ventilation, rescue, salvage (8 people)

    These same eight firefighters' are responsible for rescuing any 
trapped occupants, advancing hose lines, ventilating the structure so 
that the hose lines can be advanced, placing ladders around the 
structure. Under the best of conditions, this requires a response of at 
least 15 people minimum but ideally, this should be in the neighborhood 
of 20 people.
    In 1973 when I was hired as a firefighter the Auburn Fire 
Department had 96 people on the job, 20 people assigned per shift, not 
every working fire was an automatic call back of personnel. The 
department was able to handle every call and very seldom had to ``call 
back' for additional personnel. As time went on, budget constraints one 
of the first things to be cut back were personnel.
    The Fire departments operating budget for the last three years 
averages out to $3,956,330.00. From this 92 percent is deducted for 
personnel costs (salary, overtime and fringe benefits). This leaves 
approximately $316,506.00 per years for tools, turnout gear, SCBA 
vehicle replacement, etc. Turnout gear costs $2,000.00 per set, SCBA's 
are at $2,000 each and vehicles start at $300,000.00 and go up. As you 
can see there is not a great deal left over for additional personnel.
    I do not live in a dream world, and expect personnel levels will 
ever be the same as in the early 70's. However, as a fire chief I 
realize that any additional personnel will be a huge benefit to the 
city of Auburn, as it would to all cities and fire departments 
throughout the country.

Why Do We Need More Firefighters?

    The primary reasons for hiring additional firefighters are very 
simple:

        1. Greatly enhanced efficiency on-scene,

        2. Increased safety, both for firefighters and the victims 
        they are assisting, and

        3. Enhanced planning and training to protect both firefighters 
        and the communities they serve.

    While some jurisdictions require four firefighters to staff a 
single piece of fire apparatus, most staff with only three and in my 
city at times we are down to two. By increasing to four firefighters 
per unit, we will generate a 100 percent increase in operational 
capacity compared with three-person companies. Under federal 
administrative law and proper safety practices, firefighters must 
operate in teams of at least two people. Therefore, fire apparatus 
staffing of four will yield two working teams of two, doubling the 
capacity of apparatus staffed with only three personnel.
    Linked to this substantial gain in productivity is a commensurate 
increase in safety both for firefighters and for the victims they are 
assisting. On emergency responses, time is critical and minutes, or 
even seconds, can often mean the difference between life and death. The 
SAFER bill will help local governments provide necessary staffing on 
the initial response and not allow precious time to slip away as the 
first personnel on-scene wait for additional firefighters to arrive.

Why Federal Funding?

    Traditionally, fire departments have responded to isolated, local 
incidents. For the occasional, large-scale response, mutual aid from a 
neighboring jurisdiction often provided the needed, additional 
resources.
    In the aftermath of September 11th, it is no longer sufficient for 
fire departments to plan for these limited events. In the midst of our 
ongoing war on terrorism, local fire departments must be prepared for 
coordinated, well-orchestrated attacks aimed at American citizens on 
American soil. These attacks require the emergency response system to 
have significant surge capacity--of both manpower and equipment. Local 
governments cannot provide these resources alone. Properly preparing 
for and coordinating this type of response requires the assistance and 
financial support of the Federal Government.
    Recent economic conditions have forced fire departments to make 
significant budget cuts which are forcing staff reductions across the 
country. Departments have also been directly affected by the military 
call-ups necessary for the war in Iraq. A recent survey conducted by 
the International Association of Fire Chiefs has shown that the 
smallest fire departments are disproportionately affected by the call-
up of military personnel. These departments are the least able to 
absorb the loss of trained staff and will find much benefit from the 
legislation proposed by the SAFER Act.

Statistics

    The National Fire Protection Association (NFPA)--the consensus, 
standard-making body for the fire service--has published the consensus 
standard on recommended staffing for career and combination fire 
departments. Based on this standard, we know that many of these fire 
departments are understaffed.
    In addition, volunteer fire departments across the country are 
facing great difficulty in maintaining their ranks of volunteer 
firefighters. There are a wide variety of reasons for this decline, but 
its impact is unmistakable. NFPA statistics show a consistent, 
significant downward trend over the last two decades.
    Fortunately, relatively small investments in one or two career 
personnel can pay large dividends to a rural community served by a 
predominantly volunteer department. For example, by hiring a full-time 
training officer the department can maximize the safety and 
productivity of its volunteers by making sure their training regimen is 
up-to-date and that certifications are current for all firefighters.

Congress and the Staffing for Adequate Fire and Emergency Response 
                    (SAFER) Act

    On May 22, 2003 the Senate recognized the importance of 
establishing a federal initiative to enable State and local governments 
to hire additional firefighters through passage of a legislative 
amendment including firefighter staffing provisions. This is a 
significant step as the Federal Government has recognized and responded 
to fire and emergency service staffing needs. Unfortunately, this 
legislation authorized less than one-half of the $7.5 billion that is 
needed to support the SAFER Act. We look to the House of 
Representatives to pass SAFER with full funding and support its move 
through congressional conference.
    It is important to recognize the leadership that Chairman Boehlert 
has offered by introducing the SAFER Act. This legislation helps 
communities meet minimum fire personnel needs in a variety of emergency 
situations. It builds upon the highly successful Assistance to 
Firefighters grant program (also known as the FIRE Act), which provides 
fire departments funding for basic equipment and training, and helps 
make our communities more safe for the first responders and citizens of 
this great nation.

                     Biography for Michael D. Quill

    My name is Michael D. Quill and I am the Fire Chief of Auburn, NY. 
I was born and raised in Auburn; after graduating from high school, I 
entered the United States Marine Corps and served on active duty for 
four years, including a tour in Vietnam. Upon completion of my 
enlistment, I started my career with the Auburn Fire Department in 
November of 1973. During my 291/2 years I have worked in all ranks of 
the Department from Firefighter to Lieutenant, to Captain, to Municipal 
Training Officer to Assistant Chief and, in February of 1995, I was 
promoted to Chief of Department. I have been married to the former Joan 
McDonald for twenty-nine years. We have two children. Michael Jr. is a 
Police Officer in North Syracuse, NY and Colleen has just graduated 
from State University of New York at Cortland with a Bachelor of 
Science Degree in Elementary Education.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Boehlert. Thank you very much, Chief. Chief Cash.
    Mr. Cash. Mr. Chairman, thank you for the opportunity----
    Chairman Boehlert. Microphone, please.

  STATEMENT OF MR. JEFFREY C. CASH, CHIEF, CHERRYVILLE, NORTH 
                    CAROLINA FIRE DEPARTMENT

    Mr. Cash. Thank you for your leadership, Mr. Chairman, and 
Mr. Hall, as well. Thank you, Mr. Miller, for the introduction.
    Mr. Chairman and Members of the Committee, my name is Jeff 
Cash. I currently serve as the volunteer Fire Chief for the 
City of Cherryville Fire Department in Cherryville, North 
Carolina. In addition, I work full-time as a program 
coordinator for the North Carolina State Firemen's Association. 
I also serve as the State's Director, or Delegate, to the 
National Volunteer Fire Council. The National Volunteer Fire 
Council represents interests of the Nation's nearly 800,000 
volunteer firefighters who staff nearly 90 percent of America's 
fire departments.
    Thank you for the honor and privilege you have afforded me 
by allowing me to address this committee and express my views 
concerning H.R. 1118, the Staffing for Adequate Fire and 
Emergency Response Act and the manpower needs of America's Fire 
Service. Over the past year, you have heard from many national 
Fire Service organizational leaders regarding the SAFER Act. I 
am sure that their information has provided you with much 
insight to this bill and how it will positively effect 
America's Fire Service.
    Personnel shortages are a tremendous concern for America's 
Fire Service. Many departments and communities of all sizes 
struggle on a daily basis to adequately staff local fire 
stations and respond to calls. Personnel shortfall endangers 
the safety of firefighters and hinder their ability as first 
responders to effectively protect the public from fires and 
other hazards. Many studies and standards, such as NFPA that 
you have previously heard about, indicate there needs to be a 
minimal number of personnel on-scene to perform life-saving 
measures safely. Other studies indicate proper staffing is 
required to adequately protect property. Simply put, when 
firefighters can not safely work, they are unable to save lives 
and property.
    The SAFER Act authorizes the U.S. Fire Administrator to 
make grants to states and local governments to hire additional 
firefighters. The National Volunteer Fire Council and I support 
the passage of this legislation. Modeled after the highly 
successful COPS Program, the local governments would jointly 
share in the cost of hiring new firefighters over a 4-year 
period until the local jurisdiction could absorb responsibility 
for funding the new positions. This would provide for the 
safety of our firefighters as well as help ensure on-scene 
efficiency and allow the Fire Service to guarantee quality fire 
protection to the communities across our land.
    With all of these critical issues facing volunteer fire 
departments, I feel the SAFER bill should also include a 
recruitment and retention component to provide additional 
grants to local fire departments as local, State, or national 
Fire Service organizations. These grants, at a fraction of the 
cost of hiring grants, would go a long way to reverse the trend 
of high turnover in the volunteer fire services as well as the 
national trend that has resulted in the loss of nearly 15 
percent of the volunteer ranks in the last 20 years.
    Some possible programs that could be implemented with the 
recruitment and retention grants include national and local 
recruitment campaigns, the creation and augmentation of length 
of service award programs, other pension programs for 
volunteers, tuition assistance for higher education, and 
affordable housing programs, to mention a few.
    In fact, since September the 11th, 2001, the President of 
the United States has been encouraging all Americans to commit 
to service of their neighbors and their nation by becoming 
volunteers through Citizen Corps Initiative. Although I am 
encouraged by this initiative, we need to ensure that the 
recruitment of volunteer emergency service personnel is a vital 
part of that program.
    The main reasons additional firefighters that--are needed 
are: to provide for a higher level of safety for firefighters 
and victims during emergencies; to promote a higher degree of 
efficiency on the scene of these emergencies; to improve 
training to protect the communities across America; and in some 
cases, simply meet recommended standards.
    Why should the Federal Government be involved? For the 
majority of these responses, most local fire departments can 
respond to, they can be handled with one- or two-engine 
companies, sometimes supplemented by neighboring fire 
departments. This was before September the 11th. That day 
changed forever the role of the American Fire Service as well 
as our country. Not only does the local fire department 
continue to respond to fires and medical calls, but now is 
looked upon by its community to respond to hazardous material 
incidents, incidents involving weapons of mass destruction, as 
well as terrorism. And as we all know, terrorism has become a 
national issue. Local governments simply can not meet these 
financial demands. Being prepared through staffing, training, 
equipment, and coordination of these type of incidents will 
require financial assistance from the Federal Government.
    Finally, it is my understanding that on May 23, 2003, the 
United States Senate voted to add the SAFER bill as an 
amendment to the fiscal year 2004 Defense Authorization Bill, 
S. 1050. However, the House passed their version of the bill, 
H.R. 1588 without including the SAFER bill language. I urge the 
Members of this committee, and all Members of the House, to 
support keeping this language in its final version currently 
being worked out by conference committee.
    In closing, Mr. Chairman, again, I want to thank you for 
your leadership and for the opportunity to share my views with 
this committee and for your steadfast support of the Nation's 
fire service. I will be glad to answer any questions that you 
may have.
    [The prepared statement of Mr. Cash follows:]

                 Prepared Statement of Jeffery C. Cash

    Mr. Chairman and Members of the Committee, my name is Jeff Cash. I 
currently serve as the Volunteer Fire Chief for the City of Cherryville 
Fire Department in Cherryville, North Carolina. In addition, I work 
full-time as Program Coordinator for the North Carolina State Firemen's 
Association. I also serve as North Carolina's State Director to the 
National Volunteer Fire Council (NVFC). The NVFC represents the 
interests of the Nation's nearly 800,000 volunteer firefighters, who 
staff nearly 90 percent of America's fire departments.
    The Cherryville Fire Department consists of thirty-six total 
members, seven of which are full-time employees. The career personnel 
work a two-man per shift 24-hour rotation. Within these seven full-time 
employees is a Fire Inspector/Fire Educator who also serves as a 
daytime suppression employee. To supplement this full-time staff is a 
part-time clerical person.
    The remaining twenty-nine members of the department are volunteer/
paid on call. We have one station which houses two engines, one aerial 
truck, and a brush truck. The Cherryville Fire Department averages 
approximately 1,050 calls per year. The breakdown of calls is 
approximately 350 fire calls and 700 medical calls.
    Thank you for the honor and privilege you have afforded me by 
allowing me to address this committee and express my views concerning 
H.R. 1118, the Staffing for Adequate Fire and Emergency Response 
(SAFER) Act and the manpower needs of America's fire service. Over the 
past year, you have heard from many national fire service organization 
leaders regarding the SAFER Act. I am sure that their information has 
provided you with much insight into how this bill will positively 
affect the American Fire Service. During my testimony, I will attempt 
to provide additional justification for this bill by providing you with 
a glimpse into the needs and issues of my local jurisdiction.
    Personnel shortages are a tremendous concern of America's fire 
service. Many departments, in communities of all sizes, struggle on a 
daily basis to adequately staff local fire stations and respond to 
calls. Personnel shortfalls endanger the safety of firefighters and 
hinder the ability of first responders to effectively protect the 
public from fire and other hazards. Many studies and standards indicate 
there needs to be a minimum number of personnel on-scene to perform 
lifesaving measures safely. Other studies indicate proper staffing is 
required to adequately protect property. Simply put, when firefighters 
cannot safely work, they are unable to save lives and property.
    The SAFER Act authorizes the U.S. Fire Administrator to make grants 
to State and local governments to hire additional firefighters. The 
NVFC and I support passage of this legislation. Modeled after the 
highly successful COPS Program, local governments would jointly share 
the costs of hiring new firefighters over a four-year period until the 
local jurisdiction could absorb the responsibility of funding the new 
positions. This would provide for the safety of our firefighters as 
well as help insure on-scene efficiency and allow the fire service to 
guarantee quality fire protection to the communities of America.
    As long ago in Philadelphia, one of our forefathers, Benjamin 
Franklin, served as a volunteer firefighter. As founder of one of 
America's first fire departments, Franklin served his community as best 
he could. Remembering that he was a very busy man, I suppose old Ben 
missed a few fire calls, but I feel certain that he was there when he 
could be. I don't know how much time was required of firefighters back 
then, but I believe it was surely less than it is today. As 
Philadelphia grew, career firefighters began to replace volunteers 
because of call volume and other demographic changes. But rest assured, 
volunteer fire companies still play a major role and remain a way of 
life in the communities surrounding Philadelphia today. Much is the 
same where I live.
    I come before you today to tell you about my hometown and the fire 
protection we offer to our citizens. I want to discuss the challenges 
we face, and to seek your help in alleviating difficulties in 
delivering high quality fire and rescue services. From talking with 
fire service leaders across our nation, I believe these problems are 
common throughout the country.
    As Fire Chief, I have aggressively pursued budgeting for necessary 
staffing, equipment, and operational needs. A city our size (pop. 
5,800) continues to feel the great impact caused by budget cuts, which 
are a result of the present economic situation. The City of Cherryville 
is losing dollars almost daily from its tax base. Furthermore, we are 
possibly facing cuts in this year's budget. To add to our woes, the 
state of North Carolina is also withholding monies from the budget for 
the City of Cherryville. Our county officials are considering changes 
in the way they distribute sales tax revenue to the municipalities. 
This would have a dramatic impact on both the city and fire department 
budgets. Since my department is already operating at below minimum 
staffing levels, we are even more concerned about providing adequate 
fire protection and keeping our firefighters safe. My community, under 
current conditions, can barely stay operational. With basic 
infrastructure needs alone, my community is overwhelmed.
    My county, Gaston County, has an unemployment rate of 8.1 percent. 
The City of Cherryville is uniquely located at the northwestern corner 
of the county surrounded by Cleveland County and Lincoln County. The 
unemployment rate for Cleveland County is 11.4 percent and Lincoln 
County is 11.3 percent. The actual job loss from the City of 
Cherryville since 1995 is over 3,900 jobs. This number is derived 
mostly from losses in the textile and trucking industries. The annual 
payroll loss is approximately $86 million. You can see from these 
statistics how economically crippled my community has become. A 
shrinking tax base results in budget cuts. My community simply cannot 
afford manpower and staffing costs above its current funding levels. 
This, in turn, affects our ability to deliver adequate fire protection, 
and as Fire Chief I am greatly concerned about the safety of our 
firefighters.
    Gaston County is a suburban county in North Carolina that has a 
population of 190,000. Fire service for the fifteen municipalities and 
unincorporated areas of the county is provided by some 28 fire 
departments ranging from fully paid (Gastonia) to combination paid/
volunteer (Cherryville, Belmont, Mount Holly, and Stanley) with the 
remaining departments staffed on a fully volunteer basis. Current 
staffing in the county includes approximately 600 volunteer members, a 
number that has remained fairly constant for more than 10 years.
    Annually, the part-time and volunteer firefighters answer more than 
7,500 calls for service. This call volume has significantly increased 
over the past decade. Please understand that while the number of 
volunteers available has remained steady, the work load has increased 
drastically. Let's compare the Cherryville Fire Department's 1968 
Annual Report to our 2002 Annual Report. In 1968, the department's 26 
members spent 564 hours answering 66 calls for service and trained for 
a total of 650 hours. In total, members donated about 50 hours per year 
to the department. In 2002, our department's 36 members spent more than 
4,000 hours on 996 calls to which they were assigned and trained for a 
total of 1,700 hours. Our average member donated more than 160 hours 
last year.
    We are facing more calls, more time demands, and higher training 
standards, yet we live in an economy that is less charitable than in 
previous years. Few, if any business and industrial concerns are 
willing to allow firefighters to respond from work. Many times members 
are struggling to meet the financial demands for themselves and their 
families, and cannot afford to leave a paying job to volunteer. Often, 
we lose members because they hold second, even third jobs, trying to 
make financial ends meet. Many of our firefighters must drive out of 
our community to work which compounds our problem of staffing, 
especially during daytime hours. Several of my volunteer firefighters 
commute one hour to the Charlotte metro area, work eight hours, and 
then commute one hour home. This makes their availability to respond to 
calls for service very limited. This is compounded by the demands of 
family and church. Bottom line, where time is at a greater premium, 
community service holds less of an importance.
    In 1968, a person was considered a firefighter when they completed 
42 hours of training. Given the equipment used then and the situations 
that were encountered, 40-80 hours of training was probably sufficient 
to indoctrinate a person. As the complexity of equipment used and 
situations now encountered are more diverse, training demands have 
increased. Before placing a person in danger's way, minimal training is 
needed to achieve compliance with the National Fire Protection 
Association's minimum standards. Firefighter I, considered the minimum 
training, requires over 200 hours. Firefighter II is another 150 hours. 
To be certified as an Emergency Rescue Technician requires 240 hours of 
training. For Emergency Medical Technician's, the minimal training 
required to treat patients in an ambulance is over 160 hours. More 
recent years have added training requirements for recognition and 
proper handling of incidents involving hazardous materials, weapons of 
mass destruction and now terrorism events.
    You may have heard some suggest that we need to reduce training 
requirements for volunteers. I however have chosen another path. Fire 
does not know, nor care, the employment status of a firefighter. It 
kills and injures volunteer and career firefighters without regard. 
Citizens deserve well-trained, experienced responders.
    Granted, anywhere in the United States a large portion of our calls 
can be handled with four responders. It is those larger incidents where 
15-20 members are required to safely and adequately function that 
become a problem.
    A 1999 survey conducted of Gaston County's Fire Service indicated 
that the average turnover of volunteers exceeds 25 percent annually. As 
with any business, this turnover rate is unhealthy. When we average 
retaining a person only four years, we have less experience and are 
constantly training new members. Officers are more prone to have good 
technical skills rather than having the opportunity to develop 
leadership skills needed to coordinate and to some extent, accommodate 
volunteer workers.
    So what is needed? Volunteers are not free. Their time--time away 
from their families, time away from their jobs, and time to respond--is 
donated but it costs them. Lack of time is the most often cited reason 
for not joining and for leaving the fire/rescue services. Other reasons 
include jobs, second jobs, family, children, aging parents, church, and 
general overload.
    Often we find that a person who will train for and respond to 
emergencies does not have sufficient time to attend to routine details 
such as equipment maintenance, record keeping, business meetings, and 
fundraising activities within the fire station. These details are 
essential for fire department operation; however, many are unwilling to 
volunteer time to accomplish that portion of the mission. Sometimes 
adequate funding can remove barriers to accomplishing these tasks. We 
must fund individual communities to assure that sufficient, adequately 
trained personnel are available to meet their citizens' needs.
    With all of these critical issues facing volunteer fire 
departments, I feel that the SAFER Bill should also include a 
recruitment and retention component to provide additional grants to 
local departments, as local, State or national fire service 
organizations. These grants, at a fraction of the cost of the hiring 
grants, would go a long way to reverse the trend of high turnover in 
the volunteer fire service as well as the national trend that has 
resulted in a loss of nearly 15 percent of the volunteer rank in the 
last 20 years. They would be very useful for departments that won't 
have the ability or need to take part in the hiring part of the 
program.
    Some possible programs that could be implemented with recruitment 
and retention grants include; national and local recruitment campaigns; 
the creation and augmentation of length of service award programs and 
other pension programs for volunteers; tuition assistance for higher 
education; and affordable housing programs.
    In addition, since September 11, 2001, the President of the United 
States has been encouraging all Americans to commit to service of their 
neighbors and their nation by becoming volunteers through the Citizen 
Corps Initiative. Although I am encouraged by the initiative, we need 
to ensure that the recruitment of volunteer emergency services 
personnel is a vital part of that program.
    Additionally, if a stipend for response generates member retention, 
we need to implement it. If tax breaks to businesses to allow members 
to respond from work are needed, make it so. Should the answer be more 
community involvement, hire a coordinator to facilitate activities. 
Other solutions include tax breaks for volunteering, stipends for 
response and training, career staff to facilitate training when 
individual volunteers are available, and hiring career members to 
complete administrative tasks. All of these solutions are part of a 
system to reduce demands so volunteers can focus on the most important 
tasks--fighting fires and serving their fellow Americans.
    Increased call volume, increased training demands, and greater 
requirements are facts of life in America. Firefighting gets no relief. 
Back to Ben Franklin, please understand that there is a great 
probability that he would not have time to volunteer as a firefighter 
in today's age. He would be too busy developing a country, discovering 
electricity, writing, and speaking. One has to ask, how many good, even 
great leaders would or could volunteer if we simply made it more 
conducive to their schedules?
    In addition, we need to ensure that firefighters hired under the 
SAFER Bill are guaranteed the right to continue to volunteer in other 
jurisdictions during their off-duty hours. Many career firefighters who 
work in larger communities often live in smaller communities and belong 
to their local volunteer fire volunteer departments. These individuals 
should be able to provide their invaluable knowledge and expertise to 
their local department, which are responsible for protecting their own 
homes and family, without harassment from employers or labor 
organizations.
    Finally, it is my understanding that on May 23, 2003 the United 
States Senate voted to add the SAFER Bill as an amendment to the FY 
2004 Defense Authorization bill (S. 1050). However, the House passed 
their version of the bill (H.R. 1588) without including the SAFER Bill 
language. I urge the Members of this committee and all Members of the 
House to support keeping the language in the final version that is 
currently being worked out in a conference committee.
    In closing Mr. Chairman, I once again thank you the opportunity to 
share my views with the Committee and for your steadfast support of the 
Nation's fire service. I would be happy to answer any questions you may 
have.

                     Biography for Jeffery C. Cash

Objective:

    To utilize my teaching, human relations, organizational skills, and 
leadership ability to design and implement overall programs that assist 
firefighters in protecting and serving the citizens of their community.

Experience:

January 2003-Present--Cherryville, NC

        NORTH CAROLINA STATE FIREMEN'S ASSOCIATION
        Position Held: Program Coordinator

December 1981-Present--Cherryville, NC

        CITY OF CHERRYVILLE FIRE DEPARTMENT
        Positions Held: Firefighter, Driver Engineer, Captain/Training 
        Officer, Fire Chief, and City Emergency Management Director. 
        Currently serving as Volunteer Fire Chief

September 1981-December 1981--Shelby, NC

        CITY OF SHELBY FIRE DEPARTMENT
        Position Held: Firefighter

June 1979-September 1981--Rock Hill, SC

        CITY OF ROCK HILL FIRE DEPARTMENT
        Position Held: Firefighter

Education:

        <bullet> Cherryville Senior High School

        <bullet> Cleveland Community College

        <bullet> Gaston College

Fire Service Training

        <bullet> North Carolina Certified Firefighter Level III

        <bullet> North Carolina Certified EMT Defibrillation

        <bullet> North Carolina Certified Fire Officer

        <bullet> North Carolina Certified Hazardous Material Responder

        <bullet> North Carolina Certified Arson Investigator

        <bullet> North Carolina Certified Fire Inspector Level III

        <bullet> Fire Chief Executive Development Program Institute of 
        Government UNC Chapel Hill

Professional Activities:

        <bullet> Winner of I.S.F.S.I. Company Officer Scholarship, 
        April 1984, paper published.

        <bullet> NC Fire College & NC Breathing Equipment School (Lead 
        Instructor)

        <bullet> Gaston College Senior Instructor

        <bullet> Cherryville Firefighter of the Year, December 1987

        <bullet> NC Firemen's Association Fireman of the Year, 1990

        <bullet> Region 11 Training Advisory Committee

        <bullet> NC Department of Insurance Fire Control Validation 
        Committee

        <bullet> NC General Assembly Legislative Study Commission 
        1998, 1999

        <bullet> North Carolina State Director to National Volunteer 
        Fire Council

        <bullet> Founder North Carolina Gateway Project

        <bullet> NC State Firemen's Association Board of Directors 
        August 1995-August 2001

Fire Service Organizations:

        <bullet> International Society of Fire Service Instructors

        <bullet> National Volunteer Fire Council

        <bullet> NC Fire Chief's Association

        <bullet> NC Society of Fire Service Instructors

        <bullet> NC Chapter International Association of Arson 
        Investigators

        <bullet> Gaston County Firefighters Association, Board of 
        Directors

        <bullet> Western NC Firemen's Association

        <bullet> Gaston College Advisory Committee (Chairman)

        <bullet> NC State Firemen's Association Legislative Key 
        Contact

Community Activities:

        <bullet> Member of First Baptist Church, Cherryville, Deacon 
        Board, Past Chairman

        <bullet> South Elementary Parent Advisory Board, Chairman

        <bullet> Precinct Chairman, Precinct #44 Cherryville, 1988-
        1992

        <bullet> Little League Baseball Coach, 1990-1998

        <bullet> Little League Baseball NC District One District 
        Administrator

        <bullet> Little League Baseball International Advisory Board 
        Member

        <bullet> Ironmen Booster Club, Past President

        <bullet> NC Baptist Men (Disaster Relief Committee)

        <bullet> NC 26th Regiment, Civil War Re-enactor, Private

        <bullet> Cherryville Country Club Board of Directors

References:

        <bullet> Paul Miller, Executive Director, North Carolina State 
        Firemen's Association, P.O. Box 188, Farmville, NC 27828; 800-
        253-4733

        <bullet> Ken Briscoe, Office of Fire Marshal, 1426 Overlook 
        Drive, Lenoir, NC 28645; 800-634-7854

Fire Chief Jeff Cash

    Jeff Cash is a native of Cherryville, North Carolina. He graduated 
from Cherryville High School in 1978 and attended Cleveland Community 
College and Gaston College. Jeff began his career as a firefighter for 
the City of Rock Hill, South Carolina in June 1979. In September 1981, 
he accepted a position as a firefighter with the City of Shelby, North 
Carolina. In December 1981, he accepted a position as a firefighter/
driver engineer with the City of Cherryville. He also held the 
positions of Captain/Training Officer, City Emergency Management 
Director, and was promoted to Fire Chief in 1986. Since January of 
2003, he has served as the full-time Program Coordinator for the North 
Carolina State Firemen's Association and Volunteer Fire Chief for the 
City of Cherryville Fire Department.
    During the past twenty-four years, he has been involved with the 
Fire Service at all levels. Chief Cash has served as an officer for the 
Gaston County Firemen's Association, as President of the Western North 
Carolina Firemen's Association, and on the Board of the Directors for 
the North Carolina State Firemen's Association for seven years. In 
2001, Jeff served as the President of the North Carolina State 
Firemen's Association. This organization represents 44,000 firefighters 
across the state of North Carolina. In 1990, Jeff was chosen by his 
peers as the North Carolina State Fireman of the Year. In 1999, Jeff 
was appointed to the National Volunteer Fire Council as North 
Carolina's State Director. He still currently serves in this position.
    Jeff is married and has two sons who both attend Appalachian State 
University in Boone, North Carolina. He currently serves as District 
Administrator for Little League Baseball. He also serves on the Little 
League Baseball International Advisory Board. He and his family live in 
Cherryville, NC and are active members of the First Baptist Church.

Cherryville Fire Department, Cherryville, NC

    City of Cherryville consists of 4.2 square miles with a population 
of approximately 5,800. The city is located in the Western Piedmont of 
North Carolina. The township of Cherryville consists of approximately 
14,000 people. Gaston County's population is 190,000.
    The Cherryville Fire Department consists of thirty-six total 
members, seven of which are full-time employees. The career personnel 
work a two-man per shift 24-hour rotation. Within these seven full-time 
employees is a Fire Inspector/Fire Educator who also serves as a 
daytime suppression employee. To supplement this full-time staff is a 
part-time clerical person.
    Chief Jeff Cash currently serves the fire department as its 
Volunteer Fire Chief. He provides overall leadership and management of 
the department. The remaining twenty-nine members of the department are 
volunteer/paid on call. They have one station which houses two engines, 
one aerial truck, and a brush truck. The Cherryville Fire Department 
averages approximately 1,050 calls per year. The breakdown of calls is 
approximately 350 fire calls and 700 medical calls.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Boehlert. Thank you very much, Chief.
    And now for our final witness, Mr. McNeill.

    STATEMENT OF MR. MICHAEL D. MCNEILL, 9TH DISTRICT VICE 
 PRESIDENT, INTERNATIONAL ASSOCIATION OF FIREFIGHTERS (IAFF), 
                        DENVER, COLORADO

    Mr. McNeill. Thank you, Mr. Chairman, and good morning. My 
name is Mike McNeill, and I am the 9th District Vice President 
of the International Association of Fire Fighters. And as noted 
by Congressman Udall, I represent the States of Colorado, 
Wyoming, Utah, Nevada, and Oregon. And indeed, most everything 
has been said, and I will keep that in mind and try to keep my 
remarks brief.
    For 33 years, I have had the honor of being a professional 
firefighter in Denver, Colorado. And during those years, I also 
served as the President of both the local union, Local 858 of 
the IAFF, and the Colorado Professional Fire Fighters. On 
behalf of General President Harold Schaitberger and the 260,000 
professional firefighters and emergency medical personnel of 
the IAFF, who collectively protect over 75 percent of our 
country's population, I am pleased to be here today testifying 
on H.R. 1118, the SAFER Firefighters Act.
    Let me begin by thanking you, Mr. Chairman, for your 
leadership on this vital issue. Your sponsorship of H.R. 1118 
is greatly appreciated by all of the Nation's firefighters.
    For nearly 100 years, the members of the IAFF have been 
first on the scene whenever and wherever people's lives are in 
jeopardy. However, firefighting is only one of our many tasks. 
As noted by you, Mr. Chairman, we are the Nation's primary 
providers of pre-hospital emergency medical care. We are the 
ones who respond whenever hazardous material is released into 
the environment. We search and rescue for people who are 
trapped or in danger, and more recently, we have assumed the 
role of the Nation's first responders to acts of terrorism.
    To meet these critical and growing demands, we need 
adequate numbers of firefighters. Firefighting is a labor-
intensive operation that requires sufficient numbers of 
properly trained and equipped personnel to perform safely and 
efficiently at the scene of an emergency. Unfortunately, far 
too many fire departments fail to deploy adequate numbers of 
firefighters to get the job done.
    And the current economic downturn has exacerbated this 
problem. For example, my own fire department in Denver, 
Colorado has reduced the number of firefighters on duty, and is 
considering instituting rolling blackouts where a fire station 
is closed for a day on a rotating basis. And the City has told 
the fire department to be prepared to lay off an additional 72 
firefighters this year. I wish I could say Denver is unique, 
but it is not. Fire departments are reducing staff and closing 
fire stations from Washington State to New York State. 
Nationwide, there is a critical shortage of firefighters, and 
that shortage represents a weak link in our homeland defense.
    Compounding the staffing shortage is the additional burden 
we have assumed of protecting Americans against acts of 
terrorism. This creates an unprecedented challenge for the Fire 
Service. Each time the alarm rings, we must be prepared for the 
possibility that we are responding to an act of war. Our 
enemies possess weapons of mass destruction and appear to be 
unafraid to use them. If a biological, chemical, or 
radiological attack is unleashed against America, firefighters 
will be the first to respond. Far too many departments do not 
have adequate personnel to perform their mission. And as noted 
by Congressman Pascrell, currently 2/3 of all fire departments 
are not able to comply with the National Consensus Standards 
and OSHA regulations for minimum staffing.
    Two-thirds is an outrageous statistic. The frightening fact 
is we simply don't have enough people to get the job done. In a 
recent survey, FEMA found that a vast majority of fire 
departments can not respond to emergencies in a timely manner. 
When firefighters do reach the scene, there are not enough 
personnel to do the job safely and effectively. And Senator 
Dodd noted that only 11 percent of our nation's fire 
departments can handle a structural collapse involving rescue 
and EMS operations for over 50 people. Considering the enormity 
and the destruction on September 11 and in Oklahoma City or 
that caused by Hurricane Andrew, it is both sobering and sad to 
know that only a small segment of our population has real 
protection from terror or natural disasters.
    Firefighter staffing has always been and always will be a 
local responsibility, and we are not suggesting that change. 
But in this dangerous New World in which we live, the Federal 
Government has a responsibility to help communities attain the 
minimum staffing levels necessary to operate safely in 
protecting the public. Such assistance should be targeted, 
temporary, but it must be provided quickly and broadly.
    On September 11, 2001, we witnessed one of the worst case 
scenarios. Terrorism experts had warned us that we should have 
been better prepared. The string of attacks that we suffered in 
the 1990's, including the first attack on the World Trade 
Center and the Oklahoma City bombing, should have alerted us to 
the threat. Firefighters have painfully learned the lessons of 
September 11. We watched and we grieved as 343 of our brothers 
perished that day.
    We know that in order to protect our homeland against 
future terrorist attacks, the Nation must address the staffing 
cuts in our fire departments. Federal dollars for equipment and 
training are only as effective as the number of firefighters 
available to do the job. To maximize that expenditure and to 
ensure adequate homeland security, more firefighters are 
needed, and that, Mr. Chairman, is being answered by passing 
H.R. 1118.
    In closing, I have noted that the Senate has passed an 
amendment to the Defense Authorization Bill for 2004. And the 
IAFF strongly encourages this committee to support retaining 
this provision in the upcoming conference committee.
    Mr. Chairman, thank you for the opportunity to testify 
before you. And I would be pleased to answer any questions that 
the Committee may have.
    [The prepared statement of Mr. McNeill follows:]

                Prepared Statement of Michael D. McNeill

INTRODUCTION

    Good morning, Mr. Chairman. My name is Michael D. McNeill, and I am 
the 9th District Vice President for the International Association of 
Fire Fighters (IAFF).
    For 33 years of my life, I had the honor of being a professional 
firefighter in Denver, Colorado, until I retired from active service in 
2000. During my years in the firehouse, I also served as President of 
Denver Fire Fighters, IAFF Local 858, President of the Colorado 
Professional Fire Fighters, and since 1984, IAFF 9th District Vice 
President, which encompasses the great states of Oregon, Nevada, Utah, 
Wyoming, and Colorado.
    On behalf of General President Harold Schaitberger, and the 260,000 
professional fire fighters and emergency medical personnel we represent 
throughout the United States; and, who according to a recently released 
FEMA study, collectively provide fire and emergency response protection 
to over 3/4 of the Nation's population, I am pleased to testify on H.R. 
1118, the S.A.F.E.R. Firefighters Act.
    Let me begin by thanking you for the commitment you've made to the 
U.S. fire service as demonstrated by your sponsorship of H.R. 1118. 
Your leadership and unrelenting pursuit in seeking to enact the SAFER 
legislation is an inspiration to us all. The Nation's firefighters 
thank you and we will not forget all that you do to ensure that we are 
safe and effective as we perform our duties in protecting our 
communities and the Nation.

FIRE FIGHTER STAFFING

    For nearly 100 years, the members of the IAFF have been the first 
on the scene whenever and wherever people's lives are in jeopardy. 
Firefighting is only one dimension of our work. We are the Nation's 
primary providers of pre-hospital emergency medical care. We are the 
ones who respond whenever a hazardous chemical is released into the 
environment. We search for and rescue people who are trapped or in 
danger. And more recently, in addition to all we have been doing, we 
must also assume the role of the Nation's first responders to acts of 
terrorism.
    To meet these crucial and growing demands, we need an adequate 
number of firefighters. Firefighting always has been and always will be 
essentially about people. It is a labor-intensive operation that 
requires large numbers of properly equipped and trained personnel to 
perform the myriad tasks that must be undertaken at an emergency scene.
    Unfortunately, far too many fire departments are currently 
deploying inadequate numbers of firefighters to respond safely to 
emergency situations. And the current economic downturn has exacerbated 
this problem. Even after the lessons of September 11th, municipalities 
are failing to adequately staff fire departments.
    Examples of short staffing are common in every part of the country. 
My own fire department in Denver, Colorado has laid off firefighters, 
and has recently instituted ``rolling blackouts'' where fire stations 
are closed for a day on a rotating basis. It's your tough luck if you 
happen to need a firefighter on the day that your local station is 
closed. And the city has told the fire department to prepare to lay off 
an additional 72 firefighters this year.
    I wish I could say that Denver is unique. Sadly it is not.

        <bullet> In New York State, both New York City and Buffalo are 
        closing fire stations.

        <bullet> In Massachusetts, Springfield has already laid off 53 
        firefighters, and Worcester is honoring the memory of the six 
        firefighters who died in that horrific warehouse fire three 
        years ago, by laying off 17 firefighters.

        <bullet> In the Midwest, Minneapolis has laid off 44 
        firefighters, Dayton has eliminated four engine companies and 
        reduced the number of firefighters per apparatus, and the 
        township of Bellaire, Ohio plans to close the fire department 
        altogether.

        <bullet> In Texas, the cities of Dallas and Fort Worth have 
        proposed shutting down companies. And Fort Worth and Houston 
        have reduced the number of firefighters per apparatus.

        <bullet> In the west, Phoenix plans to eliminate three engine 
        companies and lay off 42 firefighters and Seattle has proposed 
        eliminating 31 firefighters.

    These are just a few examples of a nationwide critical shortage of 
firefighters that represents a weak link in our homeland defense.
    Compounding the staffing shortage is the new the mission to protect 
Americans against terrorist acts, which pose a number of unprecedented 
challenges for the fire service. Each time the alarm rings, we must be 
prepared for the possibility that it is an act of war. Our enemies 
possess weapons of mass destruction, and appear unafraid to use them. 
If a biological, chemical, or radiological attack is unleashed against 
Americans, it will be firefighters who will respond first. Moreover, 
terrorism is forcing us to rethink how personnel are deployed. Rather 
than viewing incidents as isolated events, we must confront the 
possibility that each incident is but one part of a coordinated attack.
    Quite simply, far too many local fire departments don't have 
adequate personnel to perform their mission. With the new dangers posed 
by terrorists, this situation has reached crisis proportions. Whether 
it be a containment and evacuation mission following release of a 
radiological material in Texas, evacuating a skyscraper in Los Angeles, 
or providing emergency medical care to Members of Congress following an 
explosion in the Capitol, the frightening fact of life is that we 
simply do not have enough people to get the job done.

Staffing Studies

    Numerous studies have documented the extent of fire fighter 
understaffing and the impact it has on fire fighter safety and 
community security.
    The National Fire Protection Association (NFPA)--the consensus, 
standard making body of the fire service--recently completed a report 
entitled ``Preparing for Terrorism: Estimated Costs to U.S. Local Fire 
Departments.'' The study found that an additional 75,000 to 85,000 
firefighters are needed to fully staff fire departments to be able to 
safely respond to traditional emergencies and to minimally respond to 
terrorist incidents.
    Initiated at the request of the Council on Foreign Relations, the 
report identified two causes for insufficient firefighters. One, fire 
departments do not have enough fire stations within their communities 
to meet minimum response times. Two, many departments were responding 
with less firefighters than required by national standards. When NFPA 
extrapolated the need to fill the two gaps, it found that between 
75,000 and 85,000 additional firefighters are necessary.
    In its seminal report, ``A Needs Assessment of the U.S. Fire 
Service,'' the United States Fire Administration found that the vast 
majority of fire departments cannot respond to emergencies in a timely 
manner, and when firefighters do reach the scene of an emergency, there 
are not enough personnel to do the job safely and effectively. The 
report found that up to 75 percent of our nation's fire departments 
have too few fire stations to meet response time guidelines. In fire 
departments that protect communities with a population of less than a 
million, it is common to respond to emergencies with an insufficient 
number of firefighters. Further, the report found that only 11 percent 
of our nation's fire departments could handle structural collapse 
involving rescue and EMS operations for over 50 people. Considering the 
enormity of the destruction on September 11th, in Oklahoma City, or 
caused by Hurricane Andrew, it is a sobering and sad fact that only a 
small segment of our population has real protection from terrorism or 
natural disasters.
    Attempting to respond to fires or other hazards with inadequate 
personnel is not only ineffective, it is extraordinarily dangerous. 
Every year in our nation, firefighters lose their lives because there 
are not enough of them on scene to conduct a safe response.
    A study conducted by the Seattle Fire Department found that the 
severity of firefighter injuries declined 35 percent when staffing per 
apparatus was increased from 3-person crews to 4-person crews. A study 
by the Dallas Fire Department found a direct correlation between 
staffing levels and both the safety and effectiveness of emergency 
response operations. Specifically, the Dallas study found that 
inadequate staffing delays or prevents the performance of critical 
tasks, increases the physiological stress on firefighters, and 
increases the risk to both civilians and firefighters. After analyzing 
their data, the authors of the Dallas study concluded, ``staffing below 
a crew size of four can overtax the operating force and lead to higher 
losses.''
    And studies of firefighter fatalities have consistently identified 
inadequate staffing as a key factor in fireground deaths. Since 1997, 
NIOSH has investigated every firefighter line-of-duty death as part of 
its Fire Fighter Fatality Investigation and Prevention Program. Far too 
many of these reports have attributed these deaths to inadequate 
personnel on the scene.
    NIOSH has been especially critical of the failure of fire 
departments to assure that there are adequate numbers of people 
stationed outside a dangerous environment during an interior fire 
suppression attack. In explaining the need for outside personnel who 
are prepared and equipped to perform rescues, one recent NIOSH report 
explained, ``Many firefighters who die from smoke inhalation, from a 
flashover, or from being caught or trapped by fire actually become 
disoriented first. They are lost in smoke and their SCBA runs out of 
air, or they cannot find their way out through the smoke, become 
trapped, and then fire or smoke kills them.'' These tragic fatalities 
occur for only one reason: there are insufficient numbers of fire 
fighters on the scene.

Staffing Standards

    The need for adequate fireground personnel has been formally 
recognized by standards-making bodies of both the Federal Government 
and the fire service industry. Both the Occupational Safety and Health 
Administration (OSHA) and NFPA, the consensus standards making body of 
the fire service, have promulgated standards designed to achieve safe 
staffing levels.
OSHA's ``Two-In/Two-Out'' Standard
    In 1998, the Occupational Safety and Health Administration amended 
its Respirator Standard for firefighters and other employees engaged in 
dangerous occupations that require use of breathing apparatus. The 
revised standard formally endorsed a safe staffing rule known as ``2-
in/2-out'' that left no doubt about the vital link between sufficient 
staffing and firefighter safety.
    The 2-in/2-out regulation requires that whenever firefighters enter 
a burning structure or other dangerous environment, they must do so in 
teams of at least two that operate in direct visual or voice contact. 
Additionally, there must be at least two fully equipped and trained 
firefighters who remain outside the structure, who are capable of 
rescuing the firefighters inside should they become disoriented, 
trapped or injured.
    Unfortunately, most fire departments do not currently deploy 
adequate staffing to comply with this basic safety regulation. The 
result is that on-scene incident commanders are faced with the Hobson's 
Choice of delaying operations until additional firefighters arrive or 
sending firefighters into dangerous environments without sufficient 
back-up personnel.
NFPA 1710
    In the face of the mounting evidence of a severe shortage of 
firefighters, NFPA issued its first standard on minimum staffing for 
fire departments in the summer of 2001. NFPA Standard 1710, governing 
deployment and operations for fire and rescue departments, grew out of 
investigations into staffing related line-of-duty injuries and deaths.
    Ten years in the making, NFPA 1710 established consensus standards 
for minimum safe staffing levels for basic firefighting operations; for 
responses to tactical hazards, high hazard occupancies, and high 
incident frequencies; and for overall, integrated fireground 
operations. If fully implemented, this standard would result in more 
effective and more efficient fire and EMS departments across the United 
States--and in our business that means lives saved.
    OSHA's 2-in/2-out standard and NFPA 1710 clearly articulate the 
minimum staffing levels that fire departments need in order to perform 
emergency operations safely and effectively. Yet, as of today, 
jurisdictions that comply with these standards are in the minority. It 
is for this reason that federal assistance is needed and warranted.

The S.A.F.E.R. Fire Fighters Act

    To address the staffing crisis facing our nation, a bipartisan 
group of Members of Congress crafted the SAFER Fire Fighters Act. In 
recent years, the Federal Government has increasingly recognized its 
responsibility to assist local governments with the cost of protecting 
Americans against hazards. Both the FIRE Act and the programs run by 
the Office of Domestic Preparedness (ODP) have provided training and 
equipment to local fire departments. Other federal programs provide 
funding for emergency response training involving transportation 
incidents, superfund sites and nuclear facilities.
    None of these programs, however, currently provides any federal 
assistance for the most significant need of America's fire service: 
firefighting personnel. Even the FIRE Act, which was originally 
conceived of as a staffing proposal and lists staffing as the first of 
its 14 areas, cannot currently be used to hire firefighters due to the 
structure of the program and FEMA's decision to limit the purposes for 
which grants can be used.
    The SAFER Act would address this void by providing grants to local 
fire departments to fund the hiring of 75,000 additional firefighters 
over a seven-year period. SAFER would create a four year program under 
which fire departments would apply for federal grants that would 
contribute to the costs associated with hiring new firefighters, not to 
exceed $100,000 over four years for each firefighter hired. Local 
jurisdictions would then be required to retain the firefighter 
position(s) for at least one additional year.
    The SAFER Firefighters Act is an innovative approach to solving the 
Nation's need for more firefighters. It is an example of the new type 
of federalism that our country needs to combat terrorism. Numerous 
federal studies and reports bemoan the lack of coordination between the 
different levels of government. The SAFER Fire Fighters Act would be a 
step towards better cooperation and coordination amongst local, State, 
and Federal governments to respond strongly and decisively to terrorism 
and other emergencies.
    Although we are aware of no organized opposition to the SAFER Act, 
some Members of Congress have raised some legitimate questions, which I 
would like to address.
    Some argue that paying for firefighter training and equipment may 
be a legitimate Federal Government function, but providing aid to hire 
personnel crosses some sort of boundary for appropriate federal 
involvement. But the Federal Government has long provided financial 
assistance to local government for the express purpose of hiring 
municipal employees, including police officers, teachers and many other 
occupations. President Bush's signature domestic issue, the No Child 
Left Behind Act, is only the most recent in a long line of federal 
programs that provide funding to hire local government workers.
    Other Members question the authorized funding level. They argue 
that $1 billion a year is too much money at a time of fiscal restraint. 
We disagree. Since September 2001, Congress has passed in excess of $55 
billion in supplemental appropriations for homeland security and the 
war on terrorism. Additionally, the President has proposed over $36 
billion for homeland security in FY 2004, which includes the $3.5 
billion First Responder proposal. The funding is available. It is 
simply a matter of priorities.
    As a firefighter, a first responder, and someone who represents 
America's Bravest, I am here today to tell you that no investment in 
Homeland Security will do as much to protect Americans as enactment of 
the SAFER Fire Fighters Act.

CONCLUSION

    On September 11th, 2001, we witnessed one of the ``worst case 
scenarios'' that terrorism experts have warned us about. Yet, the 
string of attacks that we suffered in the `90s, including the first 
attack on the World Trade Center, and the Oklahoma City and the 
Olympics bombings, should have alerted us to the threat. We, as a 
nation, should have been better prepared for September 11th.
    Firefighters have learned the lessons of September 11th. The signs 
won't be ignored as they were in the last decade. We know that the 
Nation must confront, and realistically deal with, the next great 
threat to our homeland-an attack using weapons of mass destruction. In 
order to realistically deal with future terrorist attacks, the Nation 
must address the staffing crisis in our fire departments. Federal 
dollars spent to purchase training and equipment for firefighters will 
only go as far as the number of firefighters. To fully maximize the 
money spent and to ensure adequate homeland security, more firefighters 
need to be hired.
    Mr. Chairman, thank you for the opportunity to testify and I am 
pleased to answer any questions the Committee may have.

                    Biography for Michael D. McNeill

    Mr. Michael D. McNeill served over 30 years with the Denver Fire 
Department. As a firefighter Technician, for close to a quarter 
century, he was on the frontlines protecting the citizens of Denver 
from fires, medical emergencies, and natural disasters. In recognition 
of his firsthand knowledge of firefighting and his superior 
communications skills, Mike McNeill was appointed the department's 
public information officer. He retired from the force in 2000.
    During Mr. McNeill's years in the firehouse, he also served as the 
President of the Denver Fire Fighters, IAFF Local 858, the President of 
the Colorado Professional Fire Fighters, and since 1984, IAFF 9th 
District Vice President, which encompasses the states of Oregon, 
Nevada, Utah, Wyoming, and Colorado.
    Michael is a lifetime resident of Denver, Colorado. He is married 
to Cynthia, his wife of 35 years, and they have three children Matthew, 
Amy, Beth and five grandchildren.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               Discussion

    Chairman Boehlert. Thank you very much. And I want to thank 
all of you. Your entire statements will be in the record 
immediately preceding your summation.
    And this is a question I have for all of the witnesses. You 
know, there are differences in points of view on funding. I am 
wedded to the concept that we should bypass the States and the 
funding should go directly to departments. But there is a 
different point of view. And I would like to have your input on 
that. Let us start with you, Mr. Shannon.
    Mr. Shannon. Well, I can--Mr. Chairman, I certainly agree 
with you. I think that if we can bypass the States and go 
directly to the fire departments, as the points have been made 
earlier. First, it will get to them more quickly, and secondly, 
there will be less administrative overhead siphoned off. So we 
fully support going directly to the departments.
    Chairman Boehlert. Chief Quill.
    Mr. Quill. I have to agree with everyone so far. They 
should go directly to the departments. The departments know 
what they need and how they can best equip their departments 
with the personnel versus the State. The State is of great 
assistance, but at this time, I don't believe they belong in 
the mix.
    Chairman Boehlert. Okay. Chief Cash.
    Mr. Cash. Well, Mr. Chairman, I agree as well. I had the 
opportunity to sit as a peer reviewer for the Fire Grants Act 
and see that that is very--a very successful program, and we 
would like to see this funding travel the same route, directly 
to the local fire departments.
    Chairman Boehlert. Thank you. Mr. McNeill.
    Mr. McNeill. I agree with the previous speakers, Mr. 
Chairman. The FIRE Act Grant is working well. I think it serves 
as a great model for distribution of funds under the SAFER Act.
    Chairman Boehlert. Thank you very much. And Chief Cash, you 
pointed out something about the peer review. I am convinced 
that one of the reasons why we have had such great success with 
the FIRE Grant Program is that, quite frankly, the politicians, 
like me, are in the back. All we do is vote for the money, but 
the firefighters themselves establish the criteria and are on 
the peer review panels. And boy, we have got the politics out 
of it, and we have got the professionals, you guys, on the 
firing line doing the peer review. And that is something I 
really like.
    Chief Quill, I--a lot of the local departments have 
difficulty filing applications for federal assistance. I know, 
and a number of us around the country, have tried to provide 
some assistance. I, for one, in my District, have had FEMA 
conferences to which I have invited all of the representatives 
of the fire services to help get a tutorial on how to fill out 
the application to know which number to call when you need a 
question answered, that type of thing. Do you feel that your 
department is capable, a small department in a small community, 
of developing an application for assistance under the FIRE 
Grant Program or the new SAFER Program, which we expect will be 
a reality shortly?
    Mr. Quill. I have completed the application myself this 
year for the Auburn Fire Department. After your sponsorship of 
a FEMA representative being in Auburn earlier this year, it 
really couldn't be any simpler. I am not a computer--I am not 
very computer-savvy. I can get through one and I can work with 
the answering machine, but they are extremely easy to complete, 
just basically fill in the blanks, not a lot of technical 
knowledge or--a firefighter can do it very easily.
    Chairman Boehlert. So you felt with the FIRE Grant Program 
that you had the information you needed to comply with the 
application procedure?
    Mr. Quill. Absolutely. No problems whatsoever.
    Chairman Boehlert. And would you suggest that we--if the 
SAFER Program becomes a reality, as we all hope, would you 
suggest we follow the same model?
    Mr. Quill. The same model, the same formats for application 
and for dispersal of the funds, the peer committee, as my 
fellow Chief said here, the--just follow them completely. It 
would be perfect.
    Chairman Boehlert. Thank you. Chief Cash, your 
observations?
    Mr. Cash. I agree, as well. The peer review process works. 
We have proven that it works. It is a very successful program, 
and we would like to see this funding, if possible, track this 
same route.
    Chairman Boehlert. One last thing, and let me ask both of 
the Chiefs, have you been impacted by the loss of 
professional--of staff to the military? Chief Quill.
    Mr. Quill. Shortly after 9/11, we did have one member of 
our department called up to Naval Reserve duty, and it had a 
definite impact on our department. With his absence, we had to 
back-fill through overtime, canceling of certain time off, to 
fill this person's shoes. This last round we had, we had just 
hired an Army Reservist to come on board with the department. 
We were able to get a waiver for this individual not to go to 
active duty training until after his training with the Fire 
Service was complete. So it has hurt many, many fire 
departments throughout the country.
    Chairman Boehlert. Thank you. Chief Cash.
    Mr. Cash. We experienced the same problems as Chief Quill, 
not only in the Fire Service, but in our police agencies as 
well as our paramedic service. Several people serving in the 
National Guard were called up, and we were without those 
individuals during that time period.
    Chairman Boehlert. Well, I see my red light is on, and I am 
going to be arbitrary on that. I am not going to give myself 
any more time than anyone else, because we all have a lot of 
questions, and we so appreciate all of you serving as 
resources. So we will go right to Mr. Hall.
    Mr. Hall. Mr. Chairman, thank you. And thank you, 
gentlemen.
    It is my understanding that the Dodd Amendment puts 
allocation through the States and the Boehlert Amendment goes 
directly to the departments. And I guess that is something that 
will be decided later. I am still--have a--my jury is out on 
that, because I don't have the input from my people in Texas on 
it. And I can see some danger in it going to--directly to the 
fire departments, because many of you in the larger and the 
major cities will have more sophistication in writing those 
applications and there will be less sophistication in a rural 
part of east Texas, less need, I understand. But I think we 
need a lot of testimony and a lot of input to be sure that 
anything that is this important, and this is a very, very 
important bill to me and to the Chairman and to this committee 
and to this Congress, is to do it right and to be sure that 
everybody is taken care of. So I am--I remain an overall 
supporter of the thrust, but still need to hear some testimony 
and find some way to get to the people that I represent the 
best way for them to present their needs in this thrust. And 
Mr. President, I know you have interest in seeing all of them 
accommodated.
    Mr. Cash, you indicate that the new firefighters hired 
under the SAFER bill would be guaranteed the right to serve as 
volunteers in their off-duty hours in volunteer departments. 
And I like that. I don't know what the problems are with it or 
anything, but--and I don't understand why this is a problem 
that needs to be addressed in this legislation, but I guess it 
is. And in an abundance of caution, we are going to address it, 
but it seems to make so much sense that it ought to be easily 
accepted and accomplished. Give me your ideas on that.
    Mr. Cash. Thank you, sir. I have several firefighters that 
do fill-in work for me that are employees of the Charlotte Fire 
Department, one of the larger metro fire departments. And in 
some occasions, there are unions across the country that are 
encouraging their people not to serve as volunteers. We feel 
that that is a grave injustice. We feel that these firefighters 
that work at the larger municipal departments and live in our 
community, it is critical that they come back and volunteer 
their time to our community.
    Mr. Hall. And you recommend in your testimony that the 
SAFER bill include a recruitment and retention component for 
these volunteer people.
    Mr. Cash. Yes, sir; that is correct.
    Mr. Hall. And has anyone attempted to document what really 
works best and that--how to obtain and retain?
    Mr. Cash. We have done--there are studies out there, and we 
have tried different trial programs in our State. Some have 
worked, and some have been unsuccessful. But there are workable 
programs. Firefighters usually experience a burnout period 
after about four years. With the demands of their job, their 
family, their church, other activities, they are finding a hard 
time to be able to donate their time back to their community. 
So we need----
    Mr. Hall. Well, that----
    Mr. Cash. We need to strengthen efforts to do recruitment 
and retention.
    Mr. Hall. They occupy a special place in the hearts of the 
people that--the areas of my District, and I thank all four of 
you for your input. Thank you for your appearance here today. 
It took time to get here, it took time to prepare for this, it 
took time to--that you are giving us. It is through people like 
you, experts that know what you are doing and who have been on 
the giving end, that we write this legislation and that we pass 
this legislation to make it acceptable to the people that have 
to support it and support the tax funds for it. Very 
worthwhile. I am honored to be a part and honored to support 
this Chairman and his outstanding leadership in this arena. And 
thank you.
    Chairman Boehlert. Thank you very much, Mr. Hall.
    Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman.
    I am obviously very supportive of improving Fire Service in 
this country and everything that is related to that. But I have 
one simple question I would like to have each of you address, 
and that is why should the Federal Government be involved? What 
can we offer that you can't do yourself? And I hope you don't 
say that it is because we have more money, because we are 
running a $300 billion deficit. So the--and I am very serious 
about this. Why do you need our help? What can we bring to the 
table that you can't do on your own, if you were able to raise 
sufficient funds locally? I would like to just go down the 
line.
    Mr. Shannon. Mr. Ehlers, I think that is a very valid 
question. And the point has been made, and I certainly agree 
with it that the primary responsibility for support for the 
Fire Service should come from the local communities and from 
the State. But I would also say that--and I think our Needs 
Assessment Report points to the fact that the first responder 
community in America today is being asked to respond to threats 
that we have never experienced before, threats that are really 
national threats. And I will remind you that on September 11, 
2001, I know you remember, that one of the first attacks on 
America by the terrorists in 2001, the results were felt in the 
town of Shanksville, Pennsylvania, which is a small community 
with a volunteer fire department. And so we have to ensure, as 
a matter of national imperative, that our first responder 
community is prepared to respond to these eventualities 
wherever they might occur. And the fact of the matter is, today 
that won't happen if we rely specifically on the local 
communities and the States to do this.
    So I think this is an urgent national matter. I think we 
are at a unique time in history, and that--I think that 
justifies maximum federal support for the ongoing efforts of 
state and local communities.
    Mr. Quill. For many years, the Fire Service was able to 
handle anything that was thrown at them. We were somewhat kept 
in our community. We could handle our structure fires, our 
motor vehicle accidents. Our community--our world is changing 
daily: it is enlarging. We have weapons of mass destruction. We 
have toxic chemicals traveling our throughways, our roads, our 
railroad systems. The fire departments of today no longer can 
handle just their community. They are called upon to help other 
communities. The city that I come from, we are 25 miles west of 
Syracuse and 45 miles east of Rochester, two larger cities in 
upstate New York. They were not saying that we would be called 
immediately to a hazardous condition in either one of these 
cities, but we have to be prepared if we were. Ithaca is just 
south of us.
    Our cities no longer can handle not only their hazardous 
conditions or emergencies; they are called upon to help each 
other out. And I--that is why I feel the Federal Government 
should become involved. It is a national problem. It is not 
just tied to our cities.
    Mr. Cash. I would very--I am going to give you a little bit 
of information, which is jurisdiction-specific for my area. I 
am a small community of 5,800. The township would be about 
1,400. Since 1995, my little community has lost 3,900 jobs, 
which accounts for $86 million in payroll losses. As you can 
see from that statistic alone, our little jurisdiction is 
losing from its tax base daily. And with the onslaught of 
weapons of mass destruction, hazardous material, and terrorism, 
my little jurisdiction just simply does not have the funds to 
fund those type of operations, yet we will be the first ones to 
respond to those incidents.
    Mr. McNeill. Yes, sir, Congressman Ehlers, as I mentioned, 
in my remarks, firefighting and firefighter staffing has always 
been a local issue, and I believe it always will be. But the 
Federal Government has a role in protecting our communities. 
The burden for--of preparing for terrorist attacks is 
extraordinary, and it is resting squarely on the shoulders of 
local government. The attacks that we experienced in September 
of 2001 were attacks against New York City and the Pentagon, 
but they were more attacks against the Federal Government. They 
were attacks against the Government of the United States of 
America. And I think that the Government of the United States 
of America, the Federal Government, does have some 
responsibility to help alleviate that burden that is being 
placed on local governments now. And it is an extraordinary 
burden, just the preparation, the additional training. And we 
are running short. The economic downturn is hurting us now, but 
even without that, many fire departments just don't have the 
staff to handle the potential of the terrorist attacks that we 
face. This is not without precedent.
    Obviously, it--we have mentioned the COPS Program. But I 
think--when I was a young firefighter in the City of Denver, 
the CETA Program, the Comprehensive Employment and Training Act 
was in progress. That helped hire some firefighters in my city 
and I know other cities around the country. And some of those 
people went on to experience great careers in Fire Service and 
were a great value to their department.
    Mr. Ehlers. Two quick comments. First of all, I recognize 
that if we get into this business, the greatest danger is that 
it will become the world's greatest pork barrel. And not all of 
you who really deserve to get it are going to get the money, 
because there are going to be people with more political clout 
who bring it to their States. Secondly, if you--basing your 
justification on fighting terrorism, will you be satisfied 10 
years from now when we declare terrorism no longer a threat and 
the Federal Government withdraws, or do you think the Federal 
Government will withdraw at that point?
    My time is expired, so you----
    Chairman Boehlert. It is expired, and you are getting into 
the ``Never-Never-Wishful-Thinking Land''. I mean----
    Mr. Ehlers. Well, I----
    Chairman Boehlert [continuing]. Terrorism is here 
forevermore.
    Mr. Ehlers. It is something we have to face, Mr. Chairman--
--
    Chairman Boehlert. Yeah.
    Mr. Ehlers [continuing]. And I am not asking for answers, 
because my time is expired, but----
    Chairman Boehlert. Well, just a couple of observations, and 
I feel compelled to inject a few right now. First of all, I 
want to stress that what we are proposing under the SAFER Act 
will not supplant but will supplement what local governments 
are doing. And secondly, as Chief Quill pointed out so well, 
the world has changed rather dramatically. I am convinced that 
Chief Quill and his people in Auburn, New York can take care of 
Auburn's problems very ably in a professional way as they have 
been doing year after year. But it is a changed world, with 
hazardous materials coming and going, with the threat of 
terrorism and all of that sort of thing. And so--and Chief 
points out, they are strategically located between Rochester 
and Syracuse and Ithaca, so a lot of things that potentially 
are on a drawing board for Auburn to deal with have nothing to 
do with Auburn, New York, but Auburn, New York has a lot to do 
with them.
    And let me stress to you that one of the reasons I wanted 
to get the witnesses on record is that we intend to have the 
SAFER Program run like the FIRE Grant Program, which has 
avoided the ``pork barrel'' label, which has avoided the 
temptation to have some political muscle flexed and have the 
dollars flow in the direction of the holder of the political 
muscle. This is a program of, by, and for the firefighters. And 
we are going to continue it that way. But thank you very much 
for your observations, Dr. Ehlers.
    Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman. A couple of quick 
questions for Mr. McNeill.
    Mr. McNeill, you mentioned--or you said in your testimony 
that 343 firefighters had died in the collapse of the World 
Trade Center. I understand that about 60 of those were off-
duty, who saw what was going on, and simply went to the World 
Trade Center to see if they could help. Is that correct?
    Mr. McNeill. That is my understanding as well.
    Mr. Miller. Is there any doubt in your mind that anywhere 
in the United States, either professional or volunteer 
firefighters would have reacted the same way?
    Mr. McNeill. There is no doubt in my mind, sir.
    Mr. Miller. I understand that in a lot of parts of the 
United States, specifically New York City, with the heightened 
terror alerts, many firefighters have had to put in very long 
hours, many, many hours of overtime, 60, 70, 80 hours a week. 
Is that right?
    Mr. McNeill. I don't have firsthand knowledge of that, but 
I wouldn't be surprised if that were the case. It is my 
understanding that that happened.
    Mr. Miller. Okay. One prominent Senate Member suggested 
that firefighters, as an act of patriotism, should forego 
overtime pay and there was--the extended hours they are 
putting. First of all, do you think firefighters need to do 
anything to prove their patriotism?
    Mr. McNeill. No, sir; I do not.
    Mr. Miller. What is your opinion of that suggestion?
    Mr. McNeill. Of working back to your employer on a 
voluntary basis?
    Mr. Miller. Without overtime. Foregoing overtime.
    Mr. McNeill. My opinion of that, sir, it is in violation of 
the federal law.
    Mr. Miller. Okay. Beyond a legal response to it, do you 
have any sense whether that is something that firefighters 
really need to do to prove their patriotism?
    Mr. McNeill. No, sir; I do not.
    Mr. Miller. Okay. Mr. Cash, I think the testimony here 
today has been that a lot of the growth of fire departments has 
been in--has been professionals, rather than volunteers. Do you 
see North Carolina's fire departments moving more toward mixed 
fire departments?
    Mr. Cash. Yes, I do. That is a trend in North Carolina's 
role as well as across the Nation. For example, a lot of 
departments in my county are now beginning to hire one daytime 
firefighter to be responsible for administration, taking care 
of the apparatus, and doing report routings, plus to help 
respond that piece of equipment to the scene and be assured 
that that piece of equipment arrives on the scene quickly and 
efficiently.
    Mr. Miller. Okay. How does this legislation effect that 
transition to mixed departments?
    Mr. Cash. We think it would enhance and augment this 
program, especially if it is run through, like the Chairman has 
mentioned on several occasions, through the same type of 
procedure as the FIRE Act, which would assure some equality 
across the Nation from volunteers to career departments.
    Mr. Miller. Okay. And just one more question, Mr. Cash. The 
60 New York firefighters who were off-duty and went to the 
fire--to the World Trade Center when they saw what was 
happening and simply went to help, do you have any doubt that 
firefighters, professional or volunteer, would have responded 
the same way anywhere in the United States?
    Mr. Cash. It is our calling, Congressman. And we are going 
to go wherever help is needed.
    Mr. Miller. Thank you, Mr. Chairman.
    Chairman Boehlert. Thank you very much. Distinguished Vice 
Chairman of the Full Committee, Mr. Gutknecht.
    Mr. Gutknecht. Mr. Chairman, all of the questions that I 
was going to ask have already been asked, so I will yield my 
time to someone else.
    Chairman Boehlert. Well, next in line is Mr. Bonner.
    Mr. Bonner. Thank you, Mr. Chairman. I would just like to 
ask Chief Cash a question, since he is from the South, and he 
is from a town that is similar to some of the communities that 
I represent in South Alabama.
    SAFER would provide funds to hire additional career 
firefighters, which are badly needed in my District in a town 
like Mobile, which is the largest metropolitan center. But in 
some of the smaller communities, such as the one that you come 
from, do you believe this legislation would provide additional 
assistance to the rural volunteer communities, and if so, what 
would this legislation do, in your view, to retain volunteer 
firefighters once they were recruited?
    Mr. Cash. We think it is critical that the legislation 
include the package or the conditions about recruitment and 
retention. That is a problem all across America, not only in 
North Carolina, but I am sure it is in Alabama. And the bill, 
if tracked similar to the FIRE Act that the Chairman has 
referred to and as I have referred to a couple times, if it 
would follow that process, we feel like it would be equitable 
across the board. And it would benefit the smaller rural fire 
departments in Alabama as well.
    Mr. Bonner. Thank you. Thank you, Mr. Chairman.
    Chairman Boehlert. Anything else?
    Mr. Davis.
    Mr. Davis. I, too, agree most of the questions that need to 
be asked have probably already been asked, but I want to 
compliment those who are full-time as well as volunteer 
firefighters in our State. I live in Tennessee, and I live in a 
small community. And my fire department is about eight miles 
from my home. It is a volunteer fire department with no paid 
professionals. And most of the 14 fire departments in my county 
are volunteer fire departments. I served once as Mayor of a 
small town called Byrdstown. It is the smallest county in 
Tennessee. We had a couple of fires downtown, and the volunteer 
fire department, no paid professionals at that City Hall at 
that time in the late '70's. We, as a result of those fires, 
devastating fires to a restaurant and some of the business 
people there in town, actually started training young 
individuals, who became part of a youth fire department. One of 
those individuals, at the age of 18, was driving a truck one 
night that--a tanker that overturned and lost his life. So the 
volunteers in our organizations across this Nation, and 
certainly in the small rural areas that I represent, play a 
major part in fire protection. And do you feel that the 
dollars--the funding that is being provided provides adequate 
training to where--that our volunteer fire departments, as well 
as professional fire departments, will receive adequate 
training and this funding will help with that? Mr. Cash.
    Mr. Cash. I am sorry. Yes, we feel like it would. But the 
FIRE Act Grant, which you passed several years ago, which is 
now in place, provided for training for fire departments to be 
able to apply for that grant money and utilize those monies for 
training functions.
    Mr. Davis. Thank you, Mr. Chairman. I yield back the rest 
of my time.
    Mr. Smith of Michigan [presiding]. Mr. Udall.
    Mr. Udall. Thank you, Mr. Chairman. I want to also extend 
my thanks to the Panel and--for your testimony today. It has 
been very helpful to all of us on the Committee. I wanted to 
also particularly thank Mike for making the long trip out from 
Denver.
    And I want to start with, Mike, you. You mentioned in your 
testimony the reductions in Denver, per se. And I was curious 
if you are seeing similar kinds of reductions around the 
Colorado area and the other areas that you oversee in your--
with your responsibilities.
    Mr. McNeill. There are similar reductions, Congressman. I 
think, at this point, most of them, if not all of them, are 
caused by the economic downturn. We have seen reductions of 
staff over the last year in Portland, Oregon, Gresham, Oregon. 
We have seen it--we see it coming in Boulder, Colorado in your 
District, which is a--they are going to lose 75--or 25 percent 
of their firefighters up there at the end of the month if 
something isn't done. So it is not--excuse me, it is not 
something that is confined to my department. It is, indeed, a 
nationwide problem.
    Mr. Udall. On the heels of your response, if I could throw 
a question out to the entire Panel and ask each one of you to 
comment briefly. As we have heard today, some people object to 
the idea of federal help to the States and cities, because they 
view the States' current budget problems as being caused by 
overspending in the past. Do you think that the staffing cuts 
that you have all described today were caused by bad decisions 
in the past or do you see other reasons at work here?
    Mr. McNeill. I see other things at work here. Maybe the 
decisions could have been better in the past, but I think, by 
and large, the people that have been elected to run the cities 
and towns and the fire districts in this country are doing the 
best job they can. They have to spread a finite number of 
dollars across a number of services. To prioritize one service 
before or ahead of another, to prioritize public safety in 
front of social services is a tough thing for some people to 
do, but that is what is happening right now.
    Mr. Udall. Um-hum.
    Mr. McNeill. That is--and that is part of the problem. I 
think the problem in Boulder, Colorado was caused by a 
reluctancy of the electorate there to re-up on a sales tax.
    Mr. Udall. Right.
    Mr. McNeill. And they decided not to do that. So there was 
25 percent of their budget gone. So they are going to lose 25 
percent of their force. Tough decisions have been made, and 
they will have to be made. But I don't think the decisions in 
the past have been poor.
    Mr. Udall. Um-hum.
    Mr. McNeill. I don't think they have been ill informed. I 
think they have been made with the best interest of the people 
of the community at heart.
    Mr. Udall. So you would place a lot of the reason for this 
situation on the downturn in sales tax revenues and just the 
economy that is languishing right now?
    Mr. McNeill. That and the fact that there is an additional 
burden placed on the Fire Service because of the terrorist 
alerts.
    Mr. Udall. Exactly. The vector is going two different 
directions. Yeah, as you mentioned, Mike, in your testimony, $1 
billion a year, although a very significant amount of money in 
the overall context of the request for homeland security, and 
given the front line responsibility of the firefighting 
community, it would make--it is a--not a minimal amount. But it 
is an amount that would seem to be able to be fit into those 
budget allocations.
    Mr. McNeill. We would certainly hope for at least that, and 
in the future, maybe more----
    Mr. Udall. Yeah.
    Mr. McNeill [continuing]. Depending on how things progress 
in the future.
    Mr. Udall. Yeah.
    Mr. McNeill. But given the overall importance and the 
impact that the funds would have on the security of the 
communities in the United States, I don't think that is--you 
know, I think that is a good starting point. I don't think that 
is----
    Mr. Udall. Yeah.
    Mr. McNeill [continuing]. An ending point.
    Mr. Udall. Would anybody else in the Panel like to respond 
to that question? Chief.
    Mr. Cash. I would like to make a statement concerning that, 
and I agree with Mr. McNeill. Mostly in my community, the 
emphasis would be on the downturn in the economy as well as the 
job loss and the shrinking tax base.
    Mr. Udall. Um-hum. Chief Quill.
    Mr. Quill. I would have to agree with both other gentlemen. 
The economic downturn, hindsight is 20/20 looking back at some 
decisions that were made. If we had a second chance, I think 
other decisions would be made. There is just so much--there is 
so much money in the pot, and it has to go many different 
directions, so I would have to agree with them.
    Mr. Udall. Congressman, Attorney General, what else? Mr. 
President.
    Mr. Shannon. I really think the principle problem that this 
legislation is seeking to attack is the increased demand that 
has been put on the fire departments. I can't tell you how many 
times since September 11, 2001 I have been with Fire Service 
personnel from around the country, big communities and small, 
career and volunteer fire departments, where their beepers go 
off and they are being called to deal with some planning effort 
for homeland security. And they are putting an enormous amount 
of time and effort and resource into this. I mean, there is an 
economic downturn, but even without the economic downturn, we 
have got to face the fact that we are asking these fire 
departments to do a lot more than they have ever had to do 
before. And not only are we asking them to do it, we are saying 
it is an urgent national priority----
    Mr. Udall. Yeah.
    Mr. Shannon [continuing]. To do it. And that is what this 
legislation is all about: giving them at least some of the 
resources necessary to do the job we have told them the country 
needs them to do.
    Mr. Udall. Thank you for your testimony. Thank you, Mr. 
Chairman.
    Chairman Boehlert. Mr. Smith.
    Mr. Smith of Michigan. Thank you, Mr. Chairman.
    Mr. Cash, in your testimony, you indicated that SAFER might 
be improved by doing something for volunteers. Help me explore 
some of the greatest needs for volunteers in terms of 
retention. For the start of all, what would--give me your 
opinion on what is the greater problem right now: getting 
volunteers in or retaining them?
    Mr. Cash. Congressman, I think it is both. We have a 
problem with recruitment, and I think an answer to that would 
be at the State level and especially at the National level, a 
recruiting promotional type of event to take place. Monies be 
set aside to do a National or State level recruiting program. 
And on the retention side, we have offered several suggestions 
such as educational reimbursements for firefighters, special 
housing programs for firefighters, tax breaks for firefighters. 
There are all kinds of concepts and ideas that we have kicked 
around.
    Mr. Smith of Michigan. Now in terms of recruitment, what 
would be some of the major things? And I guess I don't even 
know whether it is somewhat universal with volunteer fire 
departments and combination departments that volunteers don't 
get--sometimes don't get reimbursed for lost wages or 
sometimes, in our area, in Michigan, they take vacation time to 
go to training. Is that somewhat universal or----
    Mr. Cash. It is in my State, and in the Southeast United 
States. The firefighters are faced with--unable to leave their 
work, and maybe some type of program that would allow employers 
to be reimbursed when those firefighting employees are away 
from their normal job doing training for the local volunteer 
fire department.
    Mr. Smith of Michigan. And so do--does that mean that you 
would suggest that we include that kind of an option in with 
the funding that we might offer for volunteers as the Defense 
Authorization Bill goes through that they might have some 
allowance to use some of that money for reimbursements while 
they are going to training, or you suggested education in your 
testimony, education credits, and I--my impression was that was 
for higher education?
    Mr. Cash. That is correct.
    Mr. Smith of Michigan. What are some of the other thoughts 
of any of the Panel that we might have to entice volunteers? 
And of course, nationally, we put more and more requirements on 
those volunteers and more and more training requirements to the 
point where in the recruitment effort, if some of those are 
modified in some ways so that there is not so much individual 
sacrifice on families. So Mr. Shannon, maybe go down the line. 
How do we strengthen the effort for volunteers while we are 
strengthening the employment for full-time?
    Mr. Shannon. I think I would yield to what the Chief has 
had to say. I mean, we feel very, very strongly that this 
recruitment issue has to be addressed, both among career and 
volunteer fire departments. And I think this bill goes a long 
way toward doing that. I think that the--you know, it is 
primarily, at this point, a question of the necessary--you 
know, the necessary resources. And if we can make those 
resources available and make sure the people are adequately 
trained and that they are going to be able to do the job in a 
safe fashion, I think that the volunteer spirit in this country 
is such that we will have adequate numbers in our volunteer 
fire ranks.
    Mr. Smith of Michigan. Mr. Quill, any thoughts?
    Mr. Quill. Really no thoughts. I am not an expert in the 
volunteer Fire Service other than they do a terrific job, and 
we are very proud of them. Chief Cash is a--and Mr. Shannon 
have both answered the question. I feel--I would have to tend 
to agree with them.
    Mr. Smith of Michigan. Mr. McNeill.
    Mr. McNeill. I don't think I have much to add to what has 
already been said. I know that finding inherently qualified 
people to serve in the Nation's Fire Service is a difficult job 
in the career service on that side of it. I know it must be 
very difficult on the volunteer side. I applaud what the 
volunteer service does, and I think that Chief Cash is on the 
money there as far as what should be done and what can be done.
    Mr. Smith of Michigan. I mean, just such a huge--if we lose 
our volunteers--we are looking at 80 percent of our 
firefighters now being volunteers. If we lose those volunteers, 
a tremendous cost to local governments if they can no longer 
have volunteers to help cover their fire stations. So somehow, 
we have got to deal with it. And of course, in some--many 
communities across America, instead of that hometown where you 
have got the cobbler and the barber shop and local stores, now 
people are working outside of those communities. So it is more 
and more difficult to get somebody right in town that is close 
to the station to hop on and go fight a fire. So as--we will 
explore these challenges, but I hope you all agree that, along 
with SAFER, we need to encourage the volunteer effort.
    Thank you, Mr. Chairman.
    Chairman Boehlert. Sheila Jackson Lee, please.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman, and 
thank you for holding this hearing. None of us in this room 
have ever doubted the importance of fire personnel in our 
respective communities. But not wishing to be redundant, but 
let me say that certainly 9/11 has heightened our ability to 
pronounce the question or be able to say ``thank you'' and to 
be able to say how important first responders have always been 
in our community.
    I recall right after 9/11, I went home to my community and 
held a meeting, particularly with firefighters from around the 
county. And they were at a heightened alert, because at that 
time, everyone was calling on them. Shortly after 9/11, of 
course, came the anthrax scare. And in my community in Houston, 
they must have had about 100 calls. Thank goodness, probably 
not one was that particular element: baby powder and other type 
substances. But it did not diminish the responsibility of 
firefighters to go out to the scene to calm the individuals, 
to, if you will, cordon off the scene and to provide the 
insight and the direction that was necessary.
    I think this legislation is very important, and I have a 
number of questions and concerns, and I look forward, as a 
supporter of this legislation, to seeing it move, if you will, 
as quickly as it possibly can. But I--Mr. Shannon, I would be 
interested in hearing what your thoughts are on the 
modification that is now in the amendment that the Senator has 
offered where the monies go directly, as I understand it. I am 
not sure if there has been a consensus to offer an additional 
amendment, but it goes directly to State and local governments 
and not to the agency that we had original drafted it.
    I would also be interested, if you would, tell me about the 
importance of overtime, also, in stretching, if you will, 
overworked firefighters. I know their time frame is certain 
days on and certain days off, but what is happening with 
overtime in our communities in terms of extending the time that 
firefighters are serving?
    Mr. Shannon. I don't have any data on overtime use, Ms. 
Lee. Sometimes, of course, in the fire services, we know, and I 
think New York, after September 11, was a very good example of 
that, overtime in the Fire Service is inevitable. And----
    Ms. Jackson Lee. And very important?
    Mr. Shannon. I think----
    Ms. Jackson Lee. Compensated overtime?
    Mr. Shannon. I think that it is extremely important. And I 
think it is extremely important that we treat all of our 
firefighters well. I think that one of the issues that has to 
do with overtime is the fact that so many fire departments have 
had to be short-staffed now. That is going to increase overtime 
costs and put more firefighters' lives at risk, and that is one 
of the problems that this legislation seeks to address.
    The Chairman asked earlier on the question of the mechanism 
by which the funding gets to the fire departments. First of 
all, I want to say that I think it is vital that it--that the 
money start to flow. However this legislation can be resolved 
in conference, I think it is vital that this money begin to 
flow. And I expressed my position earlier that the more direct 
route to the fire departments is the better route. And I think 
that the FIRE Grant Program has proven to be very successful in 
that regard. And so I would say that direct funding to the fire 
departments is probably the best way to ensure that the help is 
going to get where we need it as quickly as we need it.
    Ms. Jackson Lee. That is very interesting. That is 
insightful to those of us who are looking at the legislation. 
Let me pose two questions, and then if all of you would take a 
stab. I think one of them is directly toward Mr. Quill. And let 
me say that I am a big supporter. I come from a large city, 
fourth largest city in the Nation, and we do have fire staffing 
issues that I would like to see remedied by this particular 
funding. And I understand that this includes rural and urban 
centers, which is very important, and also helps volunteer 
operations as well. My interest is that, we understand, from 
Mr. Shannon's testimony, that 233,000 firefighters, 21 percent 
of the total, lack formal training in structural firefighting. 
More than 10,000 fire pump trucks in service are more than 30 
years old. And 57,000 firefighters have no personal protective 
clothing. With respect to Mr. Quill, we understand that you 
had, in the '70's, as you have indicated, '96 you are down to 
17, that your personal costs have cost 92 percent. I want to be 
sure that we help those who will have to have a matching 
amount. If you can share with me how you believe that you will 
be able to meet the matching.
    And then with respect to my other questions, from Mr. 
Shannon's testimony, others may want to answer it, are we doing 
the right thing when we need formal training? Are we getting 
these additional firefighters? What are we doing to improve 
safety on the other aspects with the old trucks, not enough 
training, etcetera? How are we balancing those needs?
    Mr. Quill. Could I ask you for your question again?
    Ms. Jackson Lee. Yeah, Mr. Quill. You can just go to the 
one about the smaller entities trying to be able to have their 
matching monies.
    Mr. Quill. That would have to--when the individual 
municipalities apply for this grant, they will have to be sure 
that they are capable, ready, willing, and able to meet the 
matching funds, so that they can comply with it. If the City of 
Auburn were to apply for these funds, it would most certainly 
have to talk with the City Government to be sure that they are 
going to meet the matching funds. If we can't do that, there is 
no use going through all the paperwork and possibly holding off 
someone else's grant--be receiving the funding. And I am not 
sure I am asking you--answering your question.
    Chairman Boehlert. Chief, then wouldn't it be very similar 
to the COPS Program, Ms. Jackson Lee----
    Ms. Jackson Lee. Right.
    Chairman Boehlert [continuing]. As you know, with the local 
requirement? I understand the question, and it is a very good 
question.
    Ms. Jackson Lee. Yeah, I just want--and I--and you have 
answered it. I guess what you are saying is that the local 
community needs to make a commitment, and you would see the 
desire to make that commitment on that match?
    Mr. Quill. That is correct.
    Ms. Jackson Lee. Mr. Chairman, could you indulge me so Mr. 
Shannon could just answer the question about balancing these 
other needs with these--the hiring dollars that we are going to 
be giving you?
    Mr. Shannon. I think that that is also a very important 
point that as--the hiring dollars are crucial, because there is 
a gap now in personnel in the Fire Service. But we shouldn't 
believe that once that problem is solved that the big problem 
is solved, because as the Needs Assessment that you referred 
to, Ms. Jackson Lee, points out that there are problems with 
training, there are problems with equipment, with protective 
clothing. These are all going to take dollars as well. And 
hopefully, with an upturn in the economy, more of those dollars 
are going to be able to come from local governments and from 
States, but even after the personnel issue is resolved, there 
is going to be a need to address these other concerns as well.
    Chairman Boehlert. Thank you very much.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. Thank 
you.
    Chairman Boehlert. Dr. Burgess.
    Dr. Burgess. Yes. Thank you, Mr. Chairman. I am going to 
ask a question that may be so basic that you wonder why I ask 
it, but help me understand the concept. We have got the FIRE 
Grants that FEMA is administering and I appreciate those. I 
have actually been a participant in handing some of those out 
in my district. But why have those FIRE Grants that FEMA is 
administering not been able to free up the funding for local 
staffing? And are we going to further that problem with what we 
are talking about today?
    Mr. Quill. The cost of the equipment for the Fire Service, 
once is--once it is found out that the equipment will be used 
for Fire Service--for firefighting, the price just becomes 
astronomical. It is just unbelievable. The Fire Service is so 
far behind the times in many areas, with their tools and 
equipment, that they--as it was said earlier here today, there 
are many departments without personnel protective equipment, 
the basic coat, helmet, boots that firefighters need to wear. 
We have to catch up to that. We have to bring everyone up to 
somewhat of a level playing field with the money that is put 
aside in the FIRE Grants for this equipment. It seems like we 
are starting to get near that point. We are at a basic level. 
Now the staffing is very crucial, but first of all, we have to 
have the tools to work with.
    Dr. Burgess. Do you feel that there is a diversion of local 
funds because of the FEMA Grant coming in and purchasing the 
basic technology and the basic equipment?
    Mr. Quill. I don't believe I could answer that properly at 
this time.
    Dr. Burgess. I guess the question is are we hurting 
ourselves by doing this?
    Mr. Shannon. Mr. Burgess, if I can, and I am sorry I don't 
have the report with me, but I will get it to you after this 
hearing, if that is all right. But if you look at the needs 
that--and the Needs Assessment, the FEMA Report that NFPA was 
involved with, the--I don't think there is any fear at all, if 
that is the concern, that federal money will give an 
opportunity for states and local government to pull back on the 
supports for the fire--support for the fire department. The 
needs are enormous for protective clothing, for training, for 
new equipment for past devices. Mr. Boehlert, oh, it has been--
I think it has been submitted. And if you look at that, you 
will see that there is--I don't think there is any fear or 
should be any concern that this money is going to supplant 
local funding for the fire departments. The needs far outstrip 
what will be available, even with this legislation.
    Chairman Boehlert. Dr. Burgess, let me point out that we 
have all been given a copy of the Needs Assessment, and I would 
suggest you might give it a glance. It is very valuable 
reading.
    Any further questions, Dr. Burgess?
    Dr. Burgess. [No response]
    Chairman Boehlert. Mr. Bishop.
    Mr. Bishop. Thank you. Actually, my colleague here from 
Texas asked several of the questions that I already had there, 
as well. If you would just be kind enough to reassure me in 
some way before we start moving forward on this particular 
bill. The first one is there have been programs in the past, 
like COPS, where the federal funding has gone in there, and as 
soon as the grants have been taken away at some time in the 
future, the money to keep those men on staff has withdrawn as 
well. Is there any kind of guarantee that we have that the same 
thing will not happen in this particular area?
    And the second reassurance I would desperately need at some 
time, is sometimes we, in the Federal Government, have had the 
tendency of doing programs that were high on symbolism but low 
on reality, especially several years ago we decided to come up 
with a whole new program to put new teachers into the 
classrooms. And the amount of money and the amount of teachers 
would equal, like, 1/4 of a teacher per school district. Can 
you guarantee me, reassure me, that if we actually move forward 
in this program it is going to make a difference in all 
departments, or is this going to be--have to be a shotgun 
approach, a scatter gun approach? Are you going to have to 
zero-in in some particular way? What kind of assurances are we 
going to have that we are actually going to make a difference 
down on the local levels?
    Mr. Shannon. I--Mr. Bishop, if I might say, I certainly 
understand your question. I used to have the same concerns 
about funding programs when I was a Member of the House of 
Representatives and want to make sure that the money isn't 
just, you know, being sent scatter-shot and not being used 
appropriately. All I can tell you in response to your question 
is that, you know, I personally, and our organization, deals 
with fire departments all across the country. These are very 
real needs, and they are immediate needs. And they will save 
lives. Additional dollars put into staffing of fire departments 
will have an immediate payback in lives. And there was some 
specific reference to fires that have taken place where it is 
pretty clearly documented that the staffing gaps in particular 
communities resulted in the loss of firefighter lives and in 
civilian lives. So I don't think that there is--there should be 
any concern that this money isn't going to be useful and isn't 
going to be very useful to communities that meet--that have 
real needs. And there is going to need to be more of a--support 
come from the local level, no question about that, and more 
support coming from the state level. But I think that the 
Federal Government assistance, at this point, can really help 
jump-start that effort.
    Mr. Bishop. Are you focusing specifically an effort to try 
and help all departments everywhere or are you going to try and 
focus the money to make a maximum impact in certain areas?
    Mr. Shannon. It is going to be a grant program, and 
communities are going to apply for the money, and they are 
going to have to justify that.
    Mr. Bishop. But the goal is to focus the money?
    Mr. Shannon. Yes.
    Mr. Bishop. Thank you so much. Thank you, Mr. Chairman.
    Chairman Boehlert. Thank you very much, Mr. Bishop, and 
thank you, all of you, but particularly our two Chiefs, because 
every single day, you and your teams are on the firing line 
protecting our homes, our communities, and our nation. And we 
deeply appreciate it. We want to commit to you that this 
committee, Republican and Democrat alike, is determined to 
follow through to get the resources you need to do the job we 
expect you to do. And we are not going to let up, and we are 
going to be unrelenting. We have got the federal grant program 
going, and it is working exceptionally well, no pork barrel, no 
political intrigue, just of, by, and for the fire services. And 
that is the way it should be. That is going to continue. And we 
are going to try our darnedest to get you some relief on the 
staffing problem. But it is not going to be a blank check from 
Washington, as you recognize. It is going to be a shared 
responsibility, but we are going to do--try to do our share.
    So I want to thank all of you for being resources. 
Congressman Shannon, it is always good to see you again back 
home. And Mr. McNeill, thank you and your team for what you are 
doing so well.
    This hearing is now adjourned.
    [Whereupon, at 12 p.m., the Committee proceeded to other 
business.]
                              Appendix 1:

                              ----------                              


                   Additional Material for the Record



                     STATEMENT CONCERNING H.R. 1118
          SUBMITTED ON BEHALF OF THE ``TWO-HATTERS COALITION''

By Adele L. Abrams, Esq., Law Office of Adele L. Abrams, P.C., 4740 
        Corridor Place, Suite D, Beltsville, MD 20705; 301-595-3520; 
        www.safety-law.com

CHAIRMAN BOEHLERT AND MEMBERS OF THE COMMITTEE:

    This statement is being submitted for the record following the June 
4, 2003, hearing on H.R. 1118, the ``Staffing for Adequate Fire and 
Emergency Response (SAFER) Act of 2003'' on behalf of the ``Two-Hatters 
Coalition'' (``THC'' or ``Coalition''). The THC is a group of men and 
women who are paid union firefighters in their full-time jobs, and who 
volunteer as unpaid firefighters in their local communities during 
their days off from work. The members of the Coalition provide critical 
emergency services at a time when local fire departments and paramedic 
teams are vastly underfunded. Therefore, we applaud this committee for 
investigating this issue and considering the aforementioned 
legislation.
    As Congress looks for solutions to the crisis in emergency 
response, we wish to point out current developments that serve only to 
exacerbate this problem. In certain areas including, but not limited 
to, the Washington, DC metropolitan area, these ``Two-Hatters'' are 
being brought up on charges by their unions because of their unpaid 
volunteer activities at local volunteer fire departments (``VFDs'').
    These Two-Hatters are facing trial board charges in Washington, DC, 
Arlington, VA, Montgomery County, MD, and other jurisdictions. These 
Two-Hatters face expulsion from the union unless they agree to cease 
their volunteer firefighter activities. The International Association 
of Firefighters, and some of its locals, has deemed volunteer fire 
departments to be ``rival'' labor organizations. As the IAFF noted, in 
correspondence to its members on this issue:

        The IAFF Constitution makes it clear that IAFF members can be 
        subject to charges and internal discipline if they serve as 
        volunteers. . .all too often, jurisdictions rely upon the 
        services of volunteers to undermine the efforts of our own 
        members to obtain the resources necessary to support a properly 
        staffed and adequately equipped full time career fire 
        department. As a union representing the interests of paid 
        professional fire fighters, we can and must promote the 
        interests of our members by strongly advocating career fire 
        departments across North America.\1\
---------------------------------------------------------------------------
    \1\ September 20, 2002, letter to IAFF Affiliate Presidents from 
Harold A. Schaitberger IAFF General President.

    There are economic consequences for the Two-Hatters, regardless of 
whether they opt to ``walk the plank'' by leaving the union or 
resigning as volunteer firefighters. But, more critically, there are 
public safety consequences arising from this attempt to deplete the 
ranks of volunteer fire departments in order to protect union 
interests.
    Local communities depend heavily on volunteer firefighters, and can 
ill-afford to create paid firefighter positions to replace those Two-
Hatters who may be forced to withdraw from participation in these VFDs. 
Some of the Two-Hatters now being brought before trial boards are the 
same individuals who were involved in rescue operations at the Pentagon 
and who, as volunteers, provide emergency support to departments in 
Prince George's County, MD,\2\ that serve as backup for emergencies on 
Capitol Hill and the federal agencies in Washington. Following the 
September 11, 2001, events at the World Trade Center, hundreds of 
volunteer firefighters and volunteer fire chiefs worked alongside of 
and supported career firefighters in New York City. It is incredible 
that these same individuals are now being viewed as ``the enemy'' by 
their own unions simply because of their volunteer activities.
---------------------------------------------------------------------------
    \2\ About 200 volunteer firefighters in Prince George's County, MD, 
are ``Two-Hatters'' and, therefore, the ranks would be depleted by this 
number of individuals if the firefighter union is successful in forcing 
out these individuals under threat of financial sanctions and/or union 
expulsion.
---------------------------------------------------------------------------
    Today, nearly 50 percent of some VFDs' firefighters are ``Two-
Hatters'' and in most cases, these volunteers serve the VFDs during key 
evening and weekend shifts, while paid firefighters work a more regular 
weekday schedule. These volunteers are extremely skilled, well-trained 
and physically fit.\3\ How quickly such VFDs could find and train 
comparable replacement volunteers who are not career firefighters and 
who are willing and available to work these less-desirable shifts (much 
less find the revenue to fund such positions) is unknown. But, given 
our current state of alert, it is not a risk worth taking for our 
communities. A selection of recent news reports on this issue is 
attached to this statement and we ask that these be included in the 
Congressional record concerning H.R. 1118.
---------------------------------------------------------------------------
    \3\ The resume of John Gorman, one of the ``Two-Hatters'' who is 
current faced with union trial board charges because of his volunteer 
firefighter activities, is attached as an illustration of the 
qualifications that will be lost to our communities if such 
discrimination against Two-Hatters is permitted to continue. See 
Appendix A.
---------------------------------------------------------------------------
    Action to prohibit continuation of volunteer services by Two-
Hatters is also occurring elsewhere in the United States because the 
International Association of Firefighters is condoning such action. The 
rationale is that if these ``two hatters'' are forced to stop 
volunteering, more ``paid'' positions will be created by the counties 
and municipalities. To fund that, there will be an increase in taxes to 
pay for the newly hired firemen and emergency medical staff. But the 
harsh truth is that there is no money to create new paid positions. 
Thus, the end result will be a reduction in force at volunteer 
departments and a diminution of public safety and ability to respond to 
emergencies.
    As was noted in a recent Bowie (MD) Blade editorial: ``It is beyond 
comprehension why the International Association of Fire Fighters would 
severely penalize a member of its union for unselfishly volunteering 
his services, during his off-work hours from a fire department in 
Virginia, to the Bowie Volunteer Fire Department. This draconian action 
by the national firefighters union also lays the groundwork for 
substantial damage to local firefighter organizations.'' \4\
---------------------------------------------------------------------------
    \4\ Bowie Blade editorial, March 27, 2003.
---------------------------------------------------------------------------
    The International Association of Fire Chiefs has estimated that 
two-thirds of American fire departments do not meet minimum staffing 
requirements. We agree. The IAFC has noted that 75,000 new firefighters 
are needed to bring these departments into compliance. We agree. But 
Congress must recognize that municipal governments simply do not have 
the resources to fund 75,000 new paid firefighter positions, even with 
the additional funding anticipated in this legislation. We respectfully 
suggest that the United States needs more, not fewer, volunteers to 
maximize our homeland security efforts. The discrimination in 
employment against individuals simply because they elect to answer 
President Bush's call to serve their country as volunteers must end.
    The IAFF's war on volunteer firefighters also impermissibly 
interferes with these union members' First Amendment rights of Freedom 
of Association and should be deemed unconstitutional. Whatever their 
full-time job, no one should be adversely treated on-the-job or face 
financial penalties because they choose to volunteer their services in 
protection of their community.
    As a solution to this issue, and in support of strengthening 
emergency response teams, we propose that the following underscored 
language be added to Section 34(a)(1) of 15 U.S.C. 2201 et seq.,\5\ to 
ensure that persons who volunteer as emergency service providers will 
not be subject to adverse employment action as a consequence of their 
volunteer activities.
---------------------------------------------------------------------------
    \5\ As amended by Section 2 of H.R. 1118, page 2, lines 2-9.

        The Administrator shall make grants directly to career, 
        volunteer, and combination fire departments_provided that such 
        departments and/or their unions do not discriminate in 
        employment or take adverse action against an individual because 
        of the individual's activities as a volunteer firefighter_in 
        consultation with the chief executive of the State in which the 
        applicant is located, for the purpose of increasing the number 
        of firefighters to help communities meet industry minimum 
        standards to provide adequate protection from fire and fire-
---------------------------------------------------------------------------
        related hazards, including acts of terrorism.

    We believe that adoption of this language will help to effectuate 
the legislative goal of increasing the number of firefighters to help 
communities meet industry minimum standards and will advance the cause 
of providing adequate protection from fire and fire-related hazards, 
including acts of terrorism. More information can be found on our 
group's website, http://www.twohatters.org/. Thank you for your 
consideration of our concerns.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
